<html>
<title> - FISCAL YEAR 2012 NOAA BUDGET REQUEST AND OVERSIGHT</title>
<body><pre>[Senate Hearing 112-185]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-185
 
                 FISCAL YEAR 2012 NOAA BUDGET REQUEST 
                             AND OVERSIGHT 

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 13, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-171 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK L. PRYOR, Arkansas              ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                Rebecca Seidel, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                     MARK BEGICH, Alaska, Chairman
PDANIEL K. INOUYE, Hawaii            OLYMPIA J. SNOWE, Maine, Ranking
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             MARCO RUBIO, Florida
MARK WARNER, Virginia                KELLY AYOTTE, New Hampshire























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 13, 2011...................................     1
Statement of Senator Begich......................................     1
Statement of Senator Snowe.......................................     3
Statement of Senator Isakson.....................................    16
    Prepared statement...........................................    17
Statement of Senator Ayotte......................................    33

                               Witnesses

Jane Lubchenco, Ph.D., Under Secretary of Commerce for Oceans and 
  Atmosphere and Administrator, National Oceanic and Atmospheric 
  Administration (NOAA), U.S. Department Of Commerce.............     5
    Prepared statement...........................................     7

                                Appendix

Responses to written questions submitted to Dr. Jane Lubchenco 
  by:
    Hon. John D. Rockefeller IV..................................    39
    Hon. Maria Cantwell..........................................    44
    Hon. Mark Begich.............................................    58
    Hon. Olympia J. Snowe........................................    70
    Hon. Jim DeMint..............................................    73
    Hon. Roger F. Wicker.........................................    75
    Hon. Johnny Isakson..........................................    78
Lee R. Crockett, Director of Federal Fisheries Policy, Pew 
  Environment Group, prepared statement..........................    79
Letter dated April 12, 2011 to Hon. Barbara Mikulski and Hon. Kay 
  Bailey Hutchison from 130 organizations representing a diverse 
  range of commercial and recreational fishing associations, 
  commercial seafood dealers, the charter and for-hire industry, 
  fishery dependent businesses and ocean conservation 
  organizations..................................................    84


           FISCAL YEAR 2012 NOAA BUDGET REQUEST AND OVERSIGHT

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. We're going to call this meeting to order.
    Thank you, Dr. Lubchenco, for being here, and good 
afternoon. Again, welcome, and thank you for joining us.
    The Ranking Member will be here shortly, but we wanted to 
go ahead and start to keep things as much on schedule as 
possible.
    Before we start, I want to commend NOAA for its work in 
recent weeks in detecting and monitoring the Pacific tsunami 
that followed the massive earthquake in Japan.
    Thanks to the professionals at the tsunami warning centers 
in Hawaii and Alaska, they had a good sense of where and when 
the tsunami would hit. We were able to monitor the progress of 
the tsunami in Alaska in real time from our office by using 
NOAA's network of online tide gauges.
    While my state was spared, Hawaii, California, and Oregon 
suffered some damage, but it could have been far worse without 
the improvements we made to NOAA's warning system in 2004.
    NOAA, of course, is responsible for the stewardship of our 
oceans, coasts and Great Lakes, stewardship which includes 
managing the nation's important fisheries, resources and 
protecting our ocean and coastal economic zones.
    Part of the reason we are here today is to discuss the 
funding necessary to keep these programs operating and to hear 
from you, Dr. Lubchenco, about how you plan to prioritize and 
implement NOAA's programs during the evermore challenging and 
politicized budget climate.
    Of course, the yearly budget battles are hardly a new 
fight. Every administration has its own priorities. As you know 
well, Congress occasionally has different opinions, and I am 
pleased to see that the President's budget for Fiscal Year 2012 
requests $5.49 billion, includes funding for ensuring the 
continuing and continuity of the critical weather- and climate-
predicting satellites that my state, as well as the rest of the 
nation, relies upon. I wish we would have been able to support 
and make sure that Fiscal Year 2011 had that same thing.
    And we know we have some gaps. Those gaps will likely 
affect the military, marine and aviation safety and search-and-
rescue efforts.
    I want to hear more from NOAA about how it plans to deal 
with the likely gap in weather satellite coverage impacting 
Alaska and the rest of the Nation.
    I recognize that the budget also proposes a reorganization 
within NOAA that brings together the existing climate research 
and monitoring services under a single line office, the Climate 
Service.
    Alaska, as you know, Dr. Lubchenco, is ground zero for 
climate change. Change is occurring in the Arctic twice as fast 
as anywhere else on the planet.
    I look forward to hearing more about how this 
reorganization will affect NOAA's ability to support the 
decisions of city planners, water managers, farmers, businesses 
and others who need long-range climate forecasts.
    I have questioned the agency's recent spending to advance 
the ocean and marine spatial planning efforts. In part, because 
they, like all new priorities, come at the expense of core 
statutory obligations required by NOAA.
    While some states welcome the idea of marine spatial 
planning, I can tell you, as I have said before, and I know, 
Dr. Lubchenco, when I say ocean zoning, the idea runs into 
stiff resistance in Alaska, mainly because they fear the 
Federal bureaucracy supplanting and planning work they've 
already done in ensuring Alaskans have a strong local voice in 
the process, including the North Pacific Fisheries Council.
    I'm worried, too, that while you move forward with this, in 
just the last few weeks fishery observers are missing 
critically important days at sea because of a lack of funding 
and the budgetary uncertainty of the current fiscal year.
    We, as authorizers, must be made aware of both the 
opportunities and challenges presented for the agency under 
different funding scenarios.
    Funding will remain tight into the future, and as the 
missions and priorities expected of your agency appear to 
increase each year, I look forward to collaboration with you to 
accomplish the core functions of NOAA in Alaska and the rest of 
the nation, managing marine fisheries for sustainability, 
growing jobs in the seafood sector, providing accurate and 
timely delivery of weather-service forecasts and advisories for 
safety of pilots, mariners and general public, conducting the 
baseline research needed to protect our oceans and resources, 
while also addressing the nation's need for energy.
    Dr. Lubchenco, I welcome your testimony today and thank you 
for being here.
    What I'd like to do is ask the Ranking Member--I know she 
came from another meeting and was rushing over here, so I 
appreciate it. And that's all we do around here it seems, rush 
from one place to another.
    Senator Snowe. Exactly right. That's right.
    Senator Begich. But I want to let Ranking Member Snowe have 
some opportunity to make some comments, and if she wants to 
catch her breath for a minute, that's fine, too.
    Senator Snowe. Thank you. Thank you, Mr. Chairman. I have 
yet to figure out how to be in two places at the same time, but 
that's----
    [Laughter.]
    Senator Begich. When you figure that out, I think every 
Senator would like that opportunity to know.
    Senator Snowe. That's right. Thank you.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman, for holding this 
timely hearing today to review the President's Fiscal Year 2012 
budget request for the National Oceanic and Atmospheric 
Administration.
    And I want to welcome you, Dr. Lubchenco, and I appreciate 
your ability to be here today to answer our questions.
    Today marks the 35th anniversary of the enactment of 
Magnuson-Stevens, which this committee reviewed last month and 
has been the foundation that has ultimately led to the 
announcement that overfishing in the United States has ended an 
historic achievement which should catalyze efforts to 
streamline regulations and build our fisheries in coastal 
economies.
    One unifying message from all of our witnesses that day was 
that adequate funding for the survey data to inform stock 
assessments is absolutely essential for effective management 
decisions, choices that have serious implications on our 
coastal economies. And so it's appropriate that we're now 
conducting oversight of NOAA's budget proposal for 2012.
    Yet, as the Senate is finally debating this year's budget, 
nearly 7 months after the current fiscal year commenced, by any 
measure, Congress has abjectly failed to provide the resources, 
make the critical budget-constrained choices and provide 
certainty for agencies and departments.
    Furthermore, while failing to pass a budget, we were unable 
to compare the administration's budget proposal to the results 
from this year's enacted budget.
    As a result, I'd like to work with the Chairman, along with 
the Appropriations Committee, to ensure that we enact a timely 
budget for 2012--I won't hold my breath--and ensure that key 
investments in basic research will be provided to job creators 
that rely on this data.
    I appreciate your work, Dr. Lubchenco, under this 
challenging fiscal impasse, to maintain the crucial operations 
of NOAA. I look forward to continuing our ongoing conversations 
about how to improve NOAA's efforts to manage our nation's 
oceans, coasts and Great Lakes, and to provide accurate and 
timely weather forecasts and climate projections.
    The budget that the administration proposes requests a 15.8 
percent increase over the Fiscal Year 2010 enacted levels, 
which is dedicated almost exclusively to satellite procurement. 
Clearly, in this fiscal situation, we must redouble our efforts 
to examine and implement methods that will better leverage 
Federal funding at a time when the fiscal reality is that we 
must prioritize discretionary spending at every agency.
    At the same time, more than half of our population lives in 
coastal communities and oceans and coasts are the lifeblood of 
our economy.
    We have had an ongoing dialogue about fisheries management 
issues, particularly as they relate to the northeast region. 
It's absolutely imperative that the budget sustains momentum to 
programs such as the sector-based approach that have delivered 
results.
    For example, while I appreciate key investments in the 
President's proposals, including an additional $15 million for 
expanding stock assessments, at the same time, the budget 
proposes to cut nearly $6 million from cooperative research, a 
program that has helped improve relationships between NOAA's 
fishery and fishermen.
    According to the administration's own budget justification, 
poor or antiquated stock assessments, and I quote, ``force 
fishery managers to resort to ad hoc methods for setting annual 
catch limits in an overly conservative manner, thus limiting 
fishing opportunity in order to prevent overfishing.''
    Both the National Research Council and the Ocean Commission 
report concluded that a strong fishery stock assessment program 
is the foundation of successful management of commercial and 
recreational fisheries. The fact is this budget will only 
increase the number of fishery stocks with adequate stock 
assessments by 12 percent over the next five fiscal years.
    Frankly, we must have a budget that provides the data that 
underpin critical management decisions that, again, have 
dramatic consequences on coastal economies.
    In Maine, hypothetical stock assessments--as I've mentioned 
repeatedly here in this committee--for herring directly led to 
the closure of the Stinson cannery in Prospect Harbor, exacting 
further job losses in an economically distressed community.
    These are jobs throughout our country, and we must develop 
a budget plan that will ultimately provide stock assessments 
for all fisheries that are adequate and are representative of 
the fishery at large.
    By contrast, there is more than $2 billion in this request 
for a drastic overhaul of NOAA's environmental monitoring 
satellites, more than the amount for fisheries, ocean and 
coastal programs and fundamental research combined.
    I remain concerned that the execution of acquiring and 
developing the Joint Polar Satellite System has been overly 
costly for the American taxpayer, and prior to supporting any 
budget that includes this level of funding, we need assurances 
that this program will be on time and on budget.
    Finally, NOAA's budget must be developed to be commensurate 
with the economic challenges confronting coastal economies, 
whether it is the Gulf Coast that continues to recover from the 
BP oil spill almost 1 year ago or Prospect Harbor, Maine, which 
now is transitioning from the closing of the last herring 
cannery to a new lobster processing facility, because coastal 
economies require a budget with a laser-like focus on economic 
growth and diversification.
    I appreciate the administration's inclusion of $8 million 
for distressed fishing communities and displaced fishermen. 
However, I'm concerned, Dr. Lubchenco, that with the spread 
throughout the 35 coastal states, commonwealths and territories 
in the United States, these funds will do little to transition 
our fishery-based communities to diverse economies.
    So, once again, I thank you, Mr. Chairman, for convening 
this critical hearing. And I thank you again, Dr. Lubchenco, 
for being here before the Committee today.
    Senator Begich. Thank you, Senator Snowe.
    Senator Isakson, if you have something to state before, 
I'll be happy to--I'll open that up, but then we'll go right 
into Dr. Lubchenco.
    Senator Isakson. I will when it's time to question, but I'm 
looking forward to hearing Dr. Lubchenco's opening statement.
    Senator Begich. Very good. Thank you.
    Dr. Lubchenco, again, thank you very much for being here. 
And I appreciate that we're finally on the 2012 budget cycle. 
I'm sure you're excited about that. I'm as optimistic as the 
Ranking Member on the 2012 budget. So, hopefully, you'll raise 
that optimism as you present today. So thank you very much 
again. Please.

STATEMENT OF JANE LUBCHENCO, Ph.D., UNDER SECRETARY OF COMMERCE 
                 FOR OCEANS AND ATMOSPHERE AND 
        ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
       ADMINISTRATION (NOAA), U.S. DEPARTMENT OF COMMERCE

    Dr. Lubchenco. Thank you very much, Chairman Begich, 
Ranking Member Snowe, Senator Isakson. It's a pleasure to see 
each of you. Thank you for your leadership and your support of 
NOAA.
    As you know, we are one of the nation's premier 
environmental science and stewardship agencies. The vital role 
that we play in the protection of life and property has, 
indeed--as you mentioned--been exemplified by NOAA's actions in 
the wake of the tragic events in Japan last month.
    The earthquake and resulting tsunami had far-reaching 
effects, and many of NOAA's programs played a critical role in 
issuing lifesaving information to emergency officials and the 
public in the U.S. and around the world.
    I'm honored to be here today to discuss the President's 
Fiscal Year 2012 budget. It recognizes the central role that 
science and technology play in creating jobs and improving the 
health and security of Americans.
    I want to highlight several lynchpins of our Fiscal Year 
2012 request--key savings, climate services, weather, 
satellites, fisheries and protected resource management and 
coastal and ocean services.
    As part of the administration's administrative efficiency 
initiative, NOAA analyzed its administrative costs and reduced 
non-essential spending by $67.7 million. We conducted a 
rigorous review of our programs and activities and identified 
additional savings.
    The Fiscal Year 2012 request, as you noted, is $5.5 
billion, a decrease from the Fiscal Year 2011 request and an 
increase above the Fiscal Year 2010 enacted due primarily to 
our requirements to execute the restructured civil polar 
satellite program.
    The Fiscal Year 2012 budget request includes a proposed 
budget- neutral reorganization that brings together NOAA's 
existing but widely disbursed climate capabilities under a 
single line office called the Climate Service. The Climate 
Service, if approved by Congress, would have a budget of $346.2 
million.
    The climate services that we currently provide demonstrate 
their utility. Advances in science make it possible for us to 
provide useful information about the months-to-years timeframe, 
which is of immense utility to businesses, communities and 
military operations.
    The National Weather Service provides critical information 
to communities and emergency managers and is the nation's first 
line of defense against severe storms and disasters like 
tsunamis and flooding.
    The Fiscal Year 2012 request for this service is $988 
million. This request envisions using cutting-edge technologies 
to achieve our vision of delivering more reliable forecasts, 
reducing weather-related fatalities and improving the economic 
value of weather, water and climate information.
    This includes a $26.9 million increase to modernize our 
aviation weather forecasts and warnings to support the NextGen 
development activities allowing for better integration of 
weather information into decisionmaking solutions for the FAA, 
potentially reducing the number of air delays and saving 
billions of dollars.
    NOAA's satellites provide the data and information for 
forecasts that are vital to every citizen. They enable safe 
transportation, smart construction and emergency rescue 
missions.
    The Fiscal Year 12 budget request for the satellite service 
is $2 billion, which we'll invest in multiple satellite 
acquisition programs for the continuity of critical weather, 
climate and oceanographic data. This includes an increase of 
$687.8 million for the essential Joint Polar Satellite System.
    As Senator Snowe noted, as we look toward Earth Day next 
week, I want to acknowledge and highlight the 35th anniversary 
of the Magnuson-Stevens Fishery Conservation and Management 
Act. This law will and continues to be the driver for NOAA as 
we deliver on our commitment to environmental stewardship, 
sustainable fisheries and healthy marine ecosystems.
    Because of MSA, we are on track to end overfishing in 
federally managed fisheries, also to rebuild stocks and ensure 
sustainable use of our ocean resources, all of which are 
essential to preserving the livelihoods of fishermen and 
related industries.
    In Fiscal Year 2012, NOAA requests $1 billion to support 
fisheries and protected resources management. This request 
includes investments to expand annual stock assessments and 
improve the quality of catch monitoring and recreational 
fisheries.
    We will also continue to support the consideration of catch 
share management by the councils. Catch shares have yielded 
significant financial and ecological benefits as well as 
improved safety for fishermen where they have been utilized.
    It is expected that the nation's coastal population will 
grow by more than 11 million by 2015. The president's Fiscal 
Year 2012 budget includes $559 million to enable NOAA to 
continue delivering a dynamic range of services promoting safe, 
healthy and productive oceans, coasts and Great Lakes.
    This request includes $2.9 million to develop an oil spill 
research and development program within NOAA's Office of 
Response and Restoration, and a $5 million increase to 
implement the U.S. Integrated Ocean Observing System's Surface 
Current Mapping Program.
    In closing, I would like to note that I have a nickel in my 
hand. I believe that this nickel represents one of the best 
bargains in the world. It costs each American slightly less 
than five cents a day to operate NOAA. And for this nickel you 
get the best weather forecasts in the world that allows us to 
save lives and property when severe storms strike.
    This nickel helps make our coasts more healthy and vibrant. 
It supports American business owners, from fishermen on the 
coast to farmers in the heartland, and this nickel helps keep 
our homeland secure.
    At NOAA, our work is everyone's business. We take our work 
seriously because we know that citizens and businesses depend 
on us each and every day.
    I look forward to working with the members of this 
committee and our constituents to achieve the goals that we've 
laid out in the implementation of the 2012 budget.
    I'm happy to answer any questions that you may have. Thank 
you very much.
    [The prepared statement of Dr. Lubchenco follows:]

    Prepared Statement of Jane Lubchenco, Ph.D., Under Secretary of 
    Commerce for Oceans and Atmosphere and Administrator, National 
   Oceanic and Atmospheric Administration (NOAA), U.S. Department of 
                                Commerce
    Chairman Begich and members of the Committee, before I begin my 
testimony I would like to thank you for your leadership and the support 
you have shown the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA), one of the nation's premier 
environmental science and stewardship agencies. Your continued support 
for our programs is appreciated as we work to improve the products and 
services that are vital to supporting America's businesses, 
communities, and people. I am honored to be here as the Under Secretary 
of Commerce for Oceans and Atmosphere at NOAA to discuss the 
President's FY 2012 budget.
    Secretary Locke is singularly focused on how the Department of 
Commerce can help American businesses compete for the jobs of the 
future. As part of the Commerce Department, NOAA generates value for 
the Nation by providing the information and services that communities, 
managers, businesses, and individuals rely on every day to make 
decisions about their lives and businesses. NOAA touches the lives of 
every single American; we work 24/7 to keep families safe, property 
protected, living marine resources vibrant, communities thriving, and 
businesses strong. NOAA works everywhere, in every state, and from the 
surface of the sun to the depths of the ocean. Our research informs our 
many services and science guides our stewardship of the oceans, coasts, 
and Great Lakes.
    The vital role NOAA plays in the protection of life and property 
has recently been exemplified by NOAA's action in the wake of the 
earthquake and resulting tsunami in Japan last month. NOAA played a 
critical role in issuing life saving information to emergency officials 
and the public in the U.S. and around the world. I'm sure I echo the 
sentiments of many when I say that our hearts, thoughts and best wishes 
are with the people of Japan and the survivors of the cataclysmic 
earthquake and tsunami that, in a matter of minutes, took the lives of 
thousands and forever changed the lives of millions. NOAA will continue 
to provide whatever support we can as those affected recover and 
rebuild from this tragedy.
    The President's FY 2012 budget request promotes innovation and 
American competitiveness and lays the foundation for long-term economic 
growth, while making responsible reductions. In particular, the budget 
recognizes the central role that science and technology play in 
stimulating the economy, creating new jobs, and improving the health 
and security of Americans.
FY 2012 Budget Request and FY 2010 Highlights
    Secretary Locke has brought a dedicated focus on efficiency and 
good management to the Department of Commerce. As part of the 
Administration's Administrative Efficiency Initiative, an aggressive 
government-wide effort to curb non-essential administrative spending, 
NOAA analyzed its administrative costs and reduced non-essential 
spending by $67.7 million. Beyond administrative savings, NOAA engaged 
in a rigorous review of its programs and activities and identified 
additional savings that were achievable. For example, we were able to 
reduce the cost of operating our current satellite programs, and we 
restructured our international portfolio of climate research. Further, 
as a member of the newly established Gulf Coast Ecosystem Restoration 
Task Force we are working with Federal and state agencies to find 
efficiencies, improve coordination and accountability in restoring Gulf 
Coast ecosystems.
    In short, the FY 2012 budget for NOAA reflects our efforts to focus 
on program needs, identify efficiencies, and ensure accountability. It 
sustains core functions and services, and proposes increases for only 
the most critical programs, projects, or activities necessary to 
address the growing demand for NOAA's science, services, and 
stewardship. The FY 2012 request is $5.5 billion, which is a decrease 
from the FY 2011 request. The FY 2012 request is an increase above FY 
2010 enacted due primarily to our requirements to execute the 
restructured civil polar satellite program. As I will discuss later, 
this new generation of satellites is needed to replace satellites that 
will go out of service in the years to come. They are essential for 
both routine weather forecasts on which the private weather industry 
depends, and for storm warnings and watches that only the government 
can issue. The expenditures on satellites are mission critical for 
NOAA. People's lives and property depend on them. This year 21 people 
have been rescued because of NOAA satellite tracking, and 91 have been 
rescued since last October. Beyond weather forecasts, fishermen and 
recreational boaters count on NOAA satellites to keep them safe in the 
event of an emergency at sea.
    The FY 2012 NOAA budget recognizes that environmental and economic 
sustainability go hand in hand. We learned through the BP Deepwater 
Horizon oil spill and other events that we cannot have healthy 
economies without healthy communities and healthy ecosystems and that 
good science and stewardship is good business. NOAA's 2012 budget makes 
the investments needed to save lives and livelihoods, to understand 
these critical connections, and to ensure sustainable communities, 
economies, and ecosystems.
    Now I will turn to the details of the FY 2012 budget request and 
outline areas of significant investment.
Climate Service
    The FY 2012 budget request includes a proposed budget-neutral 
reorganization that brings together NOAA's existing widely dispersed 
climate capabilities under a single line office management structure 
called the Climate Service. The proposed organization mirrors the 
structure recommended by the National Academy of Public Administration 
expert panel that, at Congress' request, completed a study on options 
for a climate service in NOAA. The principal goal of this budget-
neutral reorganization is to better align NOAA's existing assets under 
a unified leadership to more efficiently and effectively respond to the 
rapidly increasing public demand for climate services. The Climate 
Service would provide reliable and authoritative climate data, 
information, and decision-support services, and to more effectively 
coordinate with other agencies, partners, and the private sector. And--
important to this committee and to me--the proposed structure would 
strengthen the world-class science for which NOAA is justly known. 
Without continued advances in the science that supports our mission, 
the utility of services will degrade with time. Hence, the success of 
this organization requires attention to strengthening our core science 
capacity, strengthening the service-provision capacity and 
strengthening the connections between the two.
    NOAA is continually improving our scientific and technological 
capacity to develop and deliver a range of science and services. For 
example, NOAA's improved maximum precipitation predictions have been 
used to develop new standards for dam design that are being implemented 
around the Nation to improve dam safety and reliability. Similarly, 
through collaboration with the National Association of Home Builders 
and the Department of Housing and Urban Development, NOAA developed an 
Air Freezing Index that the home building industry estimates saves $300 
million annually in construction costs and the equivalent of 9 million 
gallons of gasoline.
    The budget-neutral realignment of resources within the current NOAA 
budget would not change staffing levels, would not require employee 
relocations, physical relocation of programs or labs, any new 
facilities, and would not increase the size of NOAA's overhead. The 
Climate Service headquarters would be located in Silver Spring, 
Maryland.
    The NOAA Climate Service, if approved by Congress, would have a 
budget of $346.2 million. Of this amount, NOAA proposes $3.0 million to 
support the Regional Climate Centers (RCC) in FY 2012. This funding 
will maintain support for RCCs as critical NOAA partners in the 
development and delivery of regional climate services. The RCCs will be 
aligned with the six NOAA Climate Service Regions and fully integrated 
as core components of NOAA's regional climate services partnership. 
Each center will function as a source of expertise in the region, 
working to identify stakeholder needs and matching these needs with the 
emerging science and decision support services flowing from the Climate 
Service's core capabilities. For example, this work could improve 
products for farmers, who already rely on NOAA climate data, 
particularly in El Nino/Southern Oscillation years, to make smart 
decisions about what variety of seed to plant and the amount of 
fertilizer to use. These types of forecasts can potentially provide a 
$500-$960 million per year benefit to the U.S. agriculture industry.
National Weather Service (NWS)
    NOAA's National Weather Service (NWS) is the Nation's first line of 
defense against severe weather. NOAA provides weather, hydrologic, and 
climate forecasts and warnings for the United States, its territories, 
and adjacent waters for the protection of life and property and the 
enhancement of the national economy. More sectors of the U.S. economy 
are recognizing the impacts of weather, water, and climate on their 
operations and are becoming more sophisticated at using weather-related 
information to make better decisions. The NWS provides critical 
information to communities and emergency managers. In 2010, the United 
States experienced a number of extreme weather events including the 
historic winter blizzards in the Northeast early in the year, historic 
flooding in the Midwest and Tennessee, and the third most active 
Atlantic hurricane season on record. The tragedy of the March 2011 
tsunami in Japan, which had far reaching effects including the U.S. 
West Coast, reinforces the very real threat of severe weather events, 
and underscores the value of comprehensive warning systems and a 
prepared public.
    The FY 2012 request for NWS is $988 million. The request envisions 
using cost-cutting and cutting-edge technologies to better support the 
programs necessary to achieve NOAA's vision of delivering more reliable 
forecasts, reducing weather-related fatalities, and improving the 
economic value of weather, water, and climate information.
    Weather-related air traffic delays cost the U.S. economy over $41 
billion in 2007, according to the Congressional Joint Economic 
Committee. Two thirds of these delays could be avoided with more 
accurate and better-integrated weather information for decision-making. 
To meet the rising demands of the air transportation industry, NOAA is 
involved in a collaborative partnership with the Federal Aviation 
Administration (FAA) and other Federal agencies to create the Next 
Generation Air Transportation System (NextGen). NOAA requests a $26.9 
million increase to modernize our aviation weather forecasts and 
warnings. This funding supports NextGen development activities, 
allowing for better integration of weather information into decision-
making solutions for the FAA--potentially reducing the number of air 
delays.
    Wind shear is hazardous to aviation and critical to hurricane 
formation and intensity. The nation's upper air (UA) network enables 
unmatched ability to detect this wind shear and enables much improved 
ability to define the jet stream core by providing approximately 78,000 
atmospheric profiles (wind, humidity, temperature, pressure and 
altitude) per year from ground level to up to 60,000 feet. To improve 
the UA network, NOAA requests a $5 million increase for new GPS 
radiosondes to provide a 50 percent improvement in wind measurement 
accuracy and a 6-fold improvement in vertical resolution. With this 
investment, NOAA will fully fund the purchase of GPS radiosondes for 
all 102 UA observing stations, ensuring improvements to weather models.
    Large maritime data voids exist where no meteorological or 
oceanographic data are routinely sampled due to poorly maintained 
buoys. This lack of data makes it difficult for forecasters to make 
accurate and timely marine warnings and forecasts and to measure the 
accuracy of their forecasts. NOAA currently operates 101 moored, 
weather observation buoys and 49 coastal, marine automated network 
stations. However, over the last 8 years, system performance has 
trended downward to the current low of 67 percent data availability as 
of February 2011. This trend will continue downward to 65 percent data 
availability by 2011 without increased support. NOAA requests a $4 
million increase to provide operations and maintenance funding for 
damaged and destroyed buoys and to comply with new international 
regulations. Funds will also be used to begin reducing the backlog of 
deferred maintenance by employing charter vessels to supplement the 
diminishing availability of U.S. Coast Guard ship time for servicing 
the weather buoy network.
    In FY 2012 NOAA requests a total of $41 million, including $10.2 
million from mandatory funds provided by the Deficit Reduction Act of 
2005, to support our tsunami warnings and research activities. Within 
minutes after the March 11th earthquake struck, NOAA issued its first 
tsunami warning for Japan, Russia, Marcus Islands, and Northern Mariana 
Islands as part of the coordinated global response to this tragic 
natural disaster. Shortly thereafter, timely watches, advisories, and 
warnings were extended to vulnerable coastal areas of Alaska, British 
Columbia, California, Washington, Oregon, and Hawaii well ahead of the 
arrival of the first waves. To maintain the effectiveness of these 
services, NOAA's Tsunami Program will use the FY 2012 funding to 
continue operations of NOAA's Deep-ocean Assessment and Reporting of 
Tsunami (DART ) buoy network, maintenance of its 164 sea-level 
stations, and funding of its two Tsunami Warning Centers (TWC). NOAA 
will continue to expand community preparedness and finalize the balance 
of the tsunami hazard mitigation models (to cover all U.S. coastal 
areas). NOAA will also continue research to improve its tsunami warning 
and forecast capabilities, and the completion of high resolution models 
for tsunami inundation forecasts for tsunami threatened local 
communities.
    Although NOAA's Tsunami Warning Centers and DART stations are 
operated by NWS, NOAA drew from the capabilities of all our line 
offices to provide a comprehensive response to the March 2011 tsunami. 
The following are examples of the contributions from other parts of 
NOAA:

  <bullet> NOAA's DART stations, a result of research performed at 
        NOAA's Office of Oceanic and Atmospheric Research, detected and 
        tracked the tsunami as it traveled from Japan across the 
        Pacific Basin.

  <bullet> National Ocean Service tide gauges, which help detect the 
        presence of a tsunami wave, use GOES satellites operated by 
        NOAA's Satellite Service to relay data to the tsunami warning 
        centers.

  <bullet> NOAA response teams from the National Ocean Service are in 
        California to assist with detection of submerged debris 
        resulting from the tsunami in marine transportation arteries 
        along the coast.

    Finally, the underpinning of NOAA's products and services mentioned 
previously is the model-based guidance of NOAA's operational high 
performance computing (HPC). HPC provides models and model-based 
estimates of both current and future states of the Earth's environment, 
which are a key component of modern weather forecasts. NOAA requests an 
$11 million increase toward transitioning NOAA's HPC to a new contract, 
as well as continuing regular improvements to our numerical weather 
prediction modeling.
National Environmental Satellite Service (NESS)
    NOAA's satellites provide the data and information for forecasts 
that are vital to every citizen in our Nation. From safe air, land, and 
marine transportation to construction and emergency rescue missions, we 
all use satellite products in our everyday lives. In FY 2010, our 
satellite program saw a major milestone accomplished with the launch of 
Geostationary Orbiting Environmental Satellite (GOES)--15, the final 
spacecraft in the latest series. GOES-15 joined three other GOES 
spacecraft in assisting the Agency's forecasters to more accurately 
track life-threatening weather from tornadoes, floods, and hurricanes 
to solar activity that can impact satellite-based electronics, 
communications, and power industries. In FY 2010, NOAA satellites also 
provided key support in the rescue of 281 people throughout and near 
the United States by providing their location to emergency responders.
    The proposed reorganization would also affect some programs within 
the National Environmental Satellite, Data, and Information Service 
(NESDIS), which would be renamed the National Environmental Satellite 
Service (NESS), as all three of its Data Centers would be transferred 
to the Climate Service. The FY 2012 budget request for NESS is $2 
billion, which we will invest in multiple satellite acquisition 
programs for the continuity of critical weather, climate, and 
oceanographic data. NOAA requests an increase of $687.8M for the Joint 
Polar Satellite System (JPSS), which is NOAA's responsibility under the 
former National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) program. Polar satellites provide critical weather 
forecasting for the $700 billion maritime commerce sector and provide a 
value of hundreds of millions of dollars to the fishing industry. The 
satellites save approximately $200 million each year for the aviation 
industry in ash forecasting alone and provide drought forecasts worth 
$6-8 billion to farming, transportation, tourism and energy sectors. 
Both civilian and military users will use JPSS data and products, which 
will continue to fulfill NOAA's requirements to provide global 
environmental data used in numerical weather prediction models for 
forecasts. On behalf of NOAA, the National Aeronautics and Space 
Administration (NASA) will serve as the lead acquisition agent for 
JPSS, which supports the afternoon mission requirements. The Department 
of Defense will continue the acquisition of early morning orbit assets. 
NOAA is committed to working with our partners to complete the 
transition from the NPOESS program and to assure the continuity of 
Earth observations from space.
    The GOES-R series satellites will provide critical weather 
observations for severe weather events, such as hurricanes, and also 
provide key enhancements in observational capabilities for climate, 
oceans and coasts, and the space environment. This program is the next-
generation of geostationary satellites and provides mission continuity 
through 2036. NOAA continues to support the GOES-R program with a re-
phasing, taking us from a two-satellite program to a four-satellite 
program with the addition of two optional satellites (GOES-T&U), while 
still providing continued satellite engineering development and 
production activities for GOES-R and GOES-S.
    An uninterrupted climate record is critical to understanding global 
sea level rise, which directly threatens coastal communities and 
ecosystems through increased exposure and erosion, more intense storm-
surge and tidal flooding, and loss of natural habitat due to drowned 
wetlands. Therefore, NOAA is requesting an additional $33.0 million to 
continue development of the Jason-3 satellite, which will provide 
continuity of sea surface height measurements, ensuring an 
uninterrupted climate record of over 20 years. The Jason-3 mission is a 
joint U.S.--European funded partnership. NOAA requests an $11.3 million 
increase to partner with the Taiwan National Space Organization for the 
launch of 12 satellites to replenish and upgrade the Constellation 
Observing System for Meteorology, Ionosphere, and Climate (COSMIC) 
satellite constellation. This program is a cost effective means of 
obtaining information about temperature and moisture in the atmosphere 
around the globe, which will improve forecasting accuracy.
    In addition, a requested increase of $47.3 million will support, in 
cooperation with NASA, refurbishing the existing NASA Deep Space 
Climate Observatory (DSCOVR) satellite and its solar wind sensors and 
developing a Coronal Mass Ejection Imager. The data and information 
provided by DSCOVR will support the operations of the Space Weather 
Prediction Center, which generates accurate and timely 1 to 4 day space 
weather forecasts and warnings. Space observations of geomagnetic 
storms are vital to reduce negative effects to power grids, GPS, 
telecommunications, the health and safety of astronauts, and the 
viability of satellite systems.
Oceanic and Atmospheric Research (OAR)
    The major change as a result of the proposed reorganization to 
create a Climate Service (described above) is that NOAA would also 
strategically realign its existing core research line office, the 
Office of Oceanic and Atmospheric Research (OAR), to strengthen the 
agency's overall science enterprise and advance the atmospheric and 
ocean, coastal, and Great Lakes research and applied science goals 
expressed in the America COMPETES Reauthorization Act of 2010. OAR will 
refocus its work to serve as an innovator and incubator of new science, 
technologies, and applications, and an integrator of science and 
technology across all of NOAA.
    NOAA is committed to strengthening and integrating NOAA's science 
enterprise consistent with the President's call for science and 
innovation. NOAA's request includes $212 million for OAR to continue 
strengthening core capabilities, such as improving our understanding of 
ocean acidification and its impacts, and promoting conservation and use 
of America's coastal resources through our renowned Sea Grant Program, 
one of our many direct links to universities, citizens, and communities 
around the Nation. NOAA will also invest in the future by supporting 
innovation in weather forecasting science that can inform clean, 
renewable energy generation, which is related to an MOU with the 
Department of Energy. In FY 2012, NOAA requests $2 million to support 
research in targeted wind resource regions across the Nation. Funding 
will advance weather forecast accuracy and quality to allow for more 
efficient implementation of wind power usage in the United States.
    Another core capability at NOAA is exploration. The NOAA Ship 
Okeanos Explorer is among the most technologically advanced research 
vessels and platforms for ocean exploration in the United States. In FY 
2012, NOAA is requesting an additional $1.5 million to advance the 
operations of the Okeanos Explorer with the operation of telepresence 
technology, which enables scientists, educators, and others to 
participate and lead ocean exploration missions from remote shore-based 
Exploration Command Centers; to operate and upgrade the ship's 
autonomous and remotely-operated vehicles; provide additional 
scientific days at sea; and reduce our huge knowledge gap of what lies 
in the deep ocean.
National Marine Fisheries Service (NMFS)
    NMFS conserves, protects, and manages living marine resources to 
sustain marine ecosystems, afford economic opportunities, and enhance 
the public's quality of life. Rebuilding our nation's fisheries is 
essential to preserving the livelihoods of fishermen and related 
industries. In 2008, U.S. commercial and saltwater recreational 
fisheries supported 1.9 million full- and part-time jobs and generated 
$163 billion in sales impacts.\1\ In FY 2012, NOAA requests $1.001 
billion to support fisheries and protected resource management to 
ensure an optimal balance between conservation objectives and economic 
opportunities.
---------------------------------------------------------------------------
    \1\ Fisheries Economics of the United States, 2008: http://
www.st.nmfs.noaa.gov/st5/publication/fisheries_economics_2008.html.
---------------------------------------------------------------------------
    NOAA is making important strides to end overfishing, improve 
fishery management, and put fisheries on a path to sustainability. 
Working with the Regional Fishery Management Councils, in FY 2010, five 
fisheries stocks were rebuilt. Based on estimates, rebuilding U.S. 
fisheries would increase the current dockside value by an estimated 
$2.2 billion (54 percent) annually from $4.1 billion to $6.3 billion 
annually. In FY 2012, NOAA will continue to maximize the potential of 
the nation's most economically important fish stocks through sound 
science and management. NOAA will invest $67 million to expand annual 
stock assessments to continue to ensure Annual Catch Limits (ACL) are 
based on the best available science. ACLs and accountability measures 
(AM) are required under the 2007 reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act for all non-exempt fish 
stocks, including overfished stocks, by the end of 2011 to end 
overfishing. This investment will help verify that NOAA successfully 
ended overfishing ensuring ACLs are set at the most optimal level 
possible so that the return for fishermen is maximized while 
maintaining the health of the resource.
    NOAA will invest $3 million to improve the timeliness and quality 
of catch monitoring in recreational fisheries to ensure recreational 
fisheries are not unnecessarily restricted due to a lack of data. This 
is part of a broader effort to work more closely with the recreational 
fishing community.
    In addition to sound science, robust management strategies are 
vital to sustainable fisheries. In 2010, NOAA released the National 
Catch Share Policy, and we will continue to support consideration of 
catch share management by the Councils. Catch share programs, which 
include limited access privilege programs and individual fishing 
quotas, dedicate a secure share of fish to individual fishermen, 
cooperatives, or fishing communities. In the United States, catch 
shares are currently successfully implemented in 15 fisheries from 
Alaska to Florida, and local Fisheries Management Councils are in the 
process of developing them in several additional fisheries. Catch share 
programs are difficult and sometimes controversial to implement, and we 
recognize that some in Congress are concerned about them. But they have 
yielded significant financial and ecological benefits to the fisheries 
that utilize this system. Both here and in other countries, catch 
shares help to eliminate overfishing and achieve annual catch limits, 
improve fishermen's safety and profits, and reduce the negative 
biological and economic effects of the traditional ``race for fish.'' 
This budget includes $54 million to support the voluntary establishment 
of catch share programs by those Councils that want to utilize this 
tool to achieve the Magnuson-Stevens Act requirements. We want to 
support those Councils that believe that catch shares are the way to 
better manage their fisheries but need assistance in designing and 
implementing them.
    In addition to fisheries, NOAA manages protected resources, such as 
marine mammals and turtles. This requires balancing conservation 
objectives and economic opportunities, including commercial fishing 
activities and energy development. Investments in priority research in 
recovery actions are required to mitigate harm and maximize economic 
potential. In FY 2012, NOAA will invest an additional $2.5 million to 
increase NOAA's capacity for protected species stock assessments that 
provide the foundation of information for decisionmakers. We will 
continue supporting the Species Recovery Grants Program with a 
requested $8.0 million increase to provide grants to states and tribes 
to conduct priority recovery actions for threatened and endangered 
species, including restoring habitat, monitoring population trends, 
developing conservation plans, and educating the public.
    Managing fisheries and protected species to their full biological 
and economic potential requires additional efforts focused on 
maintaining habitat and ecosystem functioning. NOAA requests $24 
million for the Community Based Restoration Program, including a new $5 
million effort to address larger restoration projects. NOAA plans to 
increase fish passage, spawning, and rearing habitat by implementing 
large-scale ecological restoration in targeted areas such as wetlands. 
To support the restoration and protection of the Chesapeake Bay, we 
request a $5 million increase for regional studies in the Bay. NOAA 
supports the President's Executive Order to restore the Chesapeake Bay 
by providing enhanced understanding of the relationships between the 
Bay's living resources and habitat, coordinating protection and 
restoration of key species and habitats across jurisdictional lines, 
and supporting a coordinated system of monitoring platforms distributed 
across the Bay.
National Ocean Service (NOS)
    In July 2010, President Obama signed Executive Order Number 13547 
that adopted the Final Recommendations of the Interagency Ocean Policy 
Task Force and established the National Policy for the Stewardship of 
the Oceans, Coasts, and the Great Lakes--reinforcing the notion that 
``healthy oceans matter.'' NOS supports this policy by translating 
science, tools, and services into action to address coastal threats 
such as climate change, population growth, port congestion, and 
contaminants in the environment. A pivotal event in 2010 was the 
explosion of the BP Deepwater Horizon oil rig on April 20. Within 
hours, NOAA responded, providing targeted weather forecasts and oil 
spill trajectory maps and mobilizing personnel and assets to respond to 
what evolved into the largest oil spill in U.S. history. The Office of 
Response and Restoration (OR&R) played a critical role in our response 
and is leading our efforts to assess damage caused by the event. Over 
half of the U.S. Gross Domestic Product is generated in coastal 
counties,\2\ and it is expected that the nation's coastal population 
will grow by more than 11 million by 2015 so NOS' services will become 
more vital to the coastal environment and economy.\3\ Increasing 
population density, growing economies, and increased vulnerability to 
damages from hazards such as sea level rise or storms, habitat loss, 
and other threats makes the task of managing coastal resources more 
difficult. The President's FY 2012 Budget includes $559.6 million to 
enable NOAA to continue delivering a dynamic range of nationwide 
coastal and Great Lakes scientific, technical, and resource management 
services to meet the vision of being a Nation with safe, healthy, 
resilient, and productive oceans and coasts.
---------------------------------------------------------------------------
    \2\ Kildow, J.T., C. S. Colgan, and J. Scorse. 2009. State of the 
U.S. Ocean and Coastal Economies 2009. National Ocean Economic Program.
    \3\ Population Trends Along the Coastal United States: 1980-2008, 
NOAA 2004.
---------------------------------------------------------------------------
    Human uses of ocean resources (e.g., ocean-based energy, marine 
aquaculture, commercial and recreational fishery products, shipping and 
navigation services, and other activities) need to be managed 
holistically. In FY 2012, NOAA requests $6.8 million to develop an 
agency-wide capability to conduct and support Coastal and Marine 
Spatial Planning (CMSP) in U.S. waters. CMSP will help us manage ocean 
resources in a systematic way by evaluating competing ocean uses, 
assessing opportunities and potential cumulative impacts, and working 
with industry, state and local decisionmakers and other stakeholders, 
to explicitly make trade-off decisions. CMSP is designed to focus on up 
front planning. There are no regulations involved. It does not add 
another layer of government but is designed to be more efficient, 
effective, and reduce redundancies in decisionmaking. With the new 
Ocean Policy we are already witnessing efficiencies in our mapping and 
data collection across the Federal Government, with data and 
information from the Departments of Defense and the Interior, and from 
Coast Guard, being integrated into a common data base, which will be 
available to the public in the future.
    The Final Recommendations of the Interagency Ocean Policy Task 
Force include a framework for implementing CMSP across the United 
States in a manner that respects regional variation of issues and 
priorities. This initiative will significantly advance the Nation's 
capability to effectively and transparently match competing human uses 
to appropriate ocean areas. To further support CMSP and regional ocean 
governance, NOAA requests $20 million to establish a competitive grants 
program that will support regional ocean partnerships, such as the Gulf 
of Mexico Alliance, South Atlantic Governor's Alliance, and the West 
Coast Governor's Agreement on Ocean Health that are vital for advancing 
effective ocean management. In addition, a proposed increase of $1 
million in our mapping program will significantly improve the 
accessibility of integrated ocean and coastal mapping data.
    The BP Deepwater Horizon oil spill is a stark reminder that spills 
of national significance can occur despite the many safeguards and 
improvements that have been put into place since the Oil Pollution Act 
of 1990 was enacted. The risk of oil spills remains a concern given 
increases in marine transportation, pressures to develop domestic areas 
for drilling offshore, aging infrastructure susceptible to sea level 
rise and violent storms in U.S. coastal areas, and opening the Arctic 
to both shipping and oil development. NOAA's OR&R is the lead trustee 
for the public's coastal natural resources and an international 
scientific leader for oil spill response, assessment, and restoration. 
NOAA requests $2.9 million to develop an oil spill research and 
development program within OR&R to advance response technologies and 
capabilities, especially in deep water and Arctic environments. With 
this funding, NOAA will support external grants for essential research 
to provide useful information, methods, and tools for planners, oil 
spill responders, and assessment practitioners. Also in support of oil 
spill response, NOAA requests a $5.0 million increase to implement the 
U.S. Integrated Ocean Observing System (IOOS ) Surface Current Mapping 
Plan using high frequency (HF) radar surface current measurements. HF 
radar provides information vital to oil spill response, national 
defense, homeland security, search and rescue operations, safe marine 
transportation, water quality and pollutant tracking, and harmful algal 
bloom forecasting.
    The BP Deepwater Horizon oil spill made it apparent that the 
economic and social well being of our coastal communities depends on 
the environmental suitability of our coastal resources. Numerous 
coastal communities, not only in the Gulf but all along our coasts, are 
being impacted by the loss of fishing opportunities. In FY 2012, NOAA 
requests $8 million to create a National Working Waterfronts grant 
program to assist fishing-dependent coastal communities. These grants 
will assist distressed or at-risk fishing communities by providing 
resources for planning, capacity building, and other activities to 
support economic diversity, resource conservation, and economic capital 
growth.
Program Support
    To deliver sound science and services, NOAA must continue to invest 
in its information technology (IT) infrastructure, the maintenance and 
construction of NOAA facilities, and the specialized aircraft and ships 
that complete NOAA's environmental and scientific missions. A requested 
$9.1 million increase will reduce the risk of cyber attacks by 
enhancing security monitoring and response capabilities and consolidate 
our IT infrastructure into a single enterprise network. This budget 
includes an additional $10 million to support major restoration and 
modernization projects to address critical facility condition 
deficiencies and to improve safety and operating conditions in support 
of NOAA's mission. The FY 2012 request ensures that NOAA's fleet of 
vessels is able to provide reliable, compliant, and high-quality ship 
support to NOAA programs through several increases. For example, $3.4 
million is requested to support environmental compliance costs, 
including ensuring that NOAA ships are not contributing to water 
quality degradation. Efforts to extend and maintain the life of the 
NOAA ships will be supported through an $11.6 million increase for 
repair periods.
    Also critical to the execution of NOAA's mission is our investment 
in the future. Students in K-12 we support today become our workforce 
of the future; undergraduate and graduate fellowship recipients provide 
immediate dividends; and each and every citizen touched by our literacy 
and outreach efforts become stewards of our natural resources. These 
down payments help to fulfill the President's commitment to education. 
The FY 2012 budget includes $20.8 million for NOAA's Office of 
Education to implement and manage scholarship programs aimed at 
fostering competitiveness in science, technology, engineering and math 
by providing quality educational opportunities.
Conclusion
    Overall, NOAA's FY 2012 budget request reflects the commitment that 
Secretary of Commerce Gary Locke and I have made to the President to 
out-educate, out-build, and out-innovate our competitors in support of 
robust economic job growth. We have made tough choices to cut lower 
priorities and identify cost-savings measures. The resources that are 
requested in this budget are critical to the future success of meeting 
our needs in climate, fisheries, coasts, and oceans. I look forward to 
working with you, the Members of this committee, and our constituents 
to achieve the goals I have laid out here through the implementation of 
the FY 2012 budget. Thank you for the opportunity to present NOAA's FY 
2012 budget request. I am happy to respond to any questions the 
committee might have.

    Senator Begich. Thank you very much. And let me--I'm going 
to hold my questions. I'll go to the Ranking Member, then 
Senator Isakson after that. Senator Snowe.
    And we'll limit this to--we'll probably have a couple of 
rounds, but we'll do this first round 5 minutes and then we'll 
go from that.
    Senator Snowe. Thank you, Mr. Chairman.
    Administrator Lubchenco, I wanted to get to the sector-
based management issues in the northeast, and based on the 
latest figures from NMFS, only 16 percent of the allowable 
catch of the haddock from the Georges Bank has been caught and 
only 31 percent of pollock.
    The more than 54,000 metric tons of haddock and pollock 
that can be caught this year are restricted by the choke 
species, the other species that obviously are strictly limited, 
and also by poor science and regulations that are preventing 
the optimum yield from our fisheries.
    I was wondering, given the fact that in your budget you 
include an increase of $36 million for catch shares--and that's 
a $36 million increase over the $18 million that was provided 
in this current fiscal year--how is that going to be allocated, 
spread across the nation, because, obviously, that is critical.
    I don't want this funding to be consumed by bureaucracies, 
but rather to expand the maximum yield and the ability of 
fishermen to be able to catch the maximum available fish that 
currently isn't the case, and we want to be sure that it too 
preserves the fishing community.
    And so that comes down to cooperative research. It comes 
down to technology and practices that will allow the fishermen 
to target healthier species.
    So can you give us an indication of how you're going to use 
that $36 million, in addition to the $18 million that was 
provided this year?
    Dr. Lubchenco. Senator, thank you for highlighting the 
importance of this request.
    NOAA Fisheries works closely with the councils to identify 
which fisheries are appropriate for catch share management 
programs and then to help design and then subsequently 
implement, if it is approved, a catch share program.
    Each of the councils has drawn up a list of which of the 
fisheries they think are ripe for development of new 
opportunities, and the request enables the development of new 
catch share programs as well as the continued implementation of 
existing ones.
    As you very correctly pointed out in your opening remarks, 
it is vitally important that we have the best possible stock 
assessment data, so that we can set catch limits that are 
appropriate regardless of the type of fishery management 
program that is used. And so the request that we have for an 
increase in $15 million in stock assessments is intended to 
address the high priority stocks and give us additional 
information so that we can both set good catch limits on a 
variety of species, but also know how well we're doing in 
ending overfishing for many of those stocks.
    Senator Snowe. So would the councils be making the 
decisions in terms of what activities?
    Dr. Lubchenco. Senator, we have worked with the councils 
too. They have each identified which fisheries they believe are 
appropriate for a catch share program. And they have identified 
their own priorities, and that's what we have put into this 
request. It's based on their setting of priorities for the next 
programs that they believe are teed up.
    It's, I think, important to recognize that many of these 
catch share programs take years to develop. The one that just 
went into effect on the West Coast, the trawl ITQ groundfish 
fishery, took seven to eight years to actually develop, and 
each one is different from another.
    So careful planning, learning from past experience, 
figuring out how we're going to fund the increased monitoring 
that is required as observers on the boats, how to transition 
that to the industry picking up the tab for that, that's all 
part of the design elements that are needed.
    Senator Snowe. I hope, though, that the focus could also be 
placed on the maximum yield and maximum harvesting on the part 
of the fishermen. I mean, the point is they have to have enough 
of a harvest to sustain themselves, and that's one of the key 
concerns.
    Given the difference between what fishermen catch and 
what's available for catching, but because of all these other 
limitations for the other species that are strictly limited, 
what is it that we can do to help them expand that capacity and 
that capability?
    For instance, I know that currently 10 percent of the catch 
that is not caught can be carried forward, and there have been 
requests, for example, to expand or increase that 10 percent to 
a higher level.
    So, one, I'd like you to answer the question whether or not 
you would support such an increase; and, two, what are we doing 
to focus on the maximum harvest that's available?
    Dr. Lubchenco. Senator, the $15 million request for an 
increase in stock assessments will help that very 
significantly, and that's why that is one of our priorities 
this year. We need those good data.
    Focusing on New England, for a moment, there are periodic 
new data that are taken on many different species and that 
allows us to make adjustments to the annual catch limits that 
are set on an annual basis.
    And for a number of the species, because our fishery 
management practice or our management has been working, we have 
recently been able to increase those catch limits based on new 
scientific information. So we need the new science to raise the 
catch limits. This request will help us get the new knowledge 
that enables us to do that down the road.
    Senator Snowe. And would you support an increase in the 10 
percent?
    Dr. Lubchenco. I would support an increase for any catch 
limit if we have the science to underpin that that would not 
jeopardize--is consistent with Magnuson-Stevens.
    Senator Snowe. Thank you.
    Senator Begich. Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman.
    I'd like to ask unanimous consent that a complete statement 
that I want to issue in the record be printed and included in 
the record.
    Senator Begich. Without objection.
    [The prepared statement of Senator Isakson follows:]

  Prepared Statement of Hon. Johnny Isakson, U.S. Senator from Georgia
    Dr. Lubchenco, as we have discussed in the past, in order for 
studies regarding the Savannah Harbor Expansion Project (SHEP) to come 
to conclusion and the project to move forward, final decisions on 
pending issues relative to the environmental mitigation plans must be 
made.
    The Corps of Engineers must have decisions from multiple Federal 
agencies including the Department of Commerce, NOAA, and National 
Marine Fisheries in order to complete the Final General Reevaluation 
Report and Environmental Impact Statement. The Corps and the agencies 
appear to be close to reaching an agreement on the project mitigation.
    However, with respect to Commerce, NOAA and the National Marine 
Fisheries Service is recommending an unfeasible option of removing the 
New Savannah Bluff Lock & Dam as a component of SHEP in order to 
improve spawning habitats for the shortnose sturgeon.
    Although the Corps of Engineers has proposed fish by-pass or ``fish 
ladder'' around the dam, NOAA and NMFS have settled on removal of the 
dam. The New Savannah Bluff dam provides an important reservoir used by 
both Georgia and South Carolina for water supply, recreation, and 
industrial use, and I have heard from a number of my constituents, 
including leadership of the communities affected by this, in opposition 
to this plan.
    I have had a number of conversations with Secretary Locke and he 
and I share the view that the Department of Commerce must balance 
habitat protection with that of the economic development needs of this 
country. As he and I have discussed, and I think it is fair to say he 
shares this viewpoint, the Savannah Harbor Expansion Project is 
critical to the economic growth and recovery of the Southeast.
    Savannah is a balanced, though slightly export dominant port. It is 
the fourth largest and fastest growing port in the country and the 
Savannah Harbor Expansion Project has been developed in an open and 
collaborative manner with coordination amongst Federal, state and 
nongovernmental entities.
    Certainly, we must be able to come up with an out of the box 
approach to mitigation that will work for this project. I and my staff 
have a number of suggestions which we will submit to you in a written 
format for your consideration, and I hope you personally will take a 
look at them and get back to me as to why they may or may not be 
feasible. I am concerned though that NOAA and Marine Fisheries are now 
raising this issue so late in the process. I just don't understand why, 
if this is so important, it wasn't insisted upon more seriously back in 
2000 when the fish passage was first discussed.

    Senator Isakson. Dr. Lubchenco, thank you very much for 
being here, what you do, and thanks for our previous 
conversation before this testimony.
    The statement that I've asked to be included in the record 
is regarding the Savannah Harbor Expansion Project on the 
Savannah River in Georgia with the home of the Port of 
Savannah.
    As you know, in 1996, under the WRDA bill, expansion of 
that port was authorized. And in the 15 years since then, the 
State of Georgia has invested millions of dollars and the Corps 
of Engineers has invested significant money to do all the 
necessary planning, including the environmental impact study, 
to end up getting the authorization executed and expand the 
harbor of the Savannah Port.
    That expansion is necessary because in 2014, the ships that 
will come through the newly expanded Panama Canal will come to 
the East Coast of the United States, and without a deepening of 
the channel, many of those ships will not be able to come to 
the Port of Savannah, which would be, obviously, bad for the 
Port of Savannah, but, quite frankly, since it's the second 
largest port on the Eastern Seaboard, it would be bad for 
commerce in the United States.
    Your agency, the Department of Commerce and National Marine 
Fisheries, all have final input on the environmental impact 
statement before that project can move forward.
    Since 2000, there has been an issue with regard to the 
shortnose sturgeon, and NOAA has made a recommendation--very 
late in the game, I might add--that the solution to the 
shortnose sturgeon spawning at the new Savannah Bluff Lock and 
Dam is to tear the dam down.
    That dam holds a reservoir that services many people in the 
state of Georgia for their drinking water and for recreation. 
And the Savannah River, which supplies water to both South 
Carolina and Georgia, had been, as recently as 3 years ago, 
through a Category 4 drought, which made water use absolutely 
essential and very limited.
    So to destroy an impoundment like that would be bad for the 
health, safety and welfare and the existence of the human 
species, in terms of in South Carolina and Georgia.
    The Corps of Engineers has made a recommendation of a fish 
bypass or a fish ladder to mitigate the problem to allow the 
sturgeons' concerns to be addressed, the human concerns to be 
addressed and the Port of Savannah to be expanded.
    My request to you is if you would, as expeditiously as 
possible, meet with the appropriate people, including the Corps 
of Engineers and myself, if necessary, to work collaboratively 
to come up with a mitigation process for the sturgeon that does 
not cause such a draconian thing such as the destruction of the 
dam to take place and allows us to move forward on the Savannah 
River Harbor Expansion Project in the city of Savannah in the 
state of Georgia.
    And I would very much appreciate your commitment to help us 
find a reasonable way to address the environmental concern and 
expand the port.
    Dr. Lubchenco. Senator Isakson, you've rightly highlighted 
the importance of maritime commerce in our country. It is 
valued currently at around $700 billion and so really is 
vitally important to the nation.
    I fully appreciate the importance of having capacity to 
accommodate Panamax vessels.
    As you know, the analyses that we have done suggests that 
both the dredging and the hydrological changes that are 
expected to do the harbor expansion would have adverse impacts 
on the shortnose sturgeon populations and that, therefore, to 
mitigate for that adverse impact it would be appropriate for 
them to have access to upstream habitats.
    The proposal that the Corps originally drew up for fish 
passages we believe would not adequately allow sturgeon to go 
upstream. We believe that the fish passages that the corps 
proposed are not wide enough and not deep enough and that 
there's not enough water flow.
    Understanding the importance of all of the issues you 
raise, we have offered to work with the Corps of Engineers to 
see if there are alternative mitigation measures to accommodate 
all of those needs and we are happy to continue to have a 
dialogue with them.
    I believe that the Section 7 consultation on both ESA and 
Essential Fish Habitat issues is due to be completed in June, 
but we will be working with the Corps, just as you suggest, 
because there are a range of very complex issues here.
    Senator Isakson. Well, I appreciate that. And I'm going to 
steal a great idea that you had in your presentation. You held 
up a nickel. I want to hold up a dollar, which is 20 times a 
nickel.
    And the revenue that comes to the United States of America 
and the income that helps us support this economy and pay for 
our budget, like at NOAA, comes from revenues that come from 
imports into this country and products we export in this 
country. So there's a cost-benefit analysis on this port 
expansion equal to the cost-benefit analysis of all that NOAA 
provides. And that was a great analogy with the nickel.
    So this is not just a home-state issue. This is about the 
commerce of the United States of America and the access of our 
ports on the Eastern Seaboard and what that produces in revenue 
to the country.
    So as you are working to find a suitable mitigation process 
that avoids blowing up a dam and destroying a reservoir, which 
I hope we can, understand this is critical to the commerce of 
the country, not just the State of Georgia.
    Dr. Lubchenco. I understand, senator.
    Senator Isakson. Thank you.
    Senator Begich. Thank you very much, Senator Isakson.
    Let me--I want to follow that. I don't know what I have in 
my pocket. I might have a five or a ten, but I--you know, 
Alaska's a little larger in size, but let me follow up.
    And it's a continuing issue, as you know, I've had with 
your agency and that is the economic analysis and tradeoffs. I 
mean, that's what was just played out by Senator Isakson, and 
how--and just brief because I have a series of questions here 
on other issues, but how do you or do you have analysis or 
process that analyzes the economic tradeoffs in situations like 
that or, as we've talked about, other type of species that may 
have impact to our fisheries or other types of industries, oil 
and gas, so forth?
    Do you do that within your agency and do you have the 
resources to do it? And then, to follow that, is there ever a 
time that your agencies ever will say that the tradeoff or the 
mitigation is too much for what the national need of the 
project or the issue is?
    Dr. Lubchenco. Mr. Chairman, I think the short answer is it 
depends, which I know is not very satisfying, but is the truth.
    Some of the legislative mandates that we have require 
economic analyses. Magnuson-Stevens is one of those. And so we 
do routine economic analyses so that we understand the 
implications of a particular fishery regulation on the 
economics of the fishing industry, for example.
    In other situations, an economic analysis is not required, 
and, in some cases, there is a mandate that is oblivious to 
economic impact. So it really varies considerably from one 
mandate to another, and, of course, our responsibilities cross 
so many different areas it really is quite variable from one to 
another.
    We have historically had individuals that do routine 
economic analyses. Since my coming to NOAA, I've highlighted 
the need to improve our capacity to do more and more 
sophisticated economic analyses in a broader way than was 
traditionally done, and we are currently, for example, 
searching for--we have a chief economic advisor and have been 
trying to enhance our capacity, to the extent that we are able 
with the resources that we have, to beef up the capacity to do 
that.
    We also, fortunately, have access to economists in the 
Department of Commerce, have been working with them to identify 
areas where there are good synergies.
    Senator Begich. Very good. Let me go to the Joint Polar 
Satellite System. As you know, in the Fiscal Year 2011, we 
tried to get some money back in. We were not successful.
    What's the plan? As you know, the data gap that's going to 
occur there--and I forget what year. I want to say 2016, but I 
may be off a year there. What are the plans for the agency to 
try to fill that now that we're behind schedule because of that 
lack of funding?
    Dr. Lubchenco. You're absolutely right, Mr. Chairman. 
Because the funds for JPSS, Joint Polar Satellite System, were 
not included in the year-long CR--at least to date, the one 
that's on the table for your consideration--that means that 
there will be a gap in data starting in 2017.
    There is great uncertainty now with respect to what the 
fiscal future of this program is. So we're still in the process 
of doing planning to try to figure out how we can minimize the 
damage.
    But I think it's safe to say that there will almost 
certainly be a gap in coverage that at this point looks like it 
may be at least 18 months, based on the fact that the launch 
date will now slip at least 18 months. So the earliest launch 
date that we are envisioning is September of 2016. And that 
would be if we would get resources in Fiscal Year 2012.
    So there will be a data gap. That data gap will have very 
serious consequences to our ability to do severe storm 
warnings, long-term weather forecasts, search and rescue and 
good weather forecasts for your state.
    Senator Begich. So let me--and I'll summarize and I have a 
series, but we'll flip back and forth here between the Ranking 
Member and myself on questions, but let me ask are you then on 
kind of a Plan B? Are you preparing some sort of--you know--
here's the action plan we'll have to take?
    I mean, we tried to get it into the Continuing Resolution. 
You can pretty much assume it's not coming in for 2011. So 
we're moving to the next stage.
    Can you and will you be developing a plan of action, one, a 
timetable of impacts that will have across departments, and 
where, and if you have to buy data, and where you might have to 
get that and what that cost may be? And is that something you 
are preparing or will prepare? And will you share that, 
obviously, with the Committee?
    Dr. Lubchenco. We do know what some of our options are, and 
they are quite limited.
    Senator Begich. What are those?
    Dr. Lubchenco. That's one of the challenges. There is no 
other polar-orbiting satellite that will be flying in the orbit 
that JPSS was intended to fly in, and so that's why there will 
be a data gap. There isn't redundancy. This is not a situation 
where we have another satellite that----
    Senator Begich. That you can buy off of or utilize.
    Dr. Lubchenco. Exactly. There is a satellite that is in 
place now that's providing us with a lot of the very 
sophisticated capability that we have.
    We have another one called NPP that is due to launch in 
September that will take the place of the one that's up there 
now when its lifespan is expended.
    It's beyond that NPP period where there will be this gap. 
And there really isn't another alternative for replacement of 
that particular orbit.
    Senator Begich. So is it fair to say--and then I'm going to 
ask the Ranking Member to continue with some of her questions, 
but let me ask is it fair to say, then, after 2016, for that 
period--and I think you said 16 months or----
    Dr. Lubchenco. Eighteen.
    Senator Begich. Eighteen months.
    Dr. Lubchenco. At least.
    Senator Begich. At least that there is no substitute 
because timing was the issue here.
    Dr. Lubchenco. That's correct.
    Senator Begich. Purchasing the satellite, putting it up and 
then hitting the orbit at the right time.
    Dr. Lubchenco. We have to actually build----
    Senator Begich. That's my simplistic----
    Dr. Lubchenco. You build the satellite and you build the 
instruments and you have to test them and make sure that they 
work.
    Senator Begich. And then you have to launch----
    Dr. Lubchenco. And then you have to launch it.
    Senator Begich. Right.
    Dr. Lubchenco. And then once it's launched, you have to go 
through an 18-month period of checking everything out, making 
sure that it's working, having all of the instruments be 
calibrated, and so that's why there is this data gap.
    Senator Begich. Can you provide to the Committee what 
impacts that would have on those 18 months, and then also to 
step to the next stage, because of this, what additional costs 
may be incurred now because of this inability to arrive at 
additional funding you needed? Can you provide that----
    Dr. Lubchenco. We would be happy to do that.
    I can tell you now that for every dollar that we didn't 
spend this year on JPSS, we will need to spend $3 to $5 down 
the road, because----
    Senator Begich. OK. Can you--Go ahead. I'm sorry.
    Dr. Lubchenco. We have to cancel the contracts. We have to 
let people go. These are very sophisticated, skilled workers. 
And then you need to bring the programs back up. So I'd be 
happy to provide that to the Committee.
    Senator Begich. And if you can provide in that response the 
cost, if there is contract-termination cost to the private 
contractor for construction and building, the employee issue 
and just kind of----
    Doesn't have to be long and lengthy, but a good detail on 
the costing and what additional costs will be incurred, because 
I think a lot of times when we deal with these budgets, we have 
to understand that if we don't spend it now that nickel turns 
into a dollar very quickly.
    Dr. Lubchenco. Yes.
    Senator Begich. So if you could do that, I'd appreciate 
that.
    I have a series of other questions. I'll turn to Ranking 
Member Snowe. We'll do about 10 minutes each, so we have a 
little bit of flexibility here.
    Senator Snowe. Thank you, Mr. Chairman.
    Administrator Lubchenco, I just wanted to raise a concern 
about the petition that NOAA is currently considering to list 
the bluefin tuna under the endangered species, and I know I've 
written to you just a couple of weeks ago on this issue. So I 
hope that we can at least discuss this issue today, because it 
obviously has serious implications for domestic industry, and 
there are obviously some serious concerns if we attempt to 
manage this species both through both ICCAT as well as through 
the Endangered Species Act.
    Already, there are serious limitations with respect to our 
industry, frankly. I mean, we adhered to some very tough 
standards, unlike many of our counterparts in other countries, 
and we certainly have the strictest standards.
    So can you give me today, and the Committee, your thinking 
on the ESA listing petition currently?
    Dr. Lubchenco. Senator, I can bring you up to speed--where 
we are in the process. As you know, we received a petition on 
May 24, 2010 from the Center for Biological Diversity, and we 
are currently doing what's called a status review in response 
to that petition.
    And that status review, because of the information in the 
petition and the agency's files, indicate that a listing may be 
warranted, and, therefore, we are conducting a status review.
    We have one year to do that status review, so in May that 
period will be up. I do not know what that status review is 
saying. We will let you know when we have something to share on 
that.
    Senator Snowe. OK. So, at that point, when the year is up 
in May, then you will have a recommendation----
    Dr. Lubchenco. We would----
    Senator Snowe.--based on the information?
    Dr. Lubchenco. I'm sorry.
    Senator Snowe. Yes, it would be the information that would 
be completed or also the decision regarding that listing?
    Dr. Lubchenco. So, at that point, we would have a proposed 
rule that would go out for public comment.
    Senator Snowe. Wow.
    Dr. Lubchenco. For the full-on public comment period. And 
then we would take that into consideration in making any final 
determination.
    Senator Snowe. Well, that's certainly a double whammy if 
this industry is managed both through, obviously, the 
international organization and then, at the same time, under 
the Endangered Species Act, because it's a highly migratory 
species, as you know.
    And so here we are adhering to the strict standards, and 
this effort could be transferred to other countries that don't 
adhere to the same kind of standards we do, and yet it's being 
managed internationally, and then, at the same time, we're 
being affected if there is a listing.
    Dr. Lubchenco. I understand. And, as you know, we have 
worked diligently with ICCAT, the international regional 
fishery management organization, to bring those other countries 
who also fish on bluefin into much greater compliance and to 
have them adhere to many of our standards. We're making some 
progress in that, but not enough, but we have been working very 
diligently on that.
    Senator Snowe. Under the law concerning the listing under 
ESA is it a very strict process that you have to adhere to? For 
example, in the status review, I mean, is it all encompassing? 
Is it delineated under law through regulations exactly what you 
have to review that would prompt proposing a rule?
    Dr. Lubchenco. I'm not sure exactly what you're asking, 
senator. There are things that we have to take into--I mean, we 
have to make a determination about whether a species meets the 
criteria for a listing.
    Senator Snowe. And I'm not so certain that that's always 
abundantly clear.
    Between the status review and proposing a rule, there seems 
to be no other period. I mean, it just goes from one to the 
other. That's a quantum leap into a proposed rulemaking from a 
status review, because once you trigger that rulemaking 
process, that's it. It's over.
    I mean, it's a very difficult process, and I just wonder if 
there's an interim period by which everybody can reflect on the 
status review before it prompts a rulemaking.
    Dr. Lubchenco. Senator, I'm not certain about that, but I 
will find out and get back to you.
    Senator Snowe. I appreciate it and thank----
    Senator Begich. Can I ask one quick----
    Senator Snowe. Yes, you may.
    Senator Begich. Should there be?
    Senator Snowe. Yes.
    Senator Begich. Should there be?
    Dr. Lubchenco. I don't know the answer to that.
    Senator Snowe. Yes. Well, let's explore that based on what 
the answer is, because it seems to me there could be some 
issues at stake or in dispute or a conflict before it even 
warrants a rulemaking process, because that obviously triggers 
so many other issues and timeframes.
    Dr. Lubchenco. Right. I understand what you're saying. 
We'll find out.
    Senator Snowe. OK. Thank you.
    Dr. Lubchenco. We'll get back to you.
    Senator Snowe. On the implementation of the Department of 
Commerce inspector general report on the Office of Law 
Enforcement within NMFS, as you know, that was conducted six 
months ago, and I know that your office has issued corrective 
actions including a freeze of criminal investigators within the 
Office of Legal Enforcement.
    Couldn't we go beyond a freeze and make some reductions, 
because it really does open the question as to why this office 
should have 149 personnel dedicated to criminal enforcement 
actions when most of the activity is 98 percent non-criminal.
    Why is it such a high level of criminal investigators, 
which I guess 90 percent of the personnel are constituted as 
criminal investigators. So why is that such a high number and 
couldn't we reduce that number?
    Dr. Lubchenco. Senator, the inspector general recommended 
that we look at that very closely, and we did two things. I did 
two things immediately. One was to freeze any hiring of new 
criminal investigators and also initiated a workforce review to 
really take a step back and say, What is the right balance of 
criminal versus civil agents that we need to actually do the 
job that they are supposed to do?
    We are close to completing that workforce analysis, and I 
would be delighted to share the analyses with you when we have 
that.
    I think that we will be able to make adjustments according 
to this analysis, and I think that it will most definitely 
strengthen our ability to do good law enforcement, which, in 
fact, is vitally important, because the fishermen who are 
abiding by the rules need to know that the rules are being 
enforced.
    And one of the things that has come from this attention are 
pleas from many parts of the country saying, please don't have 
this undermine the importance of having effective law 
enforcement. We don't want it to be out of hand, but we need to 
have good law enforcement, especially when it comes to 
international fisheries.
    Senator Snowe. I don't dispute that. I think that, 
obviously, the results of the reports speak in themselves in 
terms of what happened in our region----
    Dr. Lubchenco. Yes.
    Senator Snowe.--of the country, where the penalties and 
fines were twice as high. So that was egregious and 
indisputable.
    So I would hope that it would be proportionate in terms of 
how we construct the workforce----
    Dr. Lubchenco. Yes.
    Senator Snowe.--composition and whether or not it's 
necessary. It sounds to me a little disproportionate given the 
level of non-criminal actions as opposed to criminal and having 
90 percent of the personnel----
    Dr. Lubchenco. That's exactly why we initiated the review. 
And, of course, that's just one of many of the things that we 
have underway in response to the IG reports.
    Senator Snowe. Well, I'd like to have the benefit of that 
review. When will that be completed?
    Dr. Lubchenco. Senator, I don't remember the time frame on 
that, but it's soon, and I'll get back to you on that.
    Senator Snowe. Well, I hope that we would have a 
consideration of reductions in that category, given the fact 
we're having to grapple with so many issues in reductions 
overall. I mean, this seems to me one of the areas in which we 
could have some reductions that may not warrant the level of 
criminal investigators.
    I'll look forward to your review.
    Dr. Lubchenco. OK.
    Senator Snowe. Thank you, Mr. Chairman.
    Senator Begich. Let me follow up on that. I always get 
nervous--no disrespect, Dr. Lubchenco--when administrators use 
the word soon. Can you let the Committee know tomorrow when you 
expect that report to be completed?
    Dr. Lubchenco. I will certainly do that.
    Senator Begich. OK. Good. Not that I've been on this side 
in the Federal Government, but I've been in that side from the 
Municipality of Anchorage. We would also use the word soon 
quite a bit, and so now I'm on this side, I get to ask what 
does soon mean? So if you could let us know that would be 
appreciated.
    Let me follow up, if I can, on one of the issues that was 
brought up on the $15 million increase to expand stock 
assessments, which I think is very important, I think for a lot 
of reasons you already detailed. I know in Alaska it's been a 
huge piece of the equation in ensuring that we have long-term 
sustainable fisheries.
    But I'm getting some reports that there is reduction of sea 
time for the research or the vessels in Alaska, as one example. 
So I'm trying to make sure I understand, as you increase the 
assessments, what will happen to sea time for the vessels? 
Because if they're stagnant or decreasing, then there is, at 
least in my mind, a disconnect here.
    So can you help me out? What does the new budget do for sea 
time for NOAA research vessels and so forth?
    Dr. Lubchenco. Senator, the vessels, the days at sea and 
the vessels support a number of important functions. One of 
them are fishery surveys.
    Senator Begich. Correct.
    Dr. Lubchenco. But there are also hydrological surveys, the 
mapping for nautical charts, for example, oceanographic and 
climate research. Those are all functions provided by different 
ships, and, as you know, some ships do some and some do 
another.
    In general, the increasing costs of operating on the ocean 
and greater constraints in our budgets are resulting in very 
significant challenges to the number of days at sea that we 
have that we are able to operate.
    Senator Begich. But isn't it pretty important to have--as 
you increase the assessments, especially the budget, you've got 
to have more sea time.
    Dr. Lubchenco. Correct.
    Senator Begich. So this is the issue that when we met in my 
office that I'm concerned about and that is as we think of new 
items, new projects--and we'll get into the spatial planning in 
a minute--but there's $20 million there that is being spent, 
but yet we have less sea time because of costs.
    I would argue the core mission or one of the core missions 
of your office is this data. It is why the Northeast is having 
issues. It is why we have been successful in creating 
sustainable fisheries is the data has been very important for 
us.
    So if you're increasing that budget, but you're decreasing 
not just the stock assessments--because I also, on mapping, you 
know, I don't know what century we'll be done with mapping, but 
at the rate we're going, my bet is it will be decades from now, 
and by then, if we take all the issues of climate change into 
account, we'll be back into mapping again. We're so far behind 
on mapping. So but if you're reducing all the sea time down in 
the vessels, then how will you accomplish some of the main 
goals?
    And then I would argue that here, then we're going over 
here and spending $28 million on spatial planning when we're 
now having a problem here.
    By your statement, it sounds like we don't have enough 
money to get the sea time we need for all the different 
functions of NOAA. Is that fair to say?
    Dr. Lubchenco. Senator, it's probably fair to say we don't 
have enough money to do a lot of the things that we think are 
important.
    Senator Begich. But is that an important piece of your core 
mission?
    Dr. Lubchenco. Oh, absolutely.
    Senator Begich. OK. So here's what I'm struggling with as 
we deal with these budgets--And, as you know, I think NOAA has 
a lot of important responsibilities, but we just don't have the 
money. So how do we manage this in a way that gets to our core 
mission?
    If we are losing valuable sea time for all these different 
functions of NOAA, then it means each element of your core 
business that you do will be harmed, but, at the same time, 
we're doing some new initiatives.
    We could argue that new initiatives are important. You 
know, we can argue that in Alaska we have a different view on 
it, but I know in the Northeast they have a different view, 
but, at the end of the day, we have to make some choices, and 
they're hard choices.
    And the worry that I have--be very frank with you--is when 
left to us, we will have these traumatic choices, as proven by 
the satellite, not funding it. And that will cost us three to 
one to pay it back or put it back into the system.
    So what I'm trying to do is say to you we need your help to 
figure out these priorities, knowing you do not have and will 
not have the money at the level that will be necessary. And sea 
time is critical for the work you do. And I use my phrase, 
maybe you might have a different phase as critical, but I think 
it's critical.
    Dr. Lubchenco. Yes.
    Senator Begich. So how do we do this? And what choices are 
we going to have to make? And what choices would you make with 
us to keep your core mission active? Because that----
    Dr. Lubchenco. Senator, the request for the increase in $15 
million in stock assessments is exactly for the reasons that 
you've highlighted. It's very important, and part of that 
includes days at sea. The other thing that we are including----
    Senator Begich. Will days at sea increase----
    Dr. Lubchenco. Some of that budget includes funds to pay 
for days at sea. In addition----
    Senator Begich. Well, does it increase days at sea?
    Dr. Lubchenco. Well, it funds----
    Senator Begich. I understand it funds days at sea, probably 
increased cost, but does it increase the amount of days at 
sea----
    Dr. Lubchenco. The days at sea are, for a variety of 
purposes----
    Senator Begich. Understood.
    Dr. Lubchenco. The fisheries budget includes funds for 
fishery stock assessments and some of that is for the days at 
sea required to do that.
    In addition to that, the Fiscal Year 2012 request has a 
request for funding for critical maintenance of vessels. That's 
$9.56 million for that, which will also assist with this 
particular problem.
    Senator Begich. Is that the maintenance of the 
infrastructure as well as operational or is it just the 
maintenance of the structures?
    Dr. Lubchenco. It's the vessels themselves.
    Senator Begich. OK. Let me ask you this, if you can provide 
this document for the different components of NOAA, as you 
described, that require days at sea can you give me--give the 
Committee a report of the last three years and what you project 
for 2011 as it comes to completion and 2012 in your budget of 
how many days at sea you'll have for the different operations 
that NOAA is required to do?
    Dr. Lubchenco. We can do that.
    Senator Begich. OK. You know, sometimes I need it very 
simple, and that's probably the simplest, just so I can see how 
many days of operation you're doing, and that will then 
probably beg some other questions, if that's OK.
    Let me go to the--and this is interesting because of the 
conversation we just had on enforcement--IUU fishing, which, as 
you know, from Alaska's perspective, I mean, the number we put 
out there is the legal catches by Russia on crab, for example, 
was probably, in the last 10 years, costs Alaska fishermen over 
a half a billion, $500 million over the last 10 years.
    Tell me kind of what the enforcement efforts you're doing 
out there, and are there issues outside of your kind of command 
and control that other agencies need to deal with--maybe the 
State Department, others--that we need to be aware of that we 
need to put some pressure on? But let me pause there and see if 
you can answer that.
    Dr. Lubchenco. Mr. Chairman, within the U.S. exclusive 
economic zone, NOAA works closely with the Coast Guard to do 
enforcement of our fishery management laws. So Coast Guard is a 
key partner here.
    When it comes to international waters, we work closely with 
the appropriate regional fishery management organizations to 
try to ensure the best compliance and monitoring possible.
    Frankly, that varies significantly from one regional 
fishery management organization to another. Some countries are 
good partners in that, others, less so.
    IUU is a very significant problem globally and we are doing 
what we can to address it, but I would just flag that that is a 
very real issue, especially on the high seas.
    Senator Begich. Are there additional resources or 
legislative action or work with other departments, especially 
on the international waters, that we need to be doing?
    If you have some that are cooperative, obviously, those are 
good relationships. The ones that are--You know, I would say 
Russia is not too cooperative, if we've lost a half-a-billion 
dollars, but you may have a--I don't know what the opinion of 
NOAA is on that, but that's my opinion.
    So is there something that we need to be doing from a 
different perspective than just the budgetary-enforcement 
dollars here, something else we should be doing or that you 
would recommend or could come back to us and recommend?
    Dr. Lubchenco. Mr. Chairman, I'm not sure what the other 
possibilities are. I know that the reauthorized Magnuson-
Stevens Act does give us some authority, and we are absolutely 
using that, but there may, indeed, be some additional measures 
that we might want to have a discussion with you about.
    I know that the Senate's International Fisheries 
Stewardship and Enforcement Act would actually be very helpful 
in this regard, and that's exactly the kind of----
    Senator Begich. Tool you need or----
    Dr. Lubchenco. Tool, exactly.
    Senator Begich. OK. Well, let us look at that and we'll 
have some further discussion.
    Let me go back to Senator Snowe for her----
    Senator Snowe. Thank you, Mr. Chairman. I just have one 
additional question that actually may involve Alaska, too.
    [Laughter.]
    Dr. Lubchenco. Bicoastal.
    Senator Snowe. Exactly. Is concerning the renewable energy 
siting, and, obviously--the agencies, NOAA recognizes and the 
challenges with global climate change.
    And I commend you for the proposal to include in your 
budget the consolidation of all the climate research services 
under one umbrella. I think that's appropriate and so critical 
to the future challenges that we face, but also developing 
clean energy alternatives.
    And I know that you have, obviously, a role to play in 
assessing the science behind the climate change, but also the 
environmental impact assessments of energy projects as well.
    And, as I understand it, in the 2012 budget proposal 
there's a decrease for energy licensing and appeals program by 
63 percent. And, for example, when we talk about clean energy 
technology, there is a company that's looking at developing 
world-class technology to harness the tidal power and energy, 
and that's both in Alaska and, of course, off the coast of 
Maine, but it has actually been slowed by NOAA and the U.S. 
Fishery and Wildlife.
    Is there a reason for such a significant reduction when 
we're looking to actively pursue alternatives with clean 
energy?
    Dr. Lubchenco. Senator, I don't know the answer to your 
question, but I'll find out.
    Many of the reductions that are in our Fiscal Year 2012 
request were a consequence of removing earmarks from previous 
budgets. So that's one possibility, but I don't know for sure 
in this case, and I will find out.
    Senator Snowe. Yes, because it's the overall licensing 
program. I'd be interested in knowing, because, obviously, this 
is a very important option for clean technology that has been 
pursued over the years, but it has some very specific 
technology that may be very viable, very effective. So I'd be 
interested in knowing, because I gather that's what's holding 
this program up.
    Dr. Lubchenco. Senator, we do agree with you completely 
that renewable is very important for us to pursue. We believe 
that we have an important role in helping to do the evaluations 
of tradeoffs as well as provide information to help siting 
decisions, be it wind or wave or tidal.
    We also have--in the context of spatial planning, there is 
also an opportunity through the ways we are promoting spatial 
planning to consider the range of uses of different areas, and 
we've been developing new tools along with partners in the 
academic world to help do the kinds of analyses that will 
enable communities to evaluate the tradeoffs among different 
types of uses to identify potential conflicts.
    And there's a new tool that's called Marine InVEST, which 
was developed at Stanford University as part of the Natural 
Capital Project in conjunction with NOAA and other partners, 
and one thing that they did recently with InVEST was to do an 
analysis for Vancouver Island in British Columbia.
    The community there was interested in siting wave energy 
off the coast of Vancouver Island. They wanted to know which 
places would be the best places for generating energy, but also 
what the financial consequences would be. So they wanted an 
economic analysis of the tradeoffs. But they also wanted to 
avoid conflicts with fishing, existing fishing operations.
    And so this tool allowed the community to understand what 
those tradeoffs were and to identify the site that was the best 
economically, based on the economic analyses, the most amount 
of wind to be generated, but also the one that would avoid 
conflicts with fishing.
    And so instead of evaluating each different activity in a 
vacuum, one of the compelling arguments for marine spatial 
planning is to do a more holistic look at how do these 
activities effect one another, which ones are compatible and 
which ones aren't, and this tool allows us to do it.
    So we're thinking not only of the tradeoffs for renewable 
energy, but how that fits into the larger picture of uses of 
ocean and coastal areas.
    Senator Snowe. The interesting part about all that is 
whether or not it would allow compatibility of all these 
different activities. At the same token, you're still dealing 
the permitting process involved.
    Dr. Lubchenco. Absolutely.
    Senator Snowe. And that's another dimension.
    Dr. Lubchenco. Well, that's one of the--again, one of the 
compelling arguments for having all of the--both the 
stakeholders and the regulators together from the outset, both 
the feds and the states to work together on plans that don't 
have any regulatory authority, but that can streamline the 
kinds of regulations.
    And, as you know, there are more than 140 different 
statutes and regulations just on the Federal side that affect 
activities in the ocean. And to have a protocol and methodology 
for considering those together as they affect a particular 
place just makes a lot of sense in making things go more 
efficiently, more effectively, more economically.
    And this particular example was a case in point where, for 
British Columbia, that process actually worked very nicely.
    Senator Snowe. Thank you. Well, I appreciate that. And 
thank you for also getting back to me on that particular 
question. Thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    Just a few more questions and then I think--unless the 
Ranking Member has some additional ones, but let me----
    In Alaska, you know, we don't really have an issue on 
overfished stocks, but I know elsewhere there are some 
questions on the 10-year rebuilding timeline.
    One, kind of what is the basis for the 10-year rebuilding 
timeline? Is there flexibility within it as we reach that 10-
year rebuild? It's more--I know for the Northeast, there's a 
concern that we started to hear. So can you respond to that 
kind of what was the basis for the 10-year rebuild timeline, 
but also is there flexibility in it?
    Dr. Lubchenco. Mr. Chairman, the 10-year rebuilding time 
frame was specified by Congress in the Magnuson-Stevens Act, 
and it applies to most, but not all--there were some exceptions 
that were articulated.
    Senator Begich. Correct. Right.
    Dr. Lubchenco. So that's why it's in there. That was part 
of the legislation.
    Senator Begich. So not really. Maybe I should ask this: was 
there a scientific reason for the 10-year or just a legislative 
reason?
    Dr. Lubchenco. It was a legislative reason.
    Senator Begich. OK. So do you believe--I think I know the 
answer to this. Is there flexibility in that timeline, from 
your perspective as an agency, or will it take legislation to 
create flexibility?
    Dr. Lubchenco. It's my understanding that we don't have the 
authority to change that.
    Senator Begich. Got you. So from your perspective, in order 
to add time, it would take legislative action.
    Dr. Lubchenco. As far as I am aware, yes. But I think it's 
important to recognize that much of the good progress that we 
are making in rebuilding fishing----
    Senator Begich. Right.
    Dr. Lubchenco.--is because we haven't gone down the road of 
extensions, extensions, extensions.
    Senator Begich. I understand. I understand. I guess I would 
love to. Maybe another day we'll probably have this discussion 
a little more longer, but I just want to kind of flag that as 
an issue that's cropping up a little bit.
    You know, from our perspective, from my state, it's not an 
issue, but I know there are other states that are starting to 
ask this question. So I just want to put that to you.
    Let me, if I can, just go through a couple more and then 
I'll see if Senator Ayotte has some questions in regards to the 
budget.
    Well, two things. One, this is a concern, and if you have a 
comment on this, as we're dealing in the national issue about 
the earthquake in Japan, the radiation issues, all that, we're 
starting to hear from wholesalers, fish wholesalers, concerned 
about Alaska fish stock, even though there are no signs of any 
kind of radiation impact, so forth.
    Are you doing anything from NOAA's perspective on really an 
information campaign about our fish stocks? And the reason 
we're getting concerned, we already had one country indicate 
that, unless we go through a whole process of proving that we 
are not impacted by the radiation, that they won't be buying 
our product, which, of course, we're not being impacted. So the 
rumor mill around these issues can grow very rapidly.
    Does NOAA have a plan to take aggressive action with our 
international trading partners around our fishing industry to 
ensure that they recognize that our fish are not impacted 
negatively?
    Dr. Lubchenco. Mr. Chairman, NOAA has some responsibilities 
in the arena and some of our federal partners have other 
responsibilities.
    Food and Drug Administration, FDA, has the responsibility 
for certifying the safety of seafood, and they have the lead in 
doing monitoring of fish that are coming into our ports, for 
example, from overseas. So they are the lead agency on that.
    NOAA has been involved extensively in the modeling for both 
airborne radiation and ocean-borne radiation, any movement of 
oceans that are contaminated--ocean water that has been 
affected by radiation. So we are very keenly involved in that.
    And, as you noted, the modeling shows that there is very 
little likely impact to American shores from airborne, and we 
believe the same is likely true from any radiation that is in 
the ocean. There's a significant degree of contamination, it 
appears, in the immediate area, but farther afield, it gets 
very dilute very, very rapidly. It's just a huge volume of 
water.
    Nonetheless, I fully appreciate the need for consumers to 
want to know that their seafood is safe. What we have been 
doing in that regard is to--we've been having discussions with 
other federal agencies about the kind of monitoring of ocean 
water that we need to begin to do that's not currently in place 
adjacent to our shores.
    So the Coast Guard and the Department of Homeland Security 
have the lead authority in that regard, and NOAA would be a 
supporting agency for that.
    Senator Begich. Great. We'll put that on the Coast Guard's 
list when we see them next month then.
    Let me--a couple more, and then, again, Senator Ayotte 
probably has some questions, too.
    There is a pilot program the National Weather Service was 
kind of the lead on developing several pilot projects with 
employees on new weather services and forecasts around the 
country.
    I'm getting reports that it just kind of isn't moving 
forward. I think there are about 15 or 20 of these pilot 
programs. Are you familiar with this? And, if not, we'll put 
something together and send it to you and maybe get your office 
to respond. But it seems like it just is not moving as 
aggressively as it was originally.
    Dr. Lubchenco. So I'm not sure the programs that you're 
speaking of, but I'd be happy to respond to----
    Senator Begich. Great.
    Dr. Lubchenco. We'd need a little more information about 
what it is that you're talking about, but we'd be happy to 
respond.
    Senator Begich. You bet. I'll put something together.
    Let me end with one last question in regards to the--NOAA 
and Coast Guard have--pretty old fleets, to say the least. And 
I know yours is always--no disrespect to NOAA, but it's always 
Coast Guard always gets talked about first. Then they say, Oh, 
yes, NOAA, and we know both you have major issues with your 
fleets.
    Can you tell me or maybe provide to the Committee kind of 
where you're at budgetary wise? I know you're making a request 
in 2012 for some money, but kind of where you're at and how 
many ships you have to finish out and how much money that will 
require based on today's dollars?
    But, first, just kind of a--if you can give me a few 
sentences on kind of where you're at with--I know it's a money 
issue, but kind of can you give me that for the record and then 
maybe the document at a later time?
    Dr. Lubchenco. We, as you know, did a fleet 
recapitalization plan in--I think it was 2006, but I'm not 
positive about that--that laid out what would be required to 
keep our fleet in good working order and doing the things that 
we needed to do.
    Senator Begich. Right.
    Dr. Lubchenco. The requests in the current budget are 
consistent with that plan. We are continuing to make requests 
for major vessel repair periods, for example.
    Senator Begich. Correct.
    Dr. Lubchenco. And to have requests for building, for 
example, new fishery survey vessels. I don't have all the 
details in my head, and I'd be happy to get them to you.
    Senator Begich. That'd be great----
    Dr. Lubchenco. It really is an issue of finances and trade-
offs, and I think it has been challenging to date, and in the 
current fiscal climate where we fully appreciate the need to 
live within our means, it's going to be increasingly 
challenging.
    Senator Begich. If you could, maybe, kind of show me kind 
of what the plan was and kind of where you are with the plan 
and then what you kind of project. I know it's hard to project 
too far out because the budget issues are so much in flux, but 
maybe help me understand kind of what that means.
    And then if you have any commentary in that presentation 
back to us, if there are opportunities from the shipbuilder's 
perspective, if we had a more sustainable plan what that might 
mean in savings, because my understanding is from the 
shipbuilder is that if we actually had a plan that could be 
adhered to--in other words, not your fault. Congress's fault 
for not putting a robust funding mechanism to it--that there 
actually could be a planning and a real savings over the long 
haul over the ships, more likely the backend ships than the 
frontend, because of the workforce development.
    Is that something you could kind of put together maybe with 
whoever is your contractors now and get some commentary from 
them?
    Dr. Lubchenco. I think I understand what you're asking, 
and, yes, but we'd want to make sure that I know exactly what--
it's the part of--with the contractors, that's the part I'm not 
sure about what you're asking.
    Senator Begich. Let me make it--We know you need so many 
ships built.
    Dr. Lubchenco. Right.
    Senator Begich. And we know if you have a start-and-stop 
process, the contractors cannot really mobilize for that on a 
sustainable basis. So they kind of stop, start, stop, start. So 
there's a cost that they're incurring for retraining or like 
you described----
    Dr. Lubchenco. Correct.
    Senator Begich.--with one of your organizations where you 
have to let them go----
    Dr. Lubchenco. Yes.
    Senator Begich.--and then have to come back. There's a 
cost. And if we can quantify that, I think that's a helpful 
thing for us when we talk about a long-term capital budget of 
how to ensure that you get the resources, that there is a 
trade-off. If we don't do it by a plan, then here is--fill in 
the blank--the cost for not doing it. Even though we're going 
to build them over time, there are costs.
    And I think the shipbuilders probably will know that 
because, as they gear up on how much training they need, if 
they can maintain that workforce for a period of time, there's 
a savings, but if they have to go like this with their 
workforce, then there's a cost.
    Dr. Lubchenco. I understand now.
    Senator Begich. Does that make sense?
    Dr. Lubchenco. Absolutely.
    Senator Begich. And I think they'll--I don't know how they 
do magic and they can quantify, and that's what I'm looking for 
is to quantify that.
    Dr. Lubchenco. Yes. OK.
    Senator Begich. Let me end there. Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you very much, Mr. Chairman.
    And I wanted to thank you, Dr. Lubchenco, for your 
testimony. I had several other hearings I had to be at, so if 
my questions are repetitive, I apologize in advance.
    I just wanted to express concerns that have been rendered 
by colleagues of mine on both sides of the aisle about the 
catch share program.
    The catch limits and sectors established by NOAA for the 
Northeast Multispecies Fishery Management Plan have represented 
significant obstacles for the fishing industry in my beautiful 
home state of New Hampshire, and because NOAA has been relying 
on--from my view and the fishermen in my state--incomplete and 
sometimes non-existent data, it's difficult for us to assess 
the agency's current basis for establishing the catch limits 
and assigning the catch shares.
    NOAA has been measuring fish stocks and catch limit history 
in New Hampshire based on insufficient records, and I think the 
result for us and for our fishermen, who are great business 
people and just literally salt of the earth, and what they do 
is so important to not only our economy, but a tradition we 
want to preserve in our state, subjecting this fishing industry 
to unnecessary and burdensome regulations.
    Sustainable fisheries are in everyone's best interest, and 
New Hampshire's geographically-limited small fleet has been 
unable to fish beyond the closed areas established by 
regulation off the New Hampshire shore, causing a loss of close 
to 50 percent of the fleet during the past decade and a 
substantial loss of catch history for those who manage to stay 
in business. This puts us at a disadvantage in catch share 
allotments as it favors a place where you can have a good, 
well-documented history.
    So as a follow up to that, I know that your budget request 
for 2012 includes $54 million for the catch share program, and 
that's increasing budgetary authority for $36.6 million over 
Fiscal Year 2010 levels.
    So based on the feedback that you're hearing, I'm sure not 
only from myself for the State of New Hampshire, but other 
Members of Congress, can you tell me how those funds will be 
used and let us know also how does NOAA plan to correct the 
policies, so that these fishermen really aren't robbed of their 
livelihood, and, obviously, I think a very important not only 
livelihood, but tradition to our state and many others? So if 
you can address that, I'd very much appreciate that.
    Dr. Lubchenco. Senator, thank you for the question. And 
fishing is a very important part of the heritage of many of our 
coastal states. You know, fishermen are small business owners. 
It's important economically to the country, especially to those 
states and especially to those counties. It's also important in 
putting food on our table. So for all those reasons, the goals 
of having sustainable fishing are paramount, and we want good 
jobs now and also good jobs in the future.
    The Magnuson-Stevens Act requires us to regulate fishing 
and to do so in a way that can be sustained through time to end 
over fishing and to rebuild depleted fisheries. The annual 
catch limits that are put in place, consistent with the 
Magnuson-Stevens Act, are intended to do exactly that.
    And those annual catch limits are based on the best 
available scientific information that we have, and that is 
something that we need to continually renew, which is why, in 
this year's budget, we have requested an increase of $15 
million for fishery stock assessments, so we have the good 
information that feeds into setting the annual catch limits for 
each species.
    Now, those catch limits apply regardless of whether a 
fishery is managed using catch shares or other tools more 
traditionally used, such as number of days at sea or bag limits 
or something else.
    Catch shares, those programs are voluntary programs. They 
are not mandatory. The fishermen and the councils in each 
region make a decision based on the characteristics of a 
fishery whether that fishery is appropriate for a catch share 
management program.
    The funds that NOAA provides then enable a council to 
design a catch share system that will be in place once the 
council decides for sure that that's what they want for that 
fishery.
    So the requests for the funding in this year's budget are 
to go for those fisheries where councils have decided, the 
fishermen included, that that's the kind of management system 
that they believe is appropriate for a particular fishery.
    And there has been a lot of misconception about catch 
shares. It's not true that NOAA is imposing them on anyone. 
They're voluntary. The councils decide. And where they have 
been in place, the fishermen, by and large, believe that they 
have been very much to their benefit.
    Fishermen have more latitude in deciding when to fish. They 
know how much quota they have for the year and they can go out 
when the market price is right, when the weather is good, when 
it's convenient for them.
    It ends overfishing much more effectively than days at sea. 
Catch share programs typically don't exceed their quotas. And 
so there are many, many benefits to those programs, but they're 
not a panacea and they aren't appropriate for each and every 
fishery.
    And so we really believe that the councils should have the 
right to decide for which fisheries catch shares are 
appropriate and which ones they are not appropriate for.
    Senator Ayotte. Well, Doctor, I appreciate your answer, but 
I can tell you that the fishermen in my state don't feel like 
this is a voluntary process, so to speak, and they also don't 
like the program and feel that it's basically putting them out 
of business.
    So I think that this is an issue that crosses party lines. 
So I appreciate what you're saying, but I think that we here in 
Congress really have a responsibility to look at this and to do 
things differently, and that's why I'm concerned that even when 
we've looked at the regulatory oversight for NOAA, there are 
concerns about duplication in regulatory oversight, the 
dockside monitoring. The way that the reporting is being done 
for fishermen, too, has been very onerous.
    So I guess I'm saying to you I, for one, want to make sure 
that we preserve the opportunities for our fishermen, and so I 
appreciate how you're describing it. It's just not the 
perspective that I'm certainly hearing from my constituents 
that I'm very deeply concerned about.
    And, as a follow up to that, just to ask you about your 
overall budget, in looking at where the NOAA budget was from 
2008 to the 2012 budget request, our calculations have that 
it's about 41 percent higher between 2008 and 2012. And this is 
a very fiscally-challenging time for our country with $14 
trillion in debt.
    So I would just like to understand how we get a 41 percent 
increase from 2008 to 2012 when we're all looking to make some 
difficult decisions around here in terms of getting our deficit 
in order, the debt that certainly threatens our country. So if 
you can help me understand that, I would really appreciate it.
    Dr. Lubchenco. Senator, I do believe that we need to live 
within our means. These are very serious fiscal times. The 
deficit is real. We need to be addressing that.
    The budget proposal that we have in the President's budget 
for Fiscal Year 2012 is, in fact, a very disciplined budget 
that has undergone very intense scrutiny and some very, very 
hard choices already. There were many more mandates that we 
have, many more things that people would like us to do that we 
did not include in this budget, because they weren't the 
highest priority. We cut out a number of things that under 
normal times would have been very appropriate to fund.
    Because of the diversity of our mandates, from providing 
weather forecasts and disaster warnings to managing fisheries, 
and all of the science that it takes to deliver that 
information, from the satellites that provide 93 percent of the 
information that go into our numerical models that give us our 
weather forecasts and disaster warnings----
    Those satellites are very expensive, and some of the very 
significant increases that we have certainly in the Fiscal Year 
2012 budget are due to those satellites. And those satellites, 
in turn, though, provide our ability to do the severe storm 
warnings, to tell your constituents when they have a major 
significant snowstorm coming their way, to provide the kind of 
fishery survey information that enables us to manage our 
fisheries responsibly.
    So part of our challenge is managing that diversity of 
responsibilities that we have, and you see that reflected in 
what I believe is a very disciplined budget.
    Senator Ayotte. So just to follow up, if we go back and 
look at the breakdown, the primary driver in your costs is 
satellite, in terms of overall cost?
    When I look at the drivers of a 41 percent increase, for 
example, if I compare 2008 to 2012, based on your testimony, 
the primary driver of that increase would be satellite costs?
    Dr. Lubchenco. I haven't compared 2008 to 2012 that way. We 
could certainly do that. I can certainly tell you that the 
increase in satellites for between 2011 and 2012--Between 2010 
and 2011 and 2012, certainly the largest single item were for 
satellites. And if you are interested in it, we can give you 
the breakdown on those numbers.
    Senator Ayotte. I actually would appreciate the breakdown 
on that. That would be very helpful to me.
    Dr. Lubchenco. And a lot of people see those satellites and 
they think, satellites, what good is that to me? Why do I need 
your weather satellites? I've got the weather channel, for 
example.
    But, in fact, the reality is that's where we get 93 percent 
of the information that goes into our weather forecasts, 
disaster warnings, et cetera. Plus, they give us information 
that enables maritime commerce to happen. It enables search and 
rescue.
    So when your fishermen are out on the water, if they're in 
trouble and they activate an emergency transponder beacon, that 
beacon goes up to the satellite program that we're talking 
about, and then that's relayed to somebody on land to go out 
and help them.
    So the satellites do a wide variety of things that are very 
important to saving lives and property and enabling commerce in 
our country. They're operational satellites. They're delivering 
information day in and day out that is vitally important for us 
to deliver on our mission.
    Senator Ayotte. Thank you very much, Doctor, and, you know, 
I want my fishermen to have the opportunity to utilize those 
satellites that we're going to be spending a lot of money on.
    So I hope that we can continue to make sure that we address 
this issue of the catch share program, so that we maintain a 
viable and thriving fishing industry. And I appreciate your 
testimony today.
    Dr. Lubchenco. Thank you.
    Senator Begich. Thank you, again, Dr. Lubchenco, and I 
would add also the joint effort with the weather satellites 
also for the military.
    Dr. Lubchenco. Thank you.
    Senator Begich. Very, very critical. As I know Senator 
Ayotte and I were at a military hearing in Armed Services and 
one of the issues with Libya was 3 days of inability to fly was 
because of weather, and it has a kind of a far-reaching--I 
think if I remember right, 2010 to 2012 was about a $600-
million-plus increase just for the satellite segment of your 
$5.5 billion budget. So it's fairly significant in that 
equipment establishment.
    Again, just for Senator Ayotte's information, I asked for 
some documentation on the satellites. So we're going to get 
some information in regards to the costs and some other things. 
So that will be used for the Committee.
    Senator Ayotte. Thank you very much, Mr. Chairman.
    Senator Begich. Thank you.
    Again, thank you for your time. Thank you for willing to go 
through this. I have some others. I'll just submit them for the 
record, and, if you get time, please respond to those. I 
appreciate it.
    Again, thank you for all the work you do, and thank you to 
your staff that I know has to get very geared up and prepared 
for these events that we have here. So thank you very much.
    Dr. Lubchenco. Thank you, Mr. Chairman. Appreciate it.
    Senator Begich. Let me check someone's staff.
    Again, thank you very much. The hearing is adjourned.
    [Whereupon, at 4:06 p.m., the hearing was adjourned.]
                            A P P E N D I X

Responses to Written Questions Submitted by Hon. John D. Rockefeller IV 

                         to Dr. Jane Lubchenco
    Question 1. Dr. Lubchenco, there has been talk of ``turning the 
corner'' with regard to measures in place to end overfishing in U.S. 
waters in 2011. Would we be at this place today if Congress had decided 
not to fund key NMFS programs, including stock assessments, observers, 
cooperative research and survey and monitoring projects?
    Answer. Funding from Congress for NOAA's National Marine Fisheries 
Service (NMFS) programs including stock assessments, observers, 
cooperative research, and survey and monitoring projects has been 
crucial toward ending overfishing in U.S. waters in 2011, and the U.S. 
would not be in this place today had Congress not funded these 
programs. Sustainability of our Nation's fisheries takes continual 
effort to monitor fisheries and update scientific information. With 
continued support, NMFS will make substantial progress toward science-
based, effectively managed, and economically viable commercial and 
recreational fisheries that will benefit coastal communities and the 
Nation as a whole. The potential economic and social benefits of 
rebuilt fisheries that the U.S. stands to gain are considerable, 
including generating billions of dollars of economic activity across 
the broader U.S. economy, increased and more stable employment, 
sustainable working waterfronts, and economically resilient coastal 
communities.
    Congressional support for expansion of stock assessments, 
observers, cooperative research and survey and monitoring projects has 
been an important factor in the detection, cessation, and prevention of 
overfishing. These programs allow detection of overfishing by analyzing 
trends in fish stock abundance relative to the historical level of 
catch, then forecast future levels of catch that would prevent 
overfishing and allow rebuilding if the stock has been depleted. 
Fishery management programs then establish Annual Catch Limits to 
control the catch below the overfishing level. Accurate and timely 
commercial and recreational fishery monitoring and observer programs 
then provide the information needed to track catch relative to the 
Annual Catch Limit and to determine when Accountability Measures need 
to be implemented. Subsequent assessments determine if overfishing has 
been successfully curtailed, track the rebuilding of overfished stocks, 
and forecast levels of sustainable catch for rebuilt and healthy 
stocks. Without the funding available today, NMFS would not be able to 
track most stocks and their fisheries beyond baseline monitoring, and 
it would not be able to attain optimum yield without great risk of 
substantial overfishing, which harms fishing communities and coastal 
ecosystems.

    Question 2. How would the President's FY 2012 request address the 
need to improve the timeliness and frequency of fisheries stock 
assessments so that information can be more quickly incorporated into 
management decisions?
    Answer. Stock assessments are based on: fishery-independent data on 
population trends, obtained from field surveys; and fishery-dependent 
data, obtained from landings data, fishery observers, and, where 
appropriate, from surveys of recreational fisheries. NMFS is taking 
several steps to increase operational efficiency and reduce the time 
between data collection and the application of the data to management 
decisions.
    In the FY 2012 President's Request, NMFS is requesting $67.1 
million to expand annual stock assessments, an increase of $15 million. 
The requested increase in funds will allow for a significant increase 
in the output capacity of stock assessments, which will allow optimum 
fishing opportunities in more fisheries without the risk of 
overfishing. Assessments of high priority stocks will be improved; 
updated assessments for stocks will be conducted more frequently; and 
additional fishery-independent surveys funded now will enable 
assessment of more stocks, including data poor stocks, 3-5 years from 
now. NMFS will conduct workshops to improve standardization and public 
understanding of assessment methods, and will conduct improved surveys 
using advanced technologies to estimate fish abundance in additional 
habitats. Advanced technologies will support near real-time processing 
of survey data as it is collected at sea and more rapid delivery of 
these data to shore-based analysts. and will build the capability to 
conduct new types of surveys for some currently data-poor stocks.
    NMFS is also working to increase observer coverage and the number 
of staff available to process and manage the data collected by 
observers. This is important because observers collect high quality 
information on catch and bycatch that is directly incorporated into 
stock assessments. Biological samples such as ear bones (otoliths), fin 
rays, or vertebrae collected by observers are used to determine the age 
of fish, a critical component of high quality stock assessments. 
Unbiased, fishery-dependent catch and bycatch data from observer 
programs are also used in stock assessments.

    Question 3. How would the President's budget improve recreational 
data collection--particularly in the Gulf of Mexico and South Atlantic 
regions?
    Answer. Through its Marine Recreational Information Program (MRIP), 
NMFS is developing and testing new survey methodologies to improve the 
accuracy, geographic resolution and timeliness of recreational fishing 
catch and effort data. These improvements are necessary to support 
successful management of fisheries with Annual Catch Limits and 
Accountability Measures. The President's FY 2012 budget request 
includes an increase of $3 million to begin implementing improvements 
developed through MRIP, of which $1 million will support the phased 
implementation of electronic logbook reporting for charter boats and 
headboats, including for-hire vessels in the Southeast Region.
    The remaining $2 million is requested to implement monthly, rather 
than bimonthly, surveys of shore and private and or rental boat fishing 
efforts that would support updates to catch estimates in the Southeast 
and Northeast Regions by the end of FY 2014.

    Question 4. What progress has NMFS made toward ending overfishing 
and rebuilding depleted fish populations, and how would the President's 
FY 2012 requests further this progress?
    Answer. Significant progress has been made in improving the status 
of fish stocks. Of the 81 stocks determined to be overfished between 
2000 and 2010, 33 stocks are no longer overfished. Of the 76 stocks 
determined to be subject to overfishing in the same time period, 36 
stocks are no longer subject to overfishing. In addition, 23 stocks 
have been rebuilt over this same time period. The Fish Stock 
Sustainability Index, (FSSI), an overall index of sustainability for 
230 U.S. fish stocks selected for their importance to commercial and 
recreational fisheries increased by 63 percent over the last 10 years 
(from 357.5 to 583 points out of 920 possible points). The FSSI will 
continue to increase as regular stock assessments confirm that 
overfishing has ended and stocks rebuild to the levels that provide for 
maximum sustainable yield.
    For fisheries subject to overfishing, the Regional Fishery 
Management Councils and NMFS have taken final actions to end 
overfishing and put Annual Catch Limits (ACL) in place, with 26 ACLs 
implemented in 2010. The Councils and NMFS are working to meet the 2011 
deadline to have Annual Catch Limits included in Fishery Management 
Plans for all managed stocks. NOAA's FY 2012 budget request includes 
$7.6 million in the Magnuson-Stevens Act Implementation portion of the 
Fisheries Research and Management PPA for NMFS to support the 
establishment, monitoring, and compliance of Annual Catch Limits, and 
$5.6 million, split between the Regional Councils and Commissions PPA 
and the Fisheries Research and Management PPA, for the Councils to set, 
evaluate, and revise Annual Catch Limits and associated regulatory 
measures to end overfishing. The FY 2012 budget also provides also 
$62.1 million, an increase of $15.0 million, to increase the number of 
stocks with adequate assessments to help verify that overfishing is no 
longer occurring and safely allow optimum catch levels to be set to 
support the sustainability and economic vitality of the FSSI.

    Question 5. What is NMFS currently doing to help fishermen and 
coastal communities with the economic transition to sustainability and 
how will FY 2012 appropriations impact those efforts?
    Answer. NMFS is very concerned about the hardships that some 
fishermen and fishing communities have experienced recently as NMFS and 
the Regional Fishery Management Councils (Councils) work to fulfill the 
requirements of the Magnuson-Stevens Fishery Conservation & Management 
Act (Magnuson-Stevens Act) to end and prevent overfishing. As 
overfished stocks rebuild, it is anticipated that there will be more 
harvest opportunities as the stocks reach their sustainable abundance 
level. NMFS and the Councils work closely with fishermen and other 
stakeholders in a highly participatory public process during the 
development of fishery management programs to minimize impacts to the 
industry and coastal communities. The Council process is highly 
adaptive and flexible allowing for new information to drive 
modifications to management measures. For example, if there is new 
scientific information that supports raising the catch limits, which 
could provide more opportunities for some fishermen to re-enter the 
fishery, then management options will be revisited through the Council 
process.
    In addition, the FY 2012 President's Budget includes, in the 
National Ocean Service, a proposal for $8 million to create a working 
waterfronts grant program. This program will assist fishing-dependent 
coastal communities adversely affected by changes in the fishing 
industry on which they depend. This program will assist distressed or 
at-risk fishing communities by providing resources for communities to 
engage in planning, capacity building, and other activities. NMFS is 
also committed to working with fishermen, state and local governments, 
public and private non-profit organizations, tribal entities, and 
others to help communities build their capacity to address long-term 
fishery and community sustainability by working across the Federal 
Government to provide technical assistance related to community 
economic development.
    Catch shares are another management tool that NOAA supports where 
appropriate to achieve economically and biologically sustainable 
fisheries. Specifically, the NOAA policy recommends that Councils 
develop policies to take advantage of the special community provisions 
in section 303A of the Magnuson-Stevens Act. For example, New England 
Council actions are underway to assist small fishing communities 
including the States of Maine, New Hampshire, Massachusetts, and Rhode 
Island in establishing several permit banks of Northeast multispecies 
fishing vessel permits to provide small vessels and small communities 
with an opportunity to obtain additional quota or days-at-sea on the 
open market at a reduced cost.
    NOAA is also seeking to increase loan authority in FY 2012 from $16 
million to $24 million under NOAA's Fisheries Finance Program (FFP) to 
provide quota share loans in support of the catch shares program. The 
Magnuson-Stevens Act allows Councils to specify up to 25 percent of 
cost recovery fees be used for FFP loans to assist small operators and 
first time buyers of catch share privileges, thus lowering the 
threshold for entry. These programs, as authorized under the Magnuson-
Stevens Act, are limited to entry-level fishermen and fishermen who 
fish from small boats. These loans can be used to purchase or refinance 
Individual Fishing Quota in these fisheries, but may not be used to 
acquire quota share beyond specific percentages within each fishery 
(i.e., consistent with existing excessive share caps to limit 
consolidation). The financing supports a more competitive, market-
oriented fishery that also helps to preserve sustainable yields in 
those fisheries over time.

    Question 6. What does the agency estimate the economic benefits 
will be of rebuilding in FY 2012 and beyond?
    Answer. NMFS estimates that if the stocks that are currently under 
rebuilding plans were rebuilt and all stocks were harvested at their 
maximum sustainable yield this could increase ex-vessel value by as 
much as $2.2 billion, and would generate an additional $31 billion in 
sales impacts and support 500,000 jobs across the broader economy.\1\
---------------------------------------------------------------------------
    \1\ Internal analysis using the National Marine Fisheries Service 
Commercial Fishing & Seafood Industry Input/Output Model. For 
additional information on this model, see ``The NMFS Commercial Fishing 
& Seafood Industry Input/Output Model.'' available at https://
www.nmfs.noaa.gov/documents/Commercial Fishing IO Model.pdf.

    Question 7. Can you explain how information generated from NMFS 
data collection and analysis programs are used by fishermen and other 
fishery-related businesses in terms of their own business planning and 
investments?
    Answer. NMFS provides time series information on prices and landing 
trends for commercially harvested species. The price information may be 
broken down by product form or product size, which provides fishermen 
information on the price differential associated with each form and 
size category. Coupled with landings information and information on 
inventory, fishermen can draw inferences on whether the market appears 
to be growing, is saturated, etc. In addition, NMFS provides 
information on trade data and trade patterns, which fishermen can use 
to identify new and emerging markets or to anticipate increased 
competition from imports.

    Question 8. Recently, Senator Inouye reintroduced legislation to 
strengthen Federal consumer product safety programs and activities with 
respect to commercially marketed seafood. In your view, how would S. 
50, the Commercial Seafood Consumer Protection Act, enhance the ability 
of NOAA and the Department of Commerce to ensure that commercially 
distributed seafood in the United States--particularly imported 
seafood--meets the food quality and safety requirements of applicable 
Federal laws?
    Answer. The Commercial Seafood Consumer Protection Act would 
enhance the ability of NOAA and the Department of Commerce to support 
the safety of commercially distributed seafood in the United States. 
Section 4 would do this by increasing the capacity of NOAA labs to test 
seafood for safety and fraud, strengthening seafood inspection 
effectiveness and providing additional assurance that seafood products 
comply with applicable Federal laws. The bill would enhance NOAA's 
statutory authority to examine and test imported seafood and foreign 
facilities, increasing the percentage of imported seafood subject to 
inspection and testing as needed and consistent with U.S. international 
obligations, thereby enabling NOAA to be a more effective partner with 
FDA in ensuring seafood safety. Greater interagency coordination and 
leveraging of resources and expertise, as called for in the 
legislation, would also enhance seafood safety protections for U.S. 
consumers.
    While there are sections of the bill that would enhance the 
Department's/NOAA's effectiveness in testing seafood, there are 
provisions in S. 50 that are duplicative or inconsistent with the Food 
Safety Modernization Act (FSMA). The final version of S. 50 should be 
clear that all seafood inspections and examinations conducted by NOAA 
in partnership with FDA must be scientifically valid with relative risk 
taken into account and in accordance with international obligations 
under WTO and SPS. Also, current language in S. 50 changes an existing 
standard for refusal of admission of imported seafood in a way that 
could limit FDA and NOAA's efforts to keep unsafe seafood out of the 
U.S. food supply. We look forward to the opportunity to work with 
Senator Inouye, the Committee, FDA and other agencies to ensure that 
new legislation that addresses problems already addressed by FSMA will 
not result in unnecessary duplication of efforts and administrative 
costs without appreciable public-health benefit, and that new 
legislation is consistent with U.S. international trade obligations.

    Question 9. Leading scientists have argued that many depleted fish 
populations are capable of rebuilding in a 5-year time frame (see 
Safina, et al., Science, Vol. 309, July 29, 2005). Can it be concluded 
that the MSA's 10-year time frame--a time frame which is twice the 
amount of time the majority of populations require for rebuilding--
represents a balance between rebuilding depleted stocks as quickly as 
possible and minimizing social and economic harm, and therefore is not 
arbitrary?
    Answer. The statute requires that the time period for rebuilding be 
``as short as possible'' and not to exceed 10 years in certain 
circumstances. The amount of time needed to rebuild fish stocks varies 
depending on the fish life history characteristics and reproductive 
capacity. For many highly productive stocks, 10 years is adequate time 
to rebuild, although many rebuilding timeframes are required to be 
shorter than 10 years. For stocks that cannot rebuild in 10 years, the 
National Standard 1 Guidelines provide a method to determine the 
maximum time to rebuild, still constrained by the overall directive 
that the time be ``as short as possible.'' Of the 38 rebuilding plans 
with timeframes of 10 years or less, the majority provides for 
rebuilding and continued fishing opportunities.

    Question 10. Isn't it true that Section 304(e)(4)(A)(ii) of the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA) provides 
flexibility to extend the rebuilding timeframe beyond 10 years where 
the biology of the stock of fish, other environmental conditions, or 
management measures under an international agreement in which the 
United States participates dictate otherwise? Specifically, isn't it 
the case that the significant majority of stocks in rebuilding plans 
have timeframes for rebuilding that exceed 10 years, either as a result 
of the application of one or more of these exceptions or for other 
reasons, including the resetting of the start date for the rebuilding 
time frame, delay in rebuilding plan implementation, or the lack of a 
rebuilding timeframe end date because of lack of data?
    Answer. Within the constraint that rebuilding timeframes be ``as 
short as possible,'' the Magnuson-Stevens Act and the National Standard 
1 Guidelines provide flexibility in rebuilding timeframes to consider 
the biological needs of the species, as well as the social and economic 
needs of fishing communities. More specifically, National Standard 1 
Guidelines provide that for stocks that cannot rebuild in 10 years, the 
maximum time to rebuild is based on the productive capacity of the 
stock. Many rebuilding plans for overfished stocks exceed 10 years; the 
longest of which is 100 years. There are 64 rebuilding plans (past and 
current) with specified timelines; additionally, there are 1 past and 8 
current rebuilding plans with no specified timelines. Out of 64 
rebuilding plans with specified timelines, both past and current, 26 
(41 percent) have or had rebuilding timeframes that exceed 10 years, 
and the average rebuilding plan time-frame was 21 years.

    Question 11. How many fish stocks are under 10 year rebuilding 
timeframes that have been restarted or extended since they first went 
into effect? What's the average length of time that they've been 
extended for and/or the number of times the clock has been restarted? 
For example, in the case of south Atlantic black sea bass, how many 
times has the 10 year rebuilding time-frame been extended or the clock 
restarted?
    Answer. South Atlantic Black Sea Bass and Mid Atlantic Summer 
Flounder are the only two formal rebuilding plans under Section 
304(e)(4)(A) of the Magnuson-Stevens Act that were originally 10 years 
or fewer and were extended. For South Atlantic Sea Bass, the rebuilding 
plan was revised in 2006 to create a 10-year rebuilding program in 
compliance with Section 304(e)(4)(A), as the original rebuilding plan 
timeline was created prior to the rebuilding amendments to the 
Magnuson-Stevens Act. The Mid Atlantic Summer Flounder rebuilding plan 
was Congressionally-extended from a 10-year plan to a 13-year plan as 
part of the reauthorization of the Magnuson-Stevens Act in 2006, based 
on the status and biology of the stock and the rate of rebuilding.

    Question 12. How many have stocks been already rebuilt pursuant to 
the 10 year rebuilding requirement? How many are almost rebuilt?
    Answer. Eighteen stocks have already been rebuilt under rebuilding 
plans that were 10 years or less. Twenty stocks are under rebuilding 
plans that are no more than 10 years; 25 stocks are under rebuilding 
plans that are more than 10 years; and another 8 stocks are under 
rebuilding plans that have no estimated time to rebuild because there 
is insufficient information to estimate rebuilding time. In each case, 
the length of the rebuilding plan is ``as short as possible'' taking 
into account the following criteria: the status and biology of the 
stock, the needs of fishing communities, recommendations by 
international organizations in which the U.S. participates, and 
interaction of the stock within the marine ecosystem. Of the 20 stocks 
under rebuilding plans that are no more than 10 years, the abundance of 
five stocks has increased such that they are no longer considered 
overfished, and one of these stocks is above 80 percent of the fully 
rebuilt level. Overall, of the 53 rebuilding stocks, 14 are no longer 
overfished, and three of these are above 80 percent of the rebuilt 
biomass level. As their abundance continues to increase toward the 
level that supports the maximum sustainable yield, annual catch amounts 
can also increase.

    Question 13. Does NOAA have current repositories of historical 
weather data other than those contained in the Climate Database 
Modernization Program?
    Answer. The Climate Database Modernization Program (CDMP) is not a 
data repository, but a means to rescue data that is at risk of loss by 
converting it to electronic form and placing the rescued data in NOAA's 
Comprehensive Large Array-data Stewardship System (CLASS). CLASS is 
NOAA's data repository. Along with NOAA's National Oceanographic Data 
Center and the National Geophysical Data Center, the National Climatic 
Data Center (NCDC) places its data in CLASS, making CLASS the Nation's 
repository for historical U.S. and international weather and climate, 
oceanographic, and geophysical data.

    Question 14. Is it an agency priority to ensure that scientists 
have access to data that includes a broad historical perspective from 
the earliest recorded weather observations? Is such data useful to 
today's climate scientists, as they seek to build models off current 
data that can help predict future climate change?
    Answer. Yes, and yes. Part of NOAA's mission and a priority for the 
agency is providing comprehensive, accessible, timely, and reliable 
climate and historical weather data and information, and being a 
trusted objective authority on climate monitoring. NCDC provides long-
term preservation, stewardship, and access to the Nation's resource of 
global climate and historical weather and climate data going back to 
the 16th Century and includes pre-instrument paleoclimate data such as 
ice rings, tree rings, and coral cores going back thousands of years. 
NOAA provides access to all its data holdings to the public and 
scientific community. These data are invaluable to the scientific 
community, providing the means to document the past behavior of the 
climate system, and are used as benchmarks for verifying the climate 
models used to project future changes in climate.
    Over 2.5 petabytes (PB) of data are now directly accessible from 
NCDC's website (www.ncdc.noaa.gov). 1,098 TB of data were delivered on-
line during FY 2010, with over 800 million hits and downloads from 
NCDC's website during that time; a nearly 50 percent increase over the 
same period in FY 2009. Several factors account for this increase, 
including: continued infrastructure improvements at NCDC to accommodate 
user demand, the Climate Services Portal prototype release in the 
second quarter of FY 2010 (www.climate.gov), and access to large 
volumes of Climate Forecast System Reanalysis data via the NOAA 
National Climate Model Portal (NCMP) (over 125 million downloads, and 
465 TB of data) in FY 2010. NOAA climate data users and data requests-
retrievals are placed into four general categories: Business 44 
percent, Public 33 percent, U.S. Government 12 percent, and Academia 10 
percent.
    NCDC, in partnership with other agencies, continues to improve web-
based, on-line, real-time access to many of the digitized data and near 
real time access to data stored on the tape library system. New web-
based ``portals'' are on-line and being improved to ensure easy and 
convenient access, search, and retrieval by users. The increase in the 
accessibility of these long-term records is helping researchers 
worldwide and is useful to today's climate scientists, as they seek to 
build better models from current data and long term historical data 
that can help improve future climate variation and change predictions.
    For those who are not ready or choose not to use the on-line access 
system, requests are serviced by customer specialists and the 
information is provided by other means. In FY 2010, 71,540 paper 
subscription copies, CD ROMs and DVDs, etc. were issued.

    Question 15. Now that the FY 2011 appropriations agreement is in 
place, how does NOAA intend to continue the work of the Climate 
Database Modernization Program without interruption?
    Answer. NOAA intends to allocate $4.1 million for CDMP work in FY 
2011, the funding that was requested in the President's FY 2011 Budget 
request. At this level of funding, the CDMP work will support imaging 
and keying of current NWS observations that continue to arrive on paper 
forms. At this level of funding, there will be no further data rescue 
or conversion of historical records from analog, paper and microfiche 
to digital formats.

    Question 16. Absent the Climate Database Modernization Program, how 
would NOAA provide historical weather data preservation services and 
requests for historical data sets to U.S. regional climate centers, 
state and local planning offices, universities, climate researchers, 
state climatologists, the World Metrological Organization, and 
meteorological services in Europe, Africa, Asia, and North America?
    Answer. The NOAA Data Centers will continue to provide access to 
all historical weather data in both the digital and physical archives. 
However, absent the Climate Database Modernization Program, the 
digitization of historical weather records for data preservation and 
online access will cease.

    Question 17. Do you agree with the National Academies of Science 
observation that the new method in climate science--reanalysis--is 
important to NOAA's and other's efforts to understand and model climate 
effects? Is the Climate Data Modernization Program an important tool in 
NOAA supporting the use of reanalysis in the climate science community?
    Answer. Reanalysis is an essential tool for climate science as it 
provides a physically complete and historically continuous 
representation of the global climate system. Historical observations 
are the indispensable input that draws the climate model solution into 
alignment with the known state of the environment in order to create 
the reanalysis. The Climate Database Modernization Program has 
contributed millions of observations in support of reanalysis projects, 
such as:

  <bullet> Upper Air Data Recovery (CHUAN)
    http://journals.ametsoc.org/doi/abs/10.1175/2009BAMS2852.1;

  <bullet> Re-analysis
    http://onlinelibrary.wiley.com/doi/10.1002/qj.776/abstract;

  <bullet> Century Reanalysis Project
    http://www.esrl.noaa.gov/psd/data/20thC_Rean/;

  <bullet> Atmospheric Circulation Reconstructions over the Earth 
        (ACRE)
    http://www.met-acre.org/;

  <bullet> 20th Century Reanalysis (20CR) dataset
    http://onlinelibrary.wiley.com/doi/10.1002/qj.776/abstract
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Dr. Jane Lubchenco
    Question 1. If the relocation of the Marine Operations Center-
Pacific (MOC-P) to Newport, Oregon proceeds as planned, what 
expenditures do you anticipate related to that move, and from what 
specific accounts within NOAA's budget will those costs be paid?
    Answer. The relocation to Newport, Oregon is complete, the facility 
complete, occupied and fully operational. Costs for the lease and move 
of employees were paid from the Marine Operations ORF (Operations, 
Research, and Facilities) account.

    Question 2. NOAA Operation funds took a serious (>97 percent) cut 
in the FY 2011, receiving only 3.185 million which is 119 million below 
FY 2010. How is this cut impacting the MOC-P move? If funding for the 
move is not coming from this account, what specific accounts are 
funding the MOC-P move?
    Answer. The FY 2011 appropriation did not impact funding for the 
MOC-P move. Funding for the MOC-P move was paid for from the Marine 
Operations ORF (Operations, Research, and Facilities) account.

    Question 3. Do you anticipate ANY increased expenditures or costs 
related to a MOC-P move to Newport, Oregon (either direct or indirect) 
in FY 2011 and FY 2012 that will be incurred to accounts outside of the 
Office of Marine and Aviation Operations? If so, what accounts/
programs, for how much, and for what?
    Answer. OMAO does not expect any other direct or indirect costs 
outside of the OMAO accounts.

    Question 4. With the rise in transportation costs (gas price 
increase as one example) has NOAA revisited a cost analysis to the 
Newport move? Has NOAA revisited estimates of the annual operating 
costs after the move has taken place (transportation to airports and 
the fleet for example)? What specific account will these one-time and 
ongoing costs come from?
    Answer. OMAO did an analysis of the one time and ongoing costs in 
2009. No reanalysis has occurred as the lease has been signed and NOAA 
executed the move of MOC-P from Seattle to Newport in accordance with 
lease requirements. Costs will be paid from Marine Services ORF 
account.

    Question 5. As many as 80 NOAA-employed families have decided to 
remain in the Seattle area and ``commute'' to Newport. Will NOAA 
compensate employees for transportation costs between Newport and 
Seattle? If so, were these costs built into the overall MOC-P cost 
estimate?
    Answer. Where an OMAO employee chooses to maintain a residence is a 
personal decision. Since this would be personally identifiable 
information, OMAO Human Resources is not at liberty to disclose the 
location of individual's residences. However it is not accurate that 80 
employees are commuting to Newport from Seattle.
    Seattle will no longer be a duty station for any MOC-P employee. 
The civilian employees assigned to work in the facility at Newport will 
have a duty station assigned of Newport, OR and will not be compensated 
for commuting if they choose not to relocate. Seattle ship based 
personnel who have a duty station of Seattle will need to elect a duty 
station other than Seattle. As is current practice, ship based 
employees who choose a residence other than the homeport of the ship, 
are responsible for any commuting expenses to the ship's homeport. All 
employees assigned to either the Marine Center or a Seattle based ship 
are entitled to relocation expenses.

    Question 6. NOAA scientists have raised concerns about the 
vulnerability of the Newport harbor to Tsunamis, because Newport Harbor 
is more vulnerable than the Seattle harbor. Is NOAA planning to add 
infrastructure in Newport to protect the fleet? How much will this 
infrastructure cost? What specific line office, program, and account 
will this funding coming from?
    Answer. There are no plans to add infrastructure at this time. MOC-
P employees are covered within NOAA's existing Tsunami response plans 
for Newport, OR including necessary evacuation procedures.

    Question 7. The National Marine Fisheries Service released a 
recovery plan for Puget Sound southern resident orcas in January 2008 
that outlines the problems facing this orca population and the proposed 
actions to delist the species. The Report says the cost to delist 
southern resident orcas will be at least $50 million over 28 years. 
What is the amount of funding included in the FY 2012 NOAA budget 
devoted specifically for efforts called for under the Puget Sound 
Southern Resident Orca Recovery Plan?
    Answer. Fiscal Year 2012 funding for orca recovery is currently 
$1.052 million. Based on the life history of orcas and the nature of 
the threats, progress toward recovery will be a long-term effort which 
could take 28 years or more. NMFS strives to identify the highest 
priority and most cost-effective research and recovery actions to fund 
and ensure that we are contributing to the recovery of the Southern 
Residents and moving toward our goal of delisting.
    The Southern Resident Orca Whale research program funding 
distribution to the NMFS Northwest Fisheries Science Center has 
remained at approximately $750,000 per year since FY 2008. The NMFS 
Northwest Regional Office receives approximately $250,000 per year for 
management. This does not include the values of support from NOAA ships 
for the offshore winter research when vessel time is made available.
    There are no specific increases for Orca research in the protected 
species budget lines in the FY 2012 request; however NMFS anticipates 
that funding needs for this program should remain constant in 2012.

    Question 8. Does this funding level put us on track to delist the 
species within 28 years as the recovery plan states?
    Answer. The FY 2012 funding level will assist researchers at the 
NMFS Northwest Fisheries Science Center as they continue to advance 
their understanding of the population of Southern Resident Killer 
Whales, their behaviors, prey and habits, which will contribute 
directly to the management of the population to achieve recovery goals 
of the plan. There is an ongoing need for at-sea data collection to 
monitor and assess the status of the stocks and their use of habitat 
especially during the winter months.
    While some of the $50 million cost of recovery is attributed to 
actions for which NOAA is the lead responsible party, many of the 
actions include other responsible parties as well. Recovery of the 
Southern Residents will require contributions from a variety of 
government agencies and stakeholder groups as identified in the 
Recovery Plan. With specific funding for killer whales that was 
available in 2003-2007, NMFS made gains in establishing a recovery 
program including designating critical habitat, completing the Recovery 
Plan, and implementing recovery actions. Now NMFS uses available 
resources to implement actions in the Recovery Plan. NOAA has developed 
many valuable partnerships to leverage available funding from a number 
of sources to maximize our resources for the benefit of the whales. For 
example, NMFS has made significant progress working with the Washington 
Department of Fish and Wildlife on oil spill response planning and 
reducing vessel impacts through enforcement presence on the water and 
education. In coordination with the Washington Department of Fish and 
Wildlife, the U.S. Coast Guard, and the Department of Fisheries and 
Oceans Canada, NOAA finalized vessel regulations to protect the whales. 
NMFS also developed a transboundary scientific workshop process to 
assess potential impacts of salmon fisheries on the whales. Orca 
recovery is part of the Puget Sound Partnership Action Agenda and we 
are coordinating with salmon recovery programs. In addition, there is 
an active research program including NOAA, universities, and private 
research organizations working to help fill in data gaps and guide 
recovery.

    Question 9. Vessel-based research is an important component of many 
NOAA research programs. Research directives such as stock assessment 
surveys, wide scale ocean acidification, offshore critical habitat 
determination and global climate change research can only be completed 
using vessel based data collection.How much funding was requested for 
NOAA ship time in the President's proposed FY 2012 budget?
    Answer. In the FY 2012 President's Budget Request, NOAA requested 
$105.3 million for ship operational costs. Of the total, $24.2 million 
is allocated to wage mariners salaries and augmentation costs (costs 
associated with additional people hired to substitute wage mariners on 
leave); $31.5 million is allocated for shoreside support, including 
training, travel, lease, guard services, contracts, administrative 
overhead, etc; $23.6 million is allocated to maintenance; and $26 
million is allocated to variable costs mainly comprised of fuel and 
overtime.

    Question 10. How much funding was allotted to ship time each fiscal 
year, since FY2000?
    Answer. Please see below for funding for all NOAA ships within each 
FY from FY 2007-2010.

----------------------------------------------------------------------------------------------------------------
                                                                                  Total  Ship
                 Fiscal year                  OMAO  Ship Cost   LO  Ship Cost         Cost         %  LO funded
----------------------------------------------------------------------------------------------------------------
2007                                                    $73M              $0M             $73M               0%
----------------------------------------------------------------------------------------------------------------
2008                                                    $87M              $0M             $87M               0%
----------------------------------------------------------------------------------------------------------------
2009                                                    $91M              $4M             $95M             4.2%
----------------------------------------------------------------------------------------------------------------
2010                                                    $92M              $3M             $95M             3.2%
----------------------------------------------------------------------------------------------------------------

    Information prior to FY 2007 is not available due to a different 
accounting system and structure.

    Question 11. Which specific account does ship time come from? What 
percentage of ship time cost is paid by the program office? What 
percentage is paid by Office of Marine and Aviation Operations? Is that 
a consistent ratio for all NOAA ship time, or does this ratio vary 
between program offices?
    Answer. OMAO ship time costs are expended from the Operations, 
Research, and Facilities Marine Services activity. Most of the funds 
come from Data Acquisition and some funds come from Fleet Planning and 
Maintenance (FP&M) account. In FY 2010, program offices paid for 3 
percent of the total ship time costs. The ratio of program time versus 
OMAO varies by ship and by program and by year.

    Question 12. If this ratio does vary between program offices, 
please list program offices that utilize ship time and the specific 
sources of that funding.
    Answer. The chart below shows a breakdown of actual FY 2010 Program 
Funded Days (PFD) by Line Office.

----------------------------------------------------------------------------------------------------------------
                                     Program Funded
             FY 2010                  Days (PFDs):                          Source of Funds
----------------------------------------------------------------------------------------------------------------
NMFS                                             108                                  ESA Recovery and Research
                                                                                 Expand Annual Stock Assessment
                                                                       Fisheries Research & Management Programs
----------------------------------------------------------------------------------------------------------------
OAR                                               37                                            Laboratories & Cooperative Institutes Ocean Exploration
----------------------------------------------------------------------------------------------------------------
NOS                                               44                                   Navigation Services and Charting Response & Restoration
----------------------------------------------------------------------------------------------------------------
NWS                                               31                                 Local Warnings & Forecasts
----------------------------------------------------------------------------------------------------------------

    Question 13. NOAA has relocated the McArthur II to the Gulf of 
Mexico for the National Resource Damage Assessment following the Deep 
Horizon Oil Spill. This vessel is permanently stationed in Seattle, WA. 
Prior to reassignment, the McArthur II completed research missions 
primarily in the Eastern North Pacific. How long will the McArthur II 
be stationed in Gulf Waters?
    Answer. NOAA Ship McArthur II is expected to complete its mission 
in support of Natural Resource Damage Assessment (NRDA) by mid-October.

    Question 14. Please list all research missions and program offices 
which utilized the McArthur II from FY 2008-FY 2010. What research 
missions in FY 2011 and FY12 would have occurred on the McArthur II 
before the vessel was reassigned? For example, the canceled offshore 
Southern resident orca surveys.

------------------------------------------------------------------------
                           NOAA Ship McArthur
-------------------------------------------------------------------------
     Fiscal Year                 Mission                 Line Office
------------------------------------------------------------------------
FY 2008               Dolphin, Whale and Killer      NMFS
                       Whale Marine Mammal Surveys
------------------------------------------------------------------------
FY 2008               Larval Transport Studies       NMFS
------------------------------------------------------------------------
FY 2008               Estuary Research               NOS
------------------------------------------------------------------------
FY 2008               West Coast National Marine     NOS
                       Sanctuary Research
------------------------------------------------------------------------
FY 2008               Biotoxin Studies               NMFS
------------------------------------------------------------------------
FY 2009               Dolphin, Whale and Killer      NMFS
                       Whale Marine Mammal Surveys
------------------------------------------------------------------------
FY 2009               Ice Seal Research              NMFS
------------------------------------------------------------------------
FY 2009               Fishery Stock Assessments      NMFS
                       (e.g., Juvenile Salmon,
                       Shark)
------------------------------------------------------------------------
FY 2010               Dolphin, Whale and Killer      NMFS
                       Whale Marine Mammal Surveys
------------------------------------------------------------------------
FY 2010               Ice Seal Research              NMFS
------------------------------------------------------------------------
FY 2010               West Coast National Marine     NOS
                       Sanctuary Research
------------------------------------------------------------------------
Fiscal Year           Mission Cancelled Due to       Line Office
                       Reassignment
------------------------------------------------------------------------
FY 2011 & FY 2012     Dolphin and Killer Whale       NMFS
                       Marine Mammal Surveys
------------------------------------------------------------------------
FY 2011 & FY 2012     Deep Sea Coral                 NOS
------------------------------------------------------------------------
FY 2011 & FY 2012     West Coast National Marine     NOS
                       Sanctuary Research
------------------------------------------------------------------------

    Question 15. Will NOAA be compensated for the temporary 
reassignment of the McArthur II? If so, how will this funding be used 
to maintain research in the North Pacific? Will this funding be used to 
contract a third party vessel?
    Answer. OMAO is receiving full reimbursement for NOAA Ship McArthur 
II for its work in the Gulf of Mexico. The reimbursement covers all 
costs associated with ship usage including personnel salaries, fuel, 
food, maintenance, and support services. Since McArthur II was planned 
to be inactive for FY 2011, only missions funded by NRDA are being 
executed.

    Question 16. If research missions are transferred to other NOAA 
vessels, which research missions will no longer take place on those 
vessels? For example, will this indirectly effect ship time for other 
NOAA or academic collaborations which conduct research on the NOAA 
fleet?
    Answer. There is no impact to NOAA ship time from transferring 
research missions from the McArthur II to other NOAA vessels. In the 
FY12 Fleet Allocation Plan (FAP), ship time, or Days at Sea (DAS), was 
increased on other vessels to compensate for the loss of the ship.

    Question 17. Does NOAA plan to reassign the home port of the 
McArthur II?
    Answer. NOAA plans to have the homeport of NOAA Ship McArthur II 
remain the Marine Operations Center--Pacific. Upon completion of its 
current mission in the Gulf of Mexico, McArthur II will return its 
homeport at the Marine Operations Center--Pacific, now located in 
Newport, Oregon.

    Question 18. NOAA and academics have stated the need continue to 
collect orca diet and habitat use data within the Puget Sound, but also 
during winter when orcas are offshore and little is known. This year, 
ship time for Southern resident orca research was cut, eliminating 
offshore vessel based survey research. In addition, small vessel 
surveys have not been used offshore due to safety reasons in this 
region. Without ship time, how will NOAA collect vital survey data used 
to determine critical habitat of Southern resident orcas as required by 
the Endangered Species Act?
    Answer. The NMFS Northwest Fisheries Science Center will continue 
to use small research vessels to conduct Southern Resident Orca Whale 
studies in the inside waters of Puget Sound during the portion of the 
year when the animals are present in inland waters. Working with the 
NOAA Fleet Allocation process, the program will request NOAA ship time 
for the winter offshore research component which is critical to 
monitoring the status of the stocks, and to adequately address risk 
factors and data gaps that require sea days.

    Question 19. Which program offices and accounts funded this 
research in the past? Please list funding levels for at sea vessel 
based orca surveys over the past 5 fiscal years.
    Answer. The North Pacific Southern Resident Orca Whale research 
program line enacted distribution (program code: 02-20-12-003) to NMFS 
Northwest Fisheries Science Center for the last 5 years is listed 
below. This includes the program's support for small boat activities in 
inland waters:

        FY 2007--$1,091,857

        FY 2008--$749,250

        FY 2009--$748,864

        FY 2010--$748,864

        FY 2011--$742,582

    OMAO provided the following support aboard the McArthur II:

        FY 2006--19 Days-At-Sea--$150,252

        FY 2007--13 Days-At-Sea--$102,804

        FY 2008--10 Days-At-Sea--$90,170

        FY 2009--18 Days-At-Sea--$121,896

        FY 2010--0 Days-At-Sea--$0

        FY 2011--0 Days-At-Sea--$0

    Question 20. In the FY12 budget request, have you restored that 
funding? If so, please identify specifically where that funding was 
increased (both in the program office and OMAO).
    Answer. The funding for the Southern Resident Orca Whale research 
program is funding from the Marine Services Operations, Research and 
Facilities account or funding provided by NMFS. Allocation of fleet 
resources in any given year is based on a prioritization process 
conducted by the Fleet Council.
    NMFS anticipates that the FY 2011 and FY 2012 allowances will 
continue to be at the $750,000 level for the Southern Resident Orca 
Whale research program.

    Question 21. Chinook catch limits in the Puget Sound were decreased 
due to impacts on endangered Southern resident orcas as required by the 
Endangered Species Act. This decision was based on data collected from 
Southern residents in the Puget Sound, however peer reviewed scientific 
literature routinely identifies data deficiencies for winter months: 
when orcas are offshore. Without adequate ship time funding, how does 
NOAA plan to manage the Chinook salmon fishery and conserve Southern 
resident orcas without adequate scientific data?
    Answer. The Recovery Plan for Southern Residents identifies high 
priority studies on the whales' coastal habitat use and diet that are 
needed to fill important data gaps and inform fisheries management. 
Under Section 7 of the ESA, NMFS has analyzed the impacts of Chinook 
salmon fisheries on the endangered Southern Resident killer whales both 
in Puget Sound and along the West Coast. Our analyses have been 
challenging in light of data deficiencies, particularly for winter 
months. NMFS has considered the limited information regarding the diet 
of the whales in their coastal habitat and made reasonable assumptions 
based on the more detailed data collected in Puget Sound. To help us 
address uncertainties and inform fishery management, NMFS is 
coordinating with Canada to develop a transboundary independent 
scientific review panel process to: (1) summarize the status of the 
available science regarding effects of prey reductions resulting from 
fisheries and (2) identify means for reducing data gaps and scientific 
uncertainties.
    For salmon research, NOAA chartered a commercial vessel to provide 
37 days at sea on 5 survey legs spread over the summer months of June, 
July and September for the 2011 field season. This charter time will be 
used to support forecasts on Chinook and coho stocks, and to observe 
the overall condition of the Northern California Current ecosystem in 
support of NOAA's responsibilities to support ecosystem based 
management goals for the agency and Pacific Fisheries Management 
Council. NMFS Northwest Fisheries Science Center uses small boats, 
including the Center's small research vessel the HAROLD W. STREETER and 
chartered a commercial fishing vessel to support salmon research within 
Puget Sound in 2011. The research programs will be participating in the 
NOAA Fleet Allocation process to request salmon research time on NOAA 
ships and will charter commercial vessels in FY 2012 for the offshore 
ocean conditions studies.

    Question 22. At-sea observers are the most reliable source of 
fishery catch information, bycatch and at-sea discards, and are a 
central pillar of the national fishery bycatch strategy. The 
President's FY 2012 budget requests $39.1 million to the national 
fishery observer program, a cut of nearly $2 million from the enacted 
FY 2010 level.Approximately how many U.S. fisheries will be considered 
to have adequate observer coverage with this level of funding?
    Answer. NMFS currently provides observer coverage in 45 fisheries 
nationwide, of which three fisheries include industry-funding for 
observers: North Pacific groundfish, West Coast trawl, and Northeast 
scallop. The requested level of funding for FY 2012 will provide 
adequate or near-adequate observer coverage for approximately 28 
fisheries and pilot or baseline coverage for 17 fisheries. 
Approximately 70,000 days at sea are observed annually using both NOAA 
and industry funding, and data are used for catch and bycatch 
estimation, stock assessments, and to support research on biology of 
the species, factors that influence the bycatch rates, and economic 
factors that affect fishing behavior. In addition, $15.7 million for 
observers and monitors is requested in the FY 2012 National Catch Share 
Program request.
    If NMFS receives the requested increase in National Catch Share 
Program funds, the total number of sea days observed in FY 2012 could 
potentially increase by approximately 10-12,000 to a total of 75,000-
77,000.

    Question 23. Will the 2 million dollar cut impact newly 
rationalized fisheries in the North Pacific, such as the West Coast 
Pacific Groundfish Fishery which provides 72,000 jobs on the West 
Coast?
    Answer. No. These cuts do not affect the observers in the West 
Coast Pacific Groundfish Fishery Catch Share program. Congress provided 
$3 million above the request for FY 2010 to supplement the Hawaiian 
Longline Observer Program in three fisheries.

    Question 24. The North Pacific Fishery Management Council and the 
National Marine Fisheries Service are restructuring the existing Alaska 
groundfish observer program in accordance with the objectives of the 
research plan outlined in the Magnuson-Stevens Act. This includes the 
establishment of a North Pacific Fishery Observer Fund based on 
industry fees that will be available to the Secretary for the purpose 
of carrying out the provisions of this section, subject to the 
restrictions and criteria in subsection 313(b)(2). Will NOAA's 
requested FY12 funding level cover the estimated $3.5 million start-up 
cost to get the program underway until industry fees have accumulated 
in sufficient amounts to pay for deployment of observers?
    Answer. The North Pacific Council (Council) and industry groups in 
the region have been at the forefront of fisheries management, 
including the use of catch share programs, for a long time. The current 
North Pacific Observer program supports the North Pacific and Bering 
Sea Groundfish, Trawl, and Fixed Gear Fishery. A restructured program 
will expand observer coverage, including smaller vessels in the 
groundfish fishery and the halibut/sablefish fishery. Under this 
restructured program the Council and NMFS are planning for the 
collection of fees to arrange contracts to support more observers and 
reduce conflict of interest. NOAA recognizes the value of startup funds 
as these fisheries transition to this restructured observer program and 
the importance of the restructured observer program to overall 
fisheries management in the region. NOAA is working closely with the 
Council to ensure that the funding provided supports the program until 
industry can pay for observer deployment.

    Question 25. Scientific based management is critical to setting 
catch limits that allow Washington fishermen to optimize the yields in 
the North Pacific groundfish fisheries. Do the continuing resolutions 
for FY 2011 and the President's budget for 2012 provide sufficient 
funding to maintain these stock assessments?
    Answer. The NMFS stock assessment activities conducted in the North 
Pacific has been able to provide adequate assessments for most 
important stocks on a timely basis. In Fiscal Year 2011, NMFS allocated 
an additional $1.3 million of Expand Annual Stock Assessment funds to 
assure full coverage of the North Pacific bottom trawl surveys which 
support most assessments in this region. With this information, NMFS is 
able to maintain adequate assessments for 29 out of 35 of the important 
North Pacific stocks and continues to work to obtain information needed 
to assess the other stocks. NMFS continues to work toward providing 
adequate assessments that are more fully linked to ecosystem 
considerations in order to address critical and emerging issues such as 
Steller sea lions and Arctic ice-dependent stocks. Nationwide, NMFS is 
only able to maintain 132 of 230 important stocks with adequate 
assessments as of the end of Fiscal Year 2010. The continuing 
resolution delayed implementation of some programs in FY 2011, but was 
resolved in time to resume critical activities this year. The 
President's budget for FY12 requests an additional $15 million for 
stock assessments and will allow NMFS to continue to close the gap in 
the North Pacific and elsewhere.

    Question 26. What proportion of the FY 2012 President's budget fund 
stock assessment surveys, versus stock assessment modeling? How has 
this proportion changed since FY 2009 and FY 2010 enacted budgets? Will 
the amount of stock assessment surveys be comparable with previous 
years, increase or decrease? Please answer in terms of the specific 
fish stocks, ship time, and allotted budget for each fish stock.
    Answer. NMFS does not routinely report budgets on this detailed 
basis because there is significant crossover between survey and 
modeling staff; most large-scale surveys simultaneously provide data 
for assessment of many stocks that live in the surveyed region; and 
stock assessment staff routinely work on teams that may do multiple 
assessments. For these reasons, NMFS believes it best not to attempt to 
report assessment costs per fish stock.
    The proportion of the Expand Annual Stock Assessment budget that is 
used for surveys versus stock assessment staff varies regionally. NMFS 
assembled information on this topic in 2010. The greatest percentage 
used for surveys is in the Alaska region at 72 percent, the least is in 
the Pacific Islands at 20 percent, and the national average is 52 
percent. Overall, the proportions have not changed much over time as 
NMFS has used the increases in the Expand Annual Stock Assessment 
budget to support and expand survey programs and to expand stock 
assessment modeling staff. Overall, the reasons for the large 
differences between regions are related to the availability of other 
funding, for example from Survey and Monitoring budget lines, and the 
availability of Days-At-Sea on NOAA vessels to conduct some of the 
surveys. NMFS relies on a combination of NOAA vessel Days-At-Sea and 
program-funded charter vessel Days-At-Sea to achieve its overall fish 
survey program, as described in the 1998 NOAA Fisheries Data 
Acquisition Plan.
    In FY 2010, NMFS added two assessment scientist positions to each 
Regional Fisheries Science Center, except for the Southeast where a 
greater number were allocated. In FY 2012, NMFS plans to use the funds 
to create 1-2 additional assessment positions in each Regional 
Fisheries Science Center and to initiate planning for additional 
surveys, some of which will involve advanced technologies such as 
autonomous underwater vehicles.

    Question 27. Will stock assessment surveys be directly or 
indirectly impacted by the McArthur II temporary reassignment? For 
example, if missions from the McArthur II are reassigned to other NOAA 
vessels which are currently completing stock assessment surveys, can 
you commit to keeping the level of stock assessment surveys stable?
    Answer. The NOAA Ship McArthur II provides at sea support for a 
variety of ecosystem process studies that contribute to better 
understanding of the California Current Large Marine Ecosystem and has 
also been used to conduct marine mammal studies. The McArthur II is not 
configured to conduct trawling operations for fisheries surveys, and 
the information collected onboard MCARTHUR II is not typically used in 
stock assessments.
    The NOAA Ships Bell M. Shimada and Oscar Dyson are operating in FY 
2011 to support high priority fishery independent data collections to 
support stock assessments on the West Coast and Alaska in addition to 
the use of chartered commercial fishing vessels.
    In FY 2011, NOAA chartered a commercial fishing vessel to provide 
scientists with 110 days at sea on the West Coast to support work that 
could not be accomplished on a NOAA Ship this year.

    Question 28. In 2006, Congress enacted the Tsunami Warning and 
Education Act. I was a cosponsor of Senator Inouye's bill and I credit 
it with helping us improve tsunami detection and preparedness. The bill 
authorized $28 million in FY 2011. Can you tell me how much NOAA is 
requesting for activities authorized by the Act and how you will spend 
this funding?
    Answer. NWS is requesting $23.5 million in FY 2012 for the 
Strengthen United States Tsunami Warning Network. The following is a 
breakout of how the funding will be spent:

  <bullet> Deep-ocean Assessment and Reporting of Tsunami (DART) buoy 
        Operations and Maintenance: $12.5 million

  <bullet> National Tsunami Hazard Mitigation Program (NTHMP) Partner 
        Funds (Education and Awareness programs): $4.0 million

  <bullet> Tsunami Warning Center Operations (24 x 7) support: $3.0 
        million

  <bullet> Observational Systems (seismic, sea-level monitoring): $1.3 
        million

  <bullet> TsunamiReady <SUP>TM</SUP> Program and International Tsunami 
        Information Center support (outreach, education, international 
        engagement): $0.75 million

  <bullet> Tsunami Research and Development: $2.0 million

    In addition, between FY 2009 and FY 2012, the NWS Tsunami program 
is augmented by $49.7 million from the NTIA analog spectrum auction 
proceeds as specified by the Deficit Reduction Act of 2005. These funds 
currently support many operational, mitigation and research tsunami 
activities. For FY 2012, they include:

  <bullet> NTHMP Partner Funds: $1.1 million

  <bullet> Tsunami Warning Center Operations and upgrades: $2.75 
        million

  <bullet> Observational Systems: $0.8 million

  <bullet> TsunamiReady <SUP>TM</SUP> Program and International Tsunami 
        Information Center support (outreach, education, international 
        engagement): $1.69 million

  <bullet> Tsunami Research and Development: $1.0 million

  <bullet> Inundation modeling: $3.0 million

    Question 29. What are the most difficult challenges that NOAA faces 
detecting, forecasting, and modeling tsunamis?
    Answer. The most difficult challenges are presented by tsunamigenic 
events that occur very near coastlines. The vast majority of tsunami-
related deaths and destructive inundation occur in these near source 
regions, where presently we have limited ability to provide accurate 
and timely forecasts. The first tsunami waves can reach an impacted 
coast in just minutes after an earthquake, or underwater landslide or 
volcanic eruption. When a near-shore tsunami is generated, as occurred 
with the recent Japan tsunami, having sufficiently dense arrays of near 
real-time seismic stations and sea level gauges close to shore in the 
high-risk tsunami-prone areas contributes to our ability to quickly get 
warning messages out when minutes count.
    In addition to adequately detecting and forecasting near-shore 
events, public education continues to challenge appropriate response to 
tsunami events. This is especially important for communities at risk of 
near shore tsunamigenic events where initial waves can reach the coast 
within minutes. Increasing the capacity for development of high 
resolution inundation models and mapping, which would improve forecast 
accuracy, is the first step in effective education and hazard planning 
for at risk communities. Currently, 75 high-priority communities are 
planned to have these high resolution models to facilitate specific 
inundation forecasts, but several hundred more are needed.

    Question 30. At the time of the most recent tsunami, which was 
generated by the 8.9 earthquake off Japan, at least 3 critical tsunami 
buoys off Washington State were inoperable. At any given time, what is 
the percentage of tsunami buoys are inoperable?
    Answer. The DART network was structured with the knowledge that a 
certain number of buoys would be inoperable at any given time, and that 
adjacent or nearby buoys would offer back-up capability. At the time of 
the Japan earthquake, one DART buoy off of the Washington coast was 
inoperable, although the critical buoys within the network closer to 
the earthquake source were functioning and provided invaluable data for 
subsequent forecasts and warnings.
    The entire DART network is maintained on a yearly basis. The number 
of DART buoys that are inoperable at any time varies through the year. 
The failure rate averages about 1 DART per month, due to electronics or 
mooring failures, and vandalism. Our ability to maintain or repair the 
DARTS on a supplemental basis is contingent in part on ship time and 
the time of year the maintenance or repairs are needed. NOAA monitors 
not only the number of buoys that are inoperable, but prioritizes 
emergency maintenance based on the DART location. For example, we want 
to avoid adjacent buoys out of service at the same time. At the end of 
2010, there were 6 of the 39 U.S. DART stations out of service, and 7 
out of service at the time of the Japan earthquake & tsunami.

    Question 31. NOAA scientists maintain that maintenance of tsunami 
buoys is critical to Tsunami modeling. How is reduced ship time 
impacting Tsunami buoy maintenance? Does the FY11 CR and the 
President's FY12 proposed funding level allow for improvements on buoys 
which are our primary tsunami warning system?
    Answer. Buoys are critical to effective tsunami modeling. The DART 
network of 39 buoys located in their current positions is the minimal 
number necessary to support the modeling requirement and ensuring 
redundancy for fail safe operations. Due to the fact that these systems 
are not 100 percent reliable, there will be some number out at any 
given time.
    Since the DART network was completed in FY 2008, the National Data 
Buoy Center has been steadily improving system performance by 
introducing engineering upgrades to the system as part of its normal 
maintenance practice. This has been successful in reducing operations 
and maintenance costs while improving system reliability and 
availability. Funding constraints under the FY 2011 Continuing 
Resolution affected the ability of NWS to procure ship time for DART 
buoy repairs. The FY 2012 President's Budget will provide funding to 
continue improved systems performance.

    Question 32. Ocean acidification and warming are threatening our 
living marine resources and the people that rely on them for their 
livelihood. The Puget Sound is disproportionately impacted by ocean 
acidification. Shellfish growers in the Sound are struggling to find 
support to help them adapt to climate change and ocean acidification 
impacts. How would NOAA's budget help communities, ecosystems, and 
industries respond to ocean acidification?
    Answer. NOAA leads the national effort to understand the impact of 
ocean acidification on the Earth's environment and to conserve and 
manage the impacted marine organisms and ecosystems in U.S. marine and 
Great Lakes waters. This research is conducted across the agency, but 
primarily within the Office of Oceanic and Atmospheric Research (OAR).
    NOAA currently conducts ocean acidification research in three main 
areas, coordinated through the Ocean Acidification Program Office, 
within OAR. These areas include: (1) field monitoring of ocean carbon 
chemistry and selected marine species, (2) species response 
experiments, and (3) ecosystem modeling. The research can help inform 
managers and stakeholders, which in turn will help communities, 
ecosystems, and industries respond to ocean acidification.
    One example of the value of ocean acidification research is evident 
in the Pacific Northwest oyster aquaculture industry. Beginning in 
2005, production at some Pacific Northwest oyster hatcheries began 
declining at an alarming rate, posing severe economic impacts and 
challenging a way of life held by shellfish growers for over 130 years. 
Oyster production represents 76 percent of the West Coast shellfish 
industry, which supports more than 3,000 jobs. A 2010 $500,000 federal 
stimulus investment in monitoring coastal seawater enabled hatchery 
managers to schedule production when water quality is good. This change 
is helping to restore commercial hatcheries and is expected to reap an 
estimated $35 million \2\ for coastal communities in Oregon and 
Washington.
---------------------------------------------------------------------------
    \2\ Sustainable Fisheries Partnership from data provided by the 
Pacific Coast Shellfish Growers Association, 2009.
---------------------------------------------------------------------------
    NOAA's FY 2012 budget request includes funds to continue and expand 
experiments on the effects of acidified water on vulnerable 
ecologically and commercially important species. Funds have also been 
requested for additional field surveys of vulnerable species like 
shellfish, and deployments of new moorings to monitor shifts in ocean 
chemistry. These results will directly inform industry and resource 
managers around the country. Funds will also be used to complete work 
on specialized lab facilities necessary for this type of work, 
establish carbon parameter analytical capabilities to ensure consistent 
sampling and measuring methods, and for the development of advanced 
ocean acidification technologies and sensors. Because many of the 
effects of ocean acidification on living marine resources will be 
through changes in food webs, funding is also proposed for the 
development of new ecosystem models to help understand the indirect 
effects of changing ocean chemistry. Finally, the FY 2012 budget 
request includes funds to establish a coral reef monitoring network to 
investigate the ecological and socioeconomic consequences of ocean 
acidification in these vulnerable ecosystems.
    The current NOAA budget has shown tremendous results at a regional 
level. Research activities described in the NOAA Ocean and Great Lakes 
Acidification Research Plan and included in NOAA's FY 2012 budget 
request will greatly enhance understanding of ocean acidification. 
Advances in ocean acidification research will inform national and 
international mitigation and adaptation decision-making to best 
conserve marine ecosystems and sustain the critical services that 
ocean, coastal, and Great Lakes ecosystems provide to the national 
economy.

    Question 33. How is NOAA engaging fishermen and other stakeholders 
in developing ocean acidification monitoring and research plan to make 
sure the research conducted is relevant to them? How do you plan to 
involve marine resource managers and users in research activities?
    Answer. NOAA is actively engaging fishermen and other stakeholders 
in developing ocean acidification monitoring and research plans and in 
implementing these plans. Scientists at NOAA's Pacific Marine 
Environmental Laboratory (PMEL) have been engaging fishermen and 
stakeholders on the best sampling locations for our surveys and 
potential locations for our moorings. An active partnership between 
PMEL chemists, shellfish industry professionals, and academic 
colleagues in the region has generated new insights into the magnitude 
and seasonal patterns of ocean acidification in Puget Sound and along 
the Washington and Oregon coasts. This research has shown that our 
coastal ecosystems are currently exposed to some of the most acidified 
waters observed in marine environments anywhere to date, due to the 
convergence of human and natural processes that can exacerbate the 
effects of ocean acidification in these habitats. PMEL scientists are 
in continuous discussions with stakeholders to ensure that products 
developed from our research are relevant to the needs of the shellfish 
industry and natural resource managers.
    Researchers at the National Marine Fisheries Service Northwest 
Fisheries Science Center in Seattle, WA are currently working with 
Taylor Shellfish Farms on ocean acidification experiments involving the 
growth of Pacific oysters, Olympia oysters, geoducks and other 
shellfish in high-CO<INF>2</INF> environments. The hatchery is 
providing the animals used for the studies and is helping guide the 
questions addressed by the research. In another example of interactions 
with stakeholders, researchers at the Northwest Fisheries Science 
Center are working on a joint research project with biologists from the 
Suquamish tribe in Washington State to understand the impact of ocean 
acidification on Dungeness crab, a major fishery for the tribe and 
others on the West Coast. Similar sorts of collaborative interactions 
are happening between stakeholders and NOAA researchers at all of the 
regional Fisheries Science centers, and they are focused on local 
species and the needs of local communities.
    NOAA scientists and managers have also been involved in numerous 
outreach activities around ocean acidification. These range from 
presentations to regional Fisheries Management Councils, to 
participating in shellfish industry national meetings and workshops on 
acidification, to displays at museums and primary school curriculum 
development. Last year, NOAA scientists helped found the California 
Current Acidification Network, a group representing Federal and state 
science agencies, NGO's, and the West Coast shellfish industry (http://
c-can.msi.ucsb.edu/). This effort grew out of concern for the future of 
shellfish on the West Coast. NOAA also helped fund the Ocean 
Acidification Impacts on Shellfish Workshop in July 2010 that brought 
together West Coast stakeholders, including scientists, shellfish 
growers, fishermen, and environmental managers, to stimulate 
collaborations among these sectors. The final report, which includes 
the findings and recommendations from the workshop, is available here: 
http://www.sccwrp.org/Meetings/Workshops/
OceanAcidificationWorkshop.aspx.

    Question 34. Would NOAA's proposed Climate Service provide a way 
for the Federal Government to help industries like Washington's 
shellfish farmers deal with the impacts of climate change and ocean 
acidification?
    Answer. NOAA's climate science and information helps federal, 
tribal, state, and local fisheries resource managers prepare for, and 
respond to, the impacts of climate on large marine ecosystems through 
improved understanding of how changes in climate can alter ocean 
circulation and composition, and how such changes in ocean properties 
impact living marine resources.
    The proposed Climate Service Line Office would function to better 
integrate and coordinate NOAA's existing core capabilities in 
observations and data stewardship, understanding and modeling, 
predictions and projections, and service development. This information 
would help industries such as Washington's shellfish farmers make 
informed decisions based on climatic trends, and the industry's 
specific requirements, on when, where, and what to be aware of, 
regarding the impacts of climate.
    Though ocean acidification research would not be part of the 
proposed Climate Service directly, NOAA's Ocean Acidification Program 
Office, within the Office of Oceanic and Atmospheric Research (OAR), 
will continue to conduct this type of research and develop ecological 
models and forecast tools to help industries respond to and adapt to 
the consequences of ocean acidification. NOAA envisions close 
coordination and collaboration between the Ocean Acidification Program 
and the proposed Climate Service as many products that would flow from 
the proposed new Line Office, such as long-term sea surface 
temperature, wind, and sea surface height, would be critical to 
forecasting coastal ocean acidification conditions.

    Question 35. If the Climate Service is cut, how do you will you 
continue to address ocean acidification and it's impacts on both 
wildlife and local economies?
    Answer. NOAA has recently established a formal Ocean Acidification 
Program Office within the Office of Oceanic and Atmospheric Research 
(OAR) as mandated by Congress in the FOARAM Act. At this time, most of 
NOAA's ocean acidification resources are focused on the research needed 
to develop forecasting tools for predicting the future chemistry of the 
ocean and its impacts on marine organisms. The program currently 
resides within OAR and is not proposed to be included in the Climate 
Service. NOAA ocean acidification research is currently underway or is 
planned within OAR, National Marine Fisheries Service, National Ocean 
Service, and National Environmental Satellite, Data and Information 
Service.
    NOAA's current major ocean acidification activities include:

  <bullet> establishment and maintenance of an ocean acidification 
        monitoring network;

  <bullet> hydrographic cruises on the U.S. east and west coasts and 
        the Gulf of Mexico;

  <bullet> studies on commercially and ecologically important marine 
        organisms to determine species-specific effects of ocean 
        acidification;

  <bullet> development of ecological models and forecast tools for 
        predicting, responding and adapting to the consequences of 
        ocean acidification;

  <bullet> synthesis of data and information on ocean acidification;

  <bullet> leading the Subcommittee on Ocean Science and Technology 
        (SOST) Interagency Working Group on Ocean Acidification; and,

  <bullet> participation in the international IMBER (Integrated Marine 
        Biogeochemistry and Ecosystem Research) and SOLAS (Surface 
        Ocean Lower Atmosphere Study) Ocean Acidification Working 
        Group.

    If the proposed Climate Service is not approved by Congress, NOAA 
will continue to study ocean acidification and its impacts on marine 
resources and local communities. Should NOAA's Climate Service proposal 
be approved, however, NOAA's climate capabilities would be better 
organized to more efficiently and effectively deliver climate science 
products, such long-term sea surface temperature, wind, and sea surface 
height data that would help to advance forecasting of coastal ocean 
acidification conditions and in turn assist stakeholders in responding 
and adapting to the consequences of ocean acidification.

    Question 36. How long can NOAA wait to launch JPSS before our 
weather modeling systems begin to suffer?
    Answer. Any gap in polar coverage will degrade our weather models. 
Due to the funding shortfall and instability for JPSS, the launch date 
for JPSS-1 has already slipped and we are now in jeopardy of not having 
JPSS-1 on-orbit when the NPOESS Preparatory Project (NPP) reaches end 
of life. A gap in NOAA polar satellite coverage in the afternoon orbit 
would result in a degradation of the forecast accuracy at 3 days and 
longer. For example, the higher confidence forecasts currently achieved 
at 7 days would be achievable only out to 5 days. This degradation 
would cause NWS to suffer a loss of decade's worth of continual 
improvements in forecast ability.

    Question 37. Will the geostationary satellite system (GOES-R) 
maintain weather prediction at or near current levels during the gap in 
JPSS coverage? If not, how will coverage now be different during the 
gap including GOES-R in your analysis?
    Answer. While some GOES data is assimilated into forecast models, 
the primary purpose of the GOES system is to provide cloud and moisture 
imagery for real time detection of weather events. These satellites are 
not currently designed to provide the detailed vertical profile of 
temperature and moisture data crucial to weather models. In the 
afternoon orbit, the primary role of the operational polar satellite 
sounders on NOAA spacecraft is to provide the detailed data for input 
into National Centers for Environmental Prediction (NCEP) weather 
models. NPP and JPSS sounders will provide these critical data in the 
afternoon orbit once they are operational. The EUMETSAT Metop 
satellites provide and will continue to provide these observations in 
the mid-morning orbit.
    As such, the GOES-R satellite will offer little to no mitigation to 
the loss of detailed vertical temperature and moisture data that the 
JPSS system is expected to provide.

    Question 38. Can you produce a figure showing where these gaps in 
coverage will occur offshore in the Gulf of Alaska and the greater 
North Pacific? How will the gaps in coverage impact fishermen and the 
marine shipping industry? Please answer in terms of safety and economic 
impacts.
    Answer. From a weather modeling perspective, the operational polar 
satellites provide critical vertical temperature and moisture data for 
NOAA's global forecast, especially for the data-sparse regions such as 
the Gulf of Alaska and the Northern Pacific. Models are run 4 times per 
day at 0000, 0600, 1200, and 1800 GMT (Greenwich Mean Time). Since the 
sounding data is perishable, only a limited time window around each of 
these model run times is usable. The upper panel of the figure below 
shows the usable data for the morning model run using only the mid-
morning Metop-A satellite sounder. The lower panel of the figure shows 
the increased data coverage available when the afternoon satellite data 
is added to the mid-morning Metop-A where the colored dots represent 
data acquired by the satellites while the blank (white) areas represent 
areas where no data is acquired.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Note this pattern is retained but shifted spatially during the 
other three model runs. Polar sounding data is especially critical in 
the Gulf of Alaska and the Northern Pacific where satellite soundings 
represent virtually the only type of vertical temperature and moisture 
data available.
    The Alaska fishing industry consistently leads all states in volume 
with fish landings; \3\ providing the fishery industry with accurate 
weather forecasts to support safety at sea remains a priority for NOAA.
---------------------------------------------------------------------------
    \3\ Fisheries of the United States--2009 [http://
www.st.nmfs.noaa.gov/st1/fus/fus09/index
.html].
---------------------------------------------------------------------------
    Since Alaska does not benefit from receiving data from 
geostationary satellites due to its latitude, polar-orbiting data 
becomes an increasingly important source of space-based data for 
weather forecasting in Alaska. In addition to the loss of sounding data 
to the models, the loss of polar-orbiting imagery data has critical 
operational impacts. For example, the loss of imagery would limit the 
ability of weather forecasters to monitor, detect, and track weather 
features that affect Alaska. This is especially true over the data-
sparse oceans that surround Alaska on three sides.
    Such a loss could degrade forecasting the timing and accuracy of 
high-impact maritime weather events and endanger lives and property. 
Polar-orbiting imagery from NOAA satellites is also used to detect and 
produce volcanic ash products for aviation interests. This imagery is a 
mission-critical tool for Alaskan forecasters to detect and track 
airborne volcanic ash, providing forecasts that have a direct impact on 
flight safety and help minimize unnecessary disruption to the aviation 
industry. This imagery is also used to support sea ice forecasts that 
are critical to indigenous natives traveling on sea ice on hunting and 
fishing trips necessary to sustain families and villages during winter 
months.
    Improvements in weather forecasting and warnings directly translate 
into benefits for maritime commerce, fishing, oil exploration and 
extraction, search and rescue, and hazardous spill mitigation. More 
than 95 percent of U.S. international trade by volume is transported by 
ship. The $200 billion global marine shipping industry is increasingly 
relying on accurate marine warnings and forecasts to keep ships on 
schedule and safe from dangerous ocean storms (Kite-Powell 2000). These 
maritime and fishing concerns are readily understood in Alaska.

    Question 39. At the NOAA budget hearing, you mentioned that rescue 
beacons would become ineffective if there is a gap in satellite 
coverage. What is NOAA doing to compensate for the impending safety 
risk to my constituents in the fishing, maritime shipping and 
recreational maritime industries? Are you working with the Coast Guard 
to implement new measures to locate, rescue and protect lives at sea? 
If so, what do you plan to do to maintain or increase safety at sea?
    Answer. NOAA is working to preserve the capabilities of the Search 
and Rescue Satellite system (SARSAT) in the Joint Polar Satellite 
System (JPSS) program. Since the JPSS-1 spacecraft bus will not be able 
to accommodate the SARSAT payload, NOAA is exploring several options to 
ensure that satellite-enabled SARSAT coverage is maintained. NOAA will 
utilize the current in-orbit satellites for as long as they continue to 
operate. NOAA is also working with European and Canadian partners to 
possibly manifest a SARSAT instrument on the Metop-C satellite which is 
currently scheduled for launch in 2016. Other possibilities being 
evaluated include a SARSAT-only dedicated satellite or placing an 
instrument on a commercial satellite. NOAA is working with the Russian 
Federation to reaffirm their commitment to their portion of the COSPAS-
SARSAT system since the complete SARSAT system requires both Russian 
and U.S. satellite support.

    Question 40 NOAA's Pacific Northwest B-WET was highlighted by the 
President in his State of the Union address. BWET received continuous 
earmark funding to provide environmental activities to support STEM 
education and watershed education programs in Oregon and Washington. 
The vast majority of B-WET funding was redistributed locally through 
jobs, supplies, student activities, and has direct economic impacts in 
the communities it serves. If this program is not absorbed by NOAA's 
education mission, an estimated 6,000 students and 400 teachers and 
community leaders will not be reached in Washington and Oregon. In the 
FY 2012 Presidential budget request, BWET received no funding. Does 
NOAA plan to fund BWET in FY 2012? If so, which program office will 
fund the program, and how much funding will the program receive?
    Answer. NOAA's education programs and networks focus on areas where 
investments in science and management can best be leveraged in order to 
have the broadest impact with the resources available. While NOAA is 
not specifically requesting funds for B-WET, the FY 2012 President's 
Budget request provides $5.0 million for the broader Competitive 
Education Grants Program, for which qualified education programs are 
eligible to apply.

    Question 41. The Environmental Protection Agency (EPA) is 
conducting a scientific assessment of the Bristol Bay watershed to 
evaluate how large-scale development projects may affect water quality 
and Bristol Bay's salmon fishery. NOAA scientists conduct stock 
assessments and other scientific research on multiple commercially 
valuable stocks in this region such as king crab, Pollock, and cod 
among others. Is NOAA working with the EPA to assess the potential 
impact that a large-scale hard rock mine could have on Bristol Bay and 
the Eastern Bering Sea?
    Answer. Yes. The U.S. Environmental Protection Agency (EPA) has 
requested that NMFS provide assistance with EPA's Bristol Bay watershed 
assessment. NMFS's primary contributions will be to address the range 
and distribution of Bristol Bay salmon; the hydro-geomorphic processes 
that support spawning and rearing habitat for salmon; the contribution 
of salmon to the diets of fish and marine mammals in Bristol Bay and 
the eastern Bering Sea; and the ecological links between the watershed, 
estuary, nearshore, and offshore ecosystems. NMFS will draft the marine 
section of the watershed assessment and contribute to the freshwater 
section.

    Question 42. Is NOAA sharing data with the EPA for the purpose of 
the Bristol Bay assessment? If so, which data sets has NOAA contributed 
to this project?
    Answer. NOAA has not yet contributed any data sets to this 
assessment. We have begun examining pertinent data to see what we may 
be able to provide, such as data regarding the contributions of Bristol 
Bay salmon to the diets of commercially valuable marine species in the 
eastern Bering Sea and to marine mammals.

    Question 43. Are there additional NOAA datasets or stocks that you 
would like EPA to consider when developing their experimental design 
and environmental impact analysis? If so, which data, species or areas 
would NOAA like considered?
    Answer. Until NOAA sees the annotated outline for EPA's proposed 
assessment, we are unable to identify any gaps. EPA has requested that 
our review of the annotated outline highlight any additional material 
EPA should consider, so we intend to provide that feedback to EPA.

    Question 44. Will NOAA scientists contributed flow, current and 
wind models to the EPA assessment? Specifically, have NOAA scientists 
contributed to models that would estimate how leaked pollutants used in 
mining could flow into productive fishing grounds in Bristol Bay and 
throughout the Bering Sea? Why or why not? If there has been 
collaboration between NOAA and EPA, is there cost sharing for this 
analysis/modeling?
    Answer. At this point NOAA anticipates providing data on the 
contribution of salmon to the diets of marine fish in the eastern 
Bering Sea; input regarding potential effects of large-scale hard rock 
mining on hydrology and water quality that would be of concern for 
salmon production; information regarding the effects of copper and 
other contaminants (e.g., ore processing chemicals) on salmon; data on 
marine mammal use of Bristol Bay (belugas, fur seals, etc.) and 
reliance on salmon; trends in abundance of Bristol Bay marine mammal 
species that feed on salmon; and possibly some socioeconomic 
information about the role of salmon in supporting the subsistence 
culture and lifestyle in Native Alaskan communities from regulatory 
impact reviews conducted in western Alaska. NOAA has not yet discussed 
with EPA whether flow, current, or wind models would be useful for the 
analysis. NOAA also has not discussed cost sharing with EPA.

    Question 45. NOAA oversees management and conservation species 
under ESA and/or MMPA protection in Bristol Bay and other regional 
ecosystems. These species include, but are not limited to, the 
Steller's eider, spectacled eider, shearwaters, multiple highly 
migratory albatross species, beluga whales, harbor seals, ice seals, 
transient orcas, Steller sea lions, and northern fur seals. Are NOAA 
biologists sharing data collected on these species with EPA for the 
Bristol Bay large scale mine environmental impact assessment? If so, 
which data and which species' data sets are shared?
    Answer. NOAA does not have jurisdiction over seabirds protected via 
the Endangered Species Act. Those species are under the jurisdiction of 
the U.S. Fish and Wildlife Service. NMFS will provide data to EPA 
regarding marine mammal usage of Bristol Bay, including available data 
regarding food web connections.

    Question 46. How much funding goes into NOAA protected Species 
research off Alaskan waters? How has this funding changed over the last 
five fiscal years? How does these recent funding levels compare to the 
FY 2012 request?
    Answer. Set forth below is information on what is spent on marine 
mammal research in Alaska waters, which represents the majority of the 
expenditures by NOAA on protected species research in Alaskan waters.

        2007: $3.33 million

        2008: $9.50 million

        2009: $9.26 million

        2010: $15.40 million (includes $5 million in reimbursable 
        support from the U.S. Department of the Interior's Bureau of 
        Ocean Energy Management, Regulation & Enforcement)

        2011: $15.63 million (includes $5 million in reimbursable 
        support from U.S. Department of the Interior's Bureau of Ocean 
        Energy Management, Regulation & Enforcement)

        2012 request: $11.88 million

    There are 45 stocks of marine mammals under NMFS stewardship in the 
Exclusive Economic Zone waters off Alaska, distributed throughout 3.8 
million km2 (1.5 million miles2) of ocean, and along 44,500 miles of 
coastline. NMFS Alaska Fisheries Science Center conducts surveys and 
other studies critical for support of stock assessments for 37 of these 
45 stocks, including all 19 stocks of seals, fur seals, and sea lions, 
and 18 of the 26 stocks of whales, dolphins, and porpoises.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Dr. Jane Lubchenco
    Question 1. JPSS funding in 2011 unfortunately didn't make it into 
the CR. What is NOAA's ``Plan B'' to cover the data gap? Will NOAA be 
buying data from foreign nations? If so, which ones?
    Answer. NOAA has traditionally flown its polar-orbiting satellite 
in the afternoon orbit, and provided that data to the Department of 
Defense (DOD) and to the Europeans, who maintain other compatible 
satellites in complementary orbits. There are no currently deployed 
alternatives which will cover the data gap in the afternoon orbit that 
will occur due to the delayed launch of the first Joint Polar Satellite 
System (JPSS) satellite. Should any nation field an appropriate 
satellite in the afternoon orbit, NOAA would assess the quality and 
cost of using its data and leverage as much useful data as possible.
    There are potential commercial solutions being proposed, in the 
form of data buys or hosted payloads. These solutions propose to 
mitigate the JPSS gap in part and preserve some critical data feeds 
necessary for continuity of weather forecasting and climate records. 
NOAA is evaluating these options for technical merit, risk, and cost.

    Question 2. If we do buy data, will those satellites also pick up 
signals from emergency beacons?
    Answer. Currently, NOAA POES and EUMETSAT Metop-A are the only 
polar-orbiting satellites that carry the SARSAT instruments. There is 
no foreign entity flying SARSAT capabilities in the polar orbit from 
which to purchase this data.

    Question 3. What activities will NOAA be able to keep going with 
the limited JPSS funding that was provided?
    Answer. With the limited funding, and due to the fact that NOAA 
plans to use the NPP data operationally, NOAA has focused its efforts 
on preparing for the NPP launch, specifically, fielding and testing of 
the ground segment. Due to the current budget constraints, NOAA has 
significantly reduced efforts on JPSS-1 spacecraft and instrument 
development, which has resulted in a slip in the launch of JPSS-1 
beyond launch dates originally planned in the February 1, 2010 
announcement by the Administration to stand up the JPSS program.

    Question 4. Will the additional funds NOAA requested in 2012 be 
sufficient to get the JPSS program back on track, given the increased 
costs related to canceling contracts in 2011?
    Answer. The program has been impacted by the FY 2011 
appropriations, and as a result the original launch readiness date for 
JPSS-1 has already slipped and cannot be recovered. Receiving the 
funding requested in President's budget for FY 2012 will prevent 
further delays in the launch of JPSS-1. More delays will further 
jeopardize the availability of satellite data that informs NOAA's 
weather forecasts. The JPSS program has managed to minimally fund 
existing contracts in order to allow for rapid resumption of work 
toward JPSS-1.

    Question 5. In other words, if the 2012 request is the same as the 
2011 request, and we anticipate greater costs due to a lack of 2011 
funding, will the 2012 request cover all the capabilities the 2011 
request would have or will some capabilities have to be removed?
    Answer. The JPSS Program required $1.060 billion in FY 2011 to 
implement the program envisioned by the Administration's February 2010 
decision to restructure the NPOESS program. The FY 2011 Continuing 
Resolution (PL 112-10) did not approve the needed increase over FY 2010 
enacted levels for the JPSS program. This resulted in a necessity to 
delay the launch of the first JPSS satellite to the first quarter of FY 
2017.
    The President's FY 2012 Budget request of $1.070 billion for JPSS 
and an additional $30.4 million for the NOAA Climate Sensor program 
attempts to retain the scope of the program (i.e., retain the same 
suite of instruments). However, this alone will not allow recovery of 
the launch date slippage.
    If the JPSS Program is funded at $1.070 billion in FY 2012, NOAA 
will retain the current suite of instruments as announced in the 
February 2010 decision, but the JPSS program would still be expected to 
launch in the first quarter of FY 2017.

    Question 6. Please provide more details on how the $15M for stock 
assessment improvements will be used, if made available. Will the funds 
go to cooperative research efforts, more days for NOAA research ships, 
more funding for NMFS personnel? How will NOAA decide which fisheries 
need improved assessments? Have any already been identified?
    Answer. In the FY 2012 President's Request, NMFS is requesting 
$67.1 million to expand annual stock assessments, an increase of $15 
million. These funds will be used to support stock assessment 
scientists, charter vessels to conduct fishery-independent surveys not 
supported by the NOAA fleet, and conduct biological studies, all to 
improve assessments for high priority stocks, especially stocks that 
currently have an overfishing status; increase the frequency of 
assessments being conducted in support of fishery management using 
Annual Catch Limits; and expand our assessment capabilities to include 
data poor stocks, 3-5 years from now. None of the $15 million will be 
dedicated to cooperative research efforts as these are funded out of 
separate budget lines. However, NMFS proposes to improve fishery-
independent surveys using advanced sampling technologies, including 
near real-time processing of survey data as it is collected at sea and 
more rapid delivery of these data to shore-based analysts.
    NMFS tracks closely the quality and timeliness of assessments being 
conducted today across the country. This information is made publicly 
available through our Species Information System public portal (https:/
/www.st.nmfs.noaa.gov/sisPortal/sisPortalMain.jsp), and from our 
Regional Science Centers in more detail. Within each region, NMFS works 
closely with the respective Regional Fishery Management Councils to 
determine which stocks need updated assessments and which currently un-
assessed stocks need to be targets for new monitoring and assessment. 
NMFS is currently working to align and standardize these prioritization 
efforts to help assure that the highest national priorities are being 
addressed.

    Question 7. What progress has been made toward implementing the 
recommendations of the Inspector General's report on Fishery Law 
Enforcement and specifically the concerns over potentially excessive 
fishery penalties?
    Answer. NOAA has taken a number of actions in response to the 
series of Office of Inspector General (IG) reports beginning in 
February 2010. A summary of these actions is below. With respect to the 
IG's concerns regarding potentially excessive penalties, after the IG 
issued the first report, NOAA immediately began requiring the NOAA 
General Counsel or Deputy General Counsel to approve all charging and 
settlement decisions. To date, the NOAA General Counsel and Deputy 
General Counsel have reviewed almost 400 proposed charging and 
settlement decisions. Additionally, NOAA developed and recently 
implemented a new nationwide penalty policy that ensures penalties are 
consistently assessed throughout the country.
NOAA Enforcement Program Improvements
June 2009
  <bullet> June 2--Hearing concerns about NOAA's law enforcement 
        program from members of the fishing community and Congress, 
        Under Secretary of Commerce for Oceans and Atmosphere, Dr. Jane 
        Lubchenco requested the Inspector General review of NOAA 
        enforcement activities.
January 2010
  <bullet> January 21--DOC's Inspector General issued a report entitled 
        ``Review of NOAA Fisheries Enforcement Program and Operations.
February 2010
  <bullet> February 3--NOAA announces steps to improve fisheries law 
        enforcement in response to Inspector General Report, Review of 
        NOAA Fisheries Enforcement Programs and Operations.

    <bullet> Under Secretary Lubchenco asked NOAA's General Counsel to 
            lead a high level review of existing policies and 
            procedures, and recommend ways to increase coordination and 
            consistency, transparency, accountability, and fairness 
            nationwide in agency law enforcement efforts.

    <bullet> Under Secretary Lubchenco issued directive freezing 
            immediately the hiring of criminal investigators pending an 
            internal workforce analysis.

    <bullet> Under Secretary Lubchenco issued a directive immediately 
            transferring oversight of the Asset Forfeiture Fund from 
            NMFS to NOAA's Comptroller.

    <bullet> Under Secretary Lubchenco issued a directive immediately 
            instituting higher level review of all proposed charging 
            decisions and settlements.

    <bullet> Under Secretary Lubchenco announced that NOAA will convene 
            a national summit on enforcement policies and practices in 
            order to hear from constituents and experts in the field.

    <bullet> The IG's report noted that NOAA's General Counsel for 
            Enforcement and Litigation made improvements to policies 
            and procedures to increase coordination and consistency in 
            law enforcement efforts, calling them a ``good start to 
            building transparency.'' These steps included:

                      <bullet> Revising procedural regulations and the 
                penalty schedule;

                      <bullet> Developing an internal operations and 
                procedural manual;

                      <bullet> Establishing a new case tracking 
                database that links enforcement and legal case 
                management systems;

                      <bullet> Increasing communications with the 
                Fishery Management Councils, especially in the 
                Northeast U.S.;

      <bullet> Providing explanatory notes to case files;

                      <bullet> Tracking priorities; and,

                      <bullet> Providing public access to information 
                on charges brought and cases concluded.

  <bullet> February 5--NOAA issued requirement that the NOAA 
        Comptroller approve expenditures of $1,000 or more from the 
        Asset Forfeiture Fund.
March 2010
  <bullet> March 18--NOAA submitted detailed plan of action in response 
        to IG's January 2010 report.
April 2010
  <bullet> April 8--NMFS appointed Alan Risenhoover as new Acting 
        Director for the NOAA Office of Law Enforcement.

  <bullet> April 8--NOAA issued an agency -wide notice on records 
        retention and began targeted training with NMFS on records 
        retention.
May 2010
  <bullet> May 3--NOAA Office of General Counsel appointed Charles 
        Green as new Acting Assistant General Counsel for Enforcement 
        and Litigation.
June 2010
  <bullet> June 23--NOAA Office of General Counsel issued final rule 
        requiring NOAA to justify proposed penalties/sanctions in 
        hearings before administrative law judges.
July 2010
  <bullet> July 1--Inspector General issued Review of National Marine 
        Fisheries Service (NMFS) Asset Forfeiture Fund.

  <bullet> July 7--First combined Office of Law Enforcement/General 
        Counsel Office for Enforcement and Litigation monthly 
        enforcement report covers actions taken in June. Report used to 
        facilitate oversight of NOAA's enforcement program, assessment 
        of the program's efficacy, and informed decision-making with 
        respect to regional and national enforcement priorities.

  <bullet> July 29--NOAA issued detailed corrective action plan in 
        response to Inspector General's report regarding the Asset 
        Forfeiture Fund.
August 2010
  <bullet> August 1--Posted biannual report on enforcement charging 
        decisions and settlements covering period March to July 2010.

  <bullet> August 3--Held National Enforcement Summit in Washington, 
        D.C. to seek ideas from a range of stakeholders on improving 
        NOAA's enforcement program.

  <bullet> August 3--Published for comment proposed protocol for 
        establishing national and regional enforcement priorities.

  <bullet> Completed a review and confirmation of the $8.7 million 
        Asset Forfeiture Fund balance as of March 31, 2010 by 
        independent certified public accounting firm.

  <bullet> Reduced the number of NOAA Enforcement and General Counsel 
        staff with government purchase card authority by 32 percent.
September 2010
  <bullet> September 13--NMFS appointed Tim Donovan as new Acting 
        Special Agent in Charge for Northeast enforcement office.

  <bullet> September 16--NOAA Office of General Counsel appointed 
        Benjamin Friedman as the new, permanent NOAA Assistant General 
        Counsel for Enforcement & Litigation.

  <bullet> September 23--In response to the release of the Inspector 
        General's Final Report--Review of NOAA Fisheries Enforcement 
        Programs and Operations, Secretary Locke and Under Secretary 
        Lubchenco took a series of actions to strengthen the public's 
        trust in NOAA's law enforcement program.

    <bullet> Appointed Special Master to Review NOAA Law Enforcement 
            Cases;

    <bullet> Implemented new policy limiting use of the Asset 
            Forfeiture Fund, and sought public comment on the new 
            policy;

    <bullet> Issued final protocol for establishing national and 
            regional enforcement priorities, and sought public comment;

    <bullet> Posted on the NOAA web page enforcement charging decisions 
            and settlements from March to July 2010;

    <bullet> Established e-hotline for enforcement related complaints.
October 2010
  <bullet> October 18--Published proposed nationwide penalty policy for 
        comment.

  <bullet> October 19--Posted nationwide job announcement for new 
        Director, NOAA Office of Law Enforcement.
November 2010
  <bullet> November 29--Announced a compliance assistance pilot program 
        in the Northeast, which included a new compliance liaison 
        position, a new outreach specialist, and eight new enforcement 
        officers.
December 2010
  <bullet> December 31--Issued Practice Manual for NOAA General Counsel 
        Office for Enforcement and Litigation, to include guidance on 
        case evaluation, administrative hearings, and case management.
January 2011
  <bullet> January 4--Issued new vehicle policy for NOAA Office of Law 
        Enforcement that reduces the number of vehicles within the 
        Office of Law Enforcement by 30 and ensures the number of 
        vehicles is appropriate for needed enforcement activities.
February 2011
  <bullet> February 1--Posted biannual report on enforcement charging 
        decisions and settlements covering period August to December 
        2010.

  <bullet> Included the Asset Forfeiture Fund in NOAA's annual budget 
        submission as well as NMFS and General Counsel Office for 
        Enforcement and Litigation annual operating plans.

  <bullet> Initiated an audit of the Asset Forfeiture Fund for the 
        period ending March 31, 2011 by an independent audit firm which 
        is scheduled for completion in June 2011. The independent audit 
        firm will also review a retrospective sample of transactions 
        from Fiscal Years 2005 to 2010.
March 2011
  <bullet> March 16--Secretary Locke announced additional reforms to 
        the NOAA's Law Enforcement Program:

  <bullet> Fishermen and businesses can request Special Master review 
        of enforcement cases through May 6, 2011;

  <bullet> Issued final policy limiting use of Asset Forfeiture Fund;

  <bullet> Issued final nationwide Penalty Policy; and,

  <bullet> Committed to working with Regional Fishery Management 
        Councils, fishermen and stakeholders to streamline and simplify 
        fishing regulations.
April 2011
  <bullet> April 4--Brought online new enforcement database for NOAA 
        Office of the General Counsel.

  <bullet> April 4--Reposted nationwide job announcement for new 
        Director, NOAA Office of Law Enforcement.

  <bullet> April 14--Named compliance assistance liaison to continue 
        outreach to industry in Northeast.

  <bullet> April 26--Released phase one of an independent assessment of 
        the fishery management system in New England, requested by the 
        New England Fishery Management Council and NOAA Assistant 
        Administrator for Fisheries Eric Schwaab.
May 2011
  <bullet> May 17--Secretary Locke announces NOAA will remit funds to 
        11 Claimants in response to the Special Master's 
        recommendations.
June 2011
  <bullet> June 16--NOAA releases report from the accounting firm 
        Clifton Gunderson, LLP, which conducted an independent audit of 
        NOAA's Asset Forfeiture Fund and the Fund's audited financial 
        statements. NOAA received an unqualified (clean) opinion, or 
        the best type of audit opinion one can receive.
July 2011
  <bullet> July 25--NOAA announces appointment of Bruce Buckson as the 
        new, permanent Director for the NOAA Office of Law Enforcement.
Ongoing
  <bullet> Working with the U.S. Coast Guard and Office of Personnel 
        Management to transition from the current use of Coast Guard 
        administrative law judges to another system based on concerns 
        raised in the Special Master's Report.

  <bullet> Developing updates and revisions to the NOAA Office of Law 
        Enforcement (OLE) Operations Manual.

  <bullet> Completing process for identifying draft enforcement 
        priorities.

  <bullet> Upgrading the enforcement database for NOAA OLE.

  <bullet> Requiring all enforcement personnel and enforcement 
        attorneys to attend annual professional and ethics training to 
        ensure they follow fair, effective and professional procedures.

  <bullet> Expanding the compliance liaison program nationwide to 
        assist fishermen at the waterfront to better understand and 
        have stronger incentives to comply with regulations.

  <bullet> Finalizing a workforce review to more appropriately balance 
        the number of enforcement officers and special agents.

  <bullet> Working with all the Regional Fishery Management Councils 
        (Councils) to simplify fishery management regulations, 
        including: instruction on regulatory reform/review as part of 
        its annual, new Council Member Training and as part of training 
        modules for agency staff;

  <bullet> Continue working with the Councils' enforcement and 
        compliance committees to look at the issues of regulatory 
        complexity and burdens.

  <bullet> Conducting routine training for the fishing industry and 
        other stakeholders as needed on regulatory compliance in each 
        region at least once per year, to be conducted by staff from 
        the NMFS' Office of Sustainable Fisheries in conjunction with 
        the OLE, the General Counsel Office of Enforcement and 
        Litigation, the Councils, and others as appropriate.

  <bullet> Working with the Councils and the NOAA Office of the Chief 
        Information Officer to explore how to improve web-based 
        delivery of information on fishery management regulations.

    Question 8. The Pacific Salmon Treaty line items was recommended by 
the U.S. section of the Pacific Salmon commission to be funded at 
$9.8M, yet NOAA only asked for $5.7M. This is the level they have been 
funded at since 1992. Is this amount sufficient for the U.S. to meet 
its international treaty obligations?
    Answer. The FY 2012 President's Request includes $5.7 million for 
the base programs necessary to continue implementation of the Pacific 
Salmon Treaty and $3.0 million to implement specific provisions of the 
2008 Chinook agreement of which $1.5 million is for the Puget Sound 
Critical Stocks program and $1.5 million is for improvements to the 
Coded Wire Tagging Program. Funding for base programs supports research 
projects conducted by NMFS and the States of Alaska, Washington, Oregon 
and Idaho including personnel support to the Pacific Salmon 
Commission's panels and technical committees to conduct a broad range 
of salmon stock assessment and fishery monitoring programs to implement 
provisions of the Pacific Salmon Treaty.
    The $8.7 million requested will satisfy the mandates agreed to with 
Canada.

    Question 9. NOAA's regulatory actions have significant economic 
impacts. The Steller Sea lion biop closed a $30 million fishery in the 
western Aleutians. The assessment of potential impacts of critical 
habitat declared for Cook Inlet Belugas was criticized in my state as 
widely underestimating the potential economic impact. How does NOAA 
assess the economic impacts of its actions and is this something we 
need to strengthen? If so, what steps should be taken?
    Answer. Cook Inlet Beluga Whale Critical Habitat Designation--NMFS 
conducted an economic and socioeconomic assessment of the expected 
impacts (positive and negative) uniquely attributable to designation of 
critical habitat for Cook Inlet beluga whales. NMFS designed an 
analytical methodology that first established the baseline condition, 
against which the directly attributable incremental costs and benefits 
of critical habitat designation would be compared. The baseline 
characterized the status quo condition (e.g., Cook Inlet beluga whales 
``listed,'' but without ``critical habitat designated''). This approach 
facilitated identification of impacts that derive uniquely from the 
change made in the status quo baseline state, following critical 
habitat designation.
    Using the best available scientific data and commercial 
information, the analysis monetized those impacts for which meaningful 
(useful) estimates could be made, quantifying those that could not be 
monetized, and including qualitative evaluations of all other relevant 
costs and benefits, as required by Executive Order 12866 and OMB 
Circular A-4. The assessment of critical habitat excludes economic 
impacts uniquely associated with the listing of the Cook Inlet beluga 
whale population because Congress indicated in the Endangered Species 
Act (ESA) that economic impacts should not be considered during listing 
determinations. Those costs are, appropriately, part of the baseline 
condition, because the Cook Inlet beluga is now a ``listed'' species 
under ESA. This is significant because the species ``listing,'' itself, 
mandates a series of consultation, monitoring, accommodation, and 
compliance costs that accrue whether or not critical habitat is 
designated for the species. Indeed, this is why the NMFS economic 
impact analysis was designed to evaluate the incremental costs and 
incremental benefits uniquely attributable to the designation, to the 
fullest extent practicable.
    The analysis, nonetheless, identified some economic effects (both 
costs and benefits) that are necessarily co-extensive; that is, not 
readily amenable to unique attribution. The critical habitat 
designation mainly affects activities that involve Federal action 
(e.g., a Federal permit, license, or funding) that may destroy or 
adversely modify critical habitat. Such activities would not 
necessarily be precluded from going forward, but may require some 
analysis to determine if and how those activities may proceed in a 
manner that would not adversely modify or destroy critical habitat. It 
will often be the case that a proposed activity in critical habitat, 
involving Federal action, will simultaneously initiate a consultation, 
based on the ESA jeopardy standard. In these instances, the majority of 
associated costs would be incurred by the parties to the action, even 
in the absence of designated critical habitat (i.e., under the pre-
designation status quo). As noted, only incremental additional costs, 
above those that accompany the jeopardy consultation, are appropriately 
attributed to the critical habitat designation in such instances. The 
analysis was careful to identify such impacts associated with ESA 
section 7 consultation obligations to the extent practicable.
    Procedurally, the designation of critical habitat will focus future 
ESA section 7 consultations with Federal agencies on key habitat 
attributes, and avoid unnecessary attention to other, non-essential 
habitat features. Critical habitat designation may also trigger 
complementary protections (i.e., benefits) under state or local 
regulations.
    Critical habitat is designated in specific areas of Cook Inlet in 
which the physical and biological features essential for the 
conservation of the Cook Inlet beluga whale are found. NMFS described 
the potential impacts of the designation in the proposed rule and does 
not expect that critical habitat designation will hamper development or 
cause any significant economic harm.
    In summary, the attributable incremental effect from critical 
habitat designation does not appear to have the potential to impose 
significant net adverse effects on the Anchorage area economy.
    Steller Sea Lion Biological Opinion and Associated Management 
Measures--NMFS prepared an economic analysis (Regulatory Impact Review) 
of the impacts of the protection measures identified in the Steller Sea 
Lion Biological Opinion and further refined by the agency. NMFS 
estimated that the action could lead to wholesale revenue losses on the 
order of $44 million to $61 million per year in directly affected 
fisheries. Actual revenue losses might be smaller if fleets are able to 
redeploy to some extent into other fisheries. Job losses in Alaska 
(including jobs held by residents of other states) were estimated to 
range between 250 and 750 persons, depending on the ability of the 
affected fleets to redeploy. Impacts, among them the loss of fishing 
opportunities, of processing and fleet support business, and of tax or 
Community Development Quota revenues, would be felt in Alaska and the 
Pacific Northwest. The remote community of Adak faces the greatest 
proportional impact from this action.
    NMFS Efforts to Improve Economic Analyses--NMFS has efforts 
underway both in Alaska and nationally to improve its economic analyses 
of spatial management measures.
    In Alaska, predictive models of fishing behavior that estimate the 
net costs on fisheries of regulatory actions such as closed areas have 
been developed in the Bering Sea pollock catcher vessel fishery to 
examine the emergency closure of the Steller Sea Lion Conservation Area 
in 2000. Qualitative results of this model were utilized in the 
economic analysis of the recent Steller sea lion protective measures. 
This model is being updated and will be available to evaluate 
regulatory actions by 2012. Modeling of the catcher processor and 
mothership sectors of the Bering Sea fishery is also underway.
    Similar models have been developed using historical data to examine 
vessel behavior in the Bering Sea flatfish fishery. Current research is 
focused on evaluating how the implementation of the Amendment 80 catch 
share program for this fishery has altered fishing behavior and reduced 
halibut bycatch, which has enabled increased fish production and 
revenue from a number of the species targeted by the fishery. Depending 
on the behavior of the vessels displaced by the most recent Steller sea 
lion protective measures, this modeling effort may also provide insight 
into the net impacts of that action on the fishery. Other research is 
underway to develop spatial economic models for the Alaska sablefish 
fishery and the Gulf of Alaska Pacific cod fishery.
    Building upon the spatial modeling efforts of Alaska, NMFS has just 
launched a national initiative to improve analysts' abilities to 
estimate the impacts of different regulations on fisheries through the 
development of a spatial economics toolbox for fisheries (FishSET). The 
primary goal of this project is to provide analysts with the data and 
modeling tools necessary to perform better economic analyses of the 
costs of spatial management actions on fisheries. This initiative is 
administered by the Pacific States Marine Fisheries Commission and is 
overseen by NMFS staff in the Alaska Fisheries Science Center. After 
the toolbox is completed, its first application will be to Alaska 
fisheries and the first version of the toolbox will be completed in 
2012.

    Question 10. Section 304(e)(4)(A)(ii) of the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA) provides flexibility to 
extend the rebuilding timeframe beyond 10 years where the biology of 
the stock of fish, other environmental conditions, or management 
measures under an international agreement in which the United States 
participates dictate otherwise. How many fish stocks are currently 
under rebuilding plans? How many of those are under rebuilding plans 
that are longer than 10 years? How many are under rebuilding plans that 
are 10 years or less?
    Answer. The Magnuson-Stevens Act and the National Standard 1 
Guidelines provide a great deal of flexibility in rebuilding timeframes 
to consider the biological needs of the species, as well as the social 
and economic needs of fishing communities. There are currently 45 fish 
stocks in rebuilding plans with target end dates; there are currently 
an additional 8 rebuilding plans that have no target end date due to 
data limitations. Of those 53, 25 are currently under rebuilding plans 
that are longer than 10 years; 20 are currently under rebuilding plans 
that are 10 years or less. Eight rebuilding plans do not have target 
end dates because the stocks are data-poor and NMFS is unable to 
predict when they will be rebuilt.

    Question 11. How many have had their 10-year clock restarted, and 
for how long are the extensions, on average?
    Answer. South Atlantic Black Sea Bass and Mid Atlantic Summer 
Flounder are the only two formal rebuilding plans under Section 
304(e)(4)(A) of the Magnuson-Stevens Act that were originally 10 years 
or fewer and were extended. For South Atlantic Sea Bass, the rebuilding 
plan was re-started in 2006 to comply with Section 304(e)(4)(A) as the 
original rebuilding plan timeline was created prior to the Sustainable 
Fisheries Act Section 304(e)(4)(A) authorization. The Mid Atlantic 
Summer Flounder rebuilding plan was extended from a 10-year plan to a 
13-year plan as part of the reauthorization of the Magnuson-Stevens Act 
in 2006, based on the status and biology of the stock and the rate of 
rebuilding.

    Question 12. How many stocks have already been rebuilt pursuant to 
the 10 year rebuilding requirement? How many are almost rebuilt?
    Answer. Eighteen stocks have already been rebuilt under rebuilding 
plans that were 10 years or fewer. Twenty stocks are under rebuilding 
plans that are no more than 10 years, 25 stocks are under rebuilding 
plans that are more than 10 years, and another 8 stocks are under 
rebuilding plans that have no estimated time to rebuild because there 
is insufficient information to estimate rebuilding time. In each case, 
the length of the rebuilding plan that is selected is based on the 
following criteria: the status and biology of the stock, the needs of 
fishing communities, recommendations by international organizations in 
which the U.S. participates, and interaction of the stock within the 
marine ecosystem. Fourteen stocks in rebuilding plans have seen 
increases in biomass so they are no longer considered overfished. As 
their abundance continues to increase toward the level that supports 
the maximum sustainable yield, annual catch amounts can also increase.

    Question 13. I am concerned that CMSP efforts will have significant 
economic impacts--deciding who can do what and where (which is what 
zoning is), inevitably creates economic winners and losers. How will 
these regional planning bodies will consider these economic impacts of 
their decisions? Who, exactly, will be sitting at the table with the 
deep background and expertise in these matters that such weighty 
decisions require?
    Answer. There are over 140 different statutes and regulations that 
govern the use of our oceans, coasts and Great Lakes. Every day, 
agencies make ocean-related permitting decisions without accounting for 
potential impacts beyond their sector of regulation. CMSP is a tool 
designed to improve data integration and support, provide greater 
opportunity for stakeholder and scientific input, and create a 
collaborative, regionally based planning approach to improve decision-
making over the long-term. Such multi-use planning will help improve 
permitting and regulatory processes by facilitating dialogue to work 
through potential conflicts prior to permitting decisions. Evaluating 
economic, social and environmental data concurrently will increase 
certainty and predictability for all ocean stakeholders as they make 
investments in future ocean projects for a variety of uses.
    Regional Planning Bodies (RPBs) made up of Federal, State and 
tribal entities with authorities relevant to CMSP will undertake the 
planning process to develop CMS plans for their respective regions. 
They are charged with considering the interests of all users and 
stakeholders including economic, social and environmental interests. 
One of the essential elements of the CMSP process is for RPBs to 
consult scientists and other technical experts to ensure that CMSP 
decisionmaking is based on sound science and the best available 
information, which includes socioeconomic data on a variety of ocean 
uses.
    As the demand for ocean space continues to increase, a 
comprehensive, forward-looking planning process is necessary to help 
define needs and describe the interplay of those needs to illustrate a 
vision for the future landscape of our ocean. The CMSP process is 
designed to bring the best data and information to bear on ocean-use 
decision-making processes under the guiding principle of 
sustainability--sustainability of healthy and resilient coastal 
communities, economies, and resources.

    Question 14. Reports indicate a huge plume of debris generated by 
the tsunami is headed out to sea which in a few years will hit Hawaii, 
the Pacific Northwest and Alaska. What is being done to monitor this 
and what can be done in reauthorization of the Marine Debris Research, 
Prevent and Restoration Act to prepare for this unprecedented amount of 
debris heading our way?
    Answer. NOAA is currently exploring various methods to monitor the 
debris as it moves across the Pacific Ocean. NOAA's Marine Debris 
Program and Pacific Islands Regional Office's Observer Program have 
developed protocols and methods for collecting at-sea information on 
tsunami debris through the Hawaii swordfish and tuna longline fleets. 
The Marine Debris Program is also coordinating with NOAA's Office of 
Marine and Aviation Operations to report observations of marine debris 
while at sea.
    Conversations are also under way to collect observational data from 
the shipping industry, both through the Chamber of Shipping of America 
and through international shipping organizations, as well as 
recreational sailors. An MARAD Advisory is being drafted to warn of 
possible hazards to navigation and encourage reporting of debris 
sightings. In addition, an existing partnership between NOAA and NASA 
to develop at-sea detection capabilities for marine debris may allow 
overflights to look for marine debris north of the Hawaiian archipelago 
in spring 2012. NOAA has revised shoreline monitoring protocols to 
include potential tsunami debris monitoring on existing projects, 
including the Northwestern Hawaiian Islands debris cleanup in summer 
2012. An existing ``rapid response'' project spearheaded by NOAA to 
coordinate county, state, Federal, and non-governmental debris removal 
efforts can be called on and expanded if tsunami debris washes up in 
the Main Hawaiian Islands.
    Many variables affect whether and how long it will take debris 
items from Japan to reach the United States. It is a matter of years, 
not days or weeks. It is also impossible to accurately predict ocean 
currents and winds very far into the future, and thus an exact date of 
arrival for the debris cannot be given. Independent models run by NOAA 
and University of Hawaii researchers agree on the general direction and 
drift rate of debris generated by the tsunami in Japan. If the models 
are correct, debris could pass near or wash ashore in the Northwestern 
Hawaiian Islands in spring 2012, approach the West Coast of the United 
States in 2013 or 2014, and circle back to Hawaii in 2015 to 2016. The 
impacts in U.S. waters and along U.S. shorelines are difficult to 
predict without a better idea of debris types and density. However, the 
most likely impacts include those to navigation, pelagic fisheries, 
recreation and tourism in coastal areas, and marine and coastal species 
through habitat alteration and ingestion.
    The Marine Debris Research, Prevention, and Reduction Act (Act) 
created NOAA's Marine Debris Program. The legislation allows NOAA to 
support national and international efforts focused on preventing, 
identifying, and reducing the occurrence of marine debris and its 
impacts. NOAA accomplishes this goal through scientific research and 
assessment of marine debris; prevention and reduction efforts; 
developing partnerships, tools and techniques; and education and 
outreach. The Act was signed into law in 2006 and is up for 
reauthorization in 2011. Reauthorization of the Act will ensure NOAA 
can continue to have the legislative mandate to continue the important 
tasks of addressing high-priority marine debris issues that arise 
across the country, including events such as the Japan tsunami.

    Question 15. Please provide a summary of NOAA Ship sea days for 
FY08, 09, 10 and your best projections for FY11, broken down by broad 
mission areas (fisheries surveys, hydrography, etc.). Please also 
provide your best estimate of total number of sea days which can be 
accomplished with proposed FY12 funding. We understand that the FY12 
numbers may not be broken down by mission area yet, and the total 
number will be subject to change depending on how the days are 
allocated between missions and many other variables. Fuel prices are 
also an important variable that cannot be precisely predicted, but 
assume current fuel prices remain in effect for 2012 for this exercise.
    Answer. Please see below for a breakdown of FYs 08, 09, 10, and 11 
by broad mission areas:

------------------------------------------------------------------------
                                     Days at Sea
------------------------------------------------------------------------
  NOAA Ship     Mission     FY08    FY09    FY10    FY11      Comments
------------------------------------------------------------------------
Albatross IV  Fisheries       132      43      --      --  Decommissione
               Research                                     d FY09
------------------------------------------------------------------------
Bell M.       Fisheries        --      --      91     131  Commissioned
 Shimada       Research                                     FY10
------------------------------------------------------------------------
David Starr   Fisheries       229      85      --      --  Limited
Jordan         Research                                     operational
                                                            status Mar.
                                                            2009,
                                                            Decommission
                                                            ed FY10
------------------------------------------------------------------------
Delaware II   Fisheries       195     200     174     160  Includes DAS
               Research                                     for NRDA/DWH
                                                            Emergency
                                                            Response in
                                                            FY 2010
------------------------------------------------------------------------
Gordon        Fisheries       118     224     170     171  Includes DAS
 Gunter        Research                                     for NRDA/DWH
                                                            Emergency
                                                            Response in
                                                            FY 2010 & FY
                                                            2011
------------------------------------------------------------------------
Henry         Fisheries       158     170     149     185  Includes DAS
 Bigelow       Research                                     for NRDA/DWH
                                                            Emergency
                                                            Response in
                                                            FY 2010
------------------------------------------------------------------------
John N. Cobb  Fisheries        48      --      --      --  Decommissione
               Research                                     d FY08
------------------------------------------------------------------------
Miller        Fisheries       194     131     150      14
 Freeman       Research
------------------------------------------------------------------------
Oregon II     Fisheries       221     213     115     170  Includes DAS
               Research                                     for NRDA/DWH
                                                            Emergency
                                                            Response in
                                                            FY 2010 & FY
                                                            2011
------------------------------------------------------------------------
Oscar Dyson   Fisheries       217     208     202     123
               Research
------------------------------------------------------------------------
Oscar Elton   Fisheries       213     202     196     148
 Sette         Research
------------------------------------------------------------------------
Pisces        Fisheries        --      46     157     180  Commissioned
               Research                                     FY 2010--
                                                            Includes DAS
                                                            for NRDA/DWH
                                                            Emergency
                                                            Response in
                                                            FY 2010 & FY
                                                            2011
------------------------------------------------------------------------
McArthur II   Fisheries       170     183     162     192  Includes DAS
               Research                                     for NRDA/DWH
                                                            Emergency
                                                            Response in
                                                            FY 2011
------------------------------------------------------------------------
Nancy Foster  Fisheries         0       0      26      19
               Research
------------------------------------------------------------------------
Fairweather   Hydrographi     125     173     196     132
               c Survey
------------------------------------------------------------------------
Ferdinand     Hydrographi      --      --      --      27  Expected
 Hassler       c Survey                                     Commissionin
                                                            g FY12
------------------------------------------------------------------------
Rainier       Hydrographi     185     183       0      61  Major Repair
               c Survey                                     Period FY10
------------------------------------------------------------------------
Rude          Hydrographi      21      --      --      --  Decommissione
               c Survey                                     d FY08
------------------------------------------------------------------------
Thomas        Hydrographi     184     172     185     129  Includes DAS
 Jefferson     c Survey                                     for NRDA/DWH
                                                            Emergency
                                                            Response in
                                                            FY 2010
------------------------------------------------------------------------
Ka'imimoana   Climate         222     145     205     210
               Research
------------------------------------------------------------------------
Hi'ialakai    Oceanograph     205     178     206     168
               ic
               Research
------------------------------------------------------------------------
McArthur II   Ecosystem        35       0      44       0
               Survey
------------------------------------------------------------------------
Nancy Foster  Ecosystem       181     157     150     132  Includes DAS
               Survey                                       for NRDA/DWH
                                                            Emergency
                                                            Response in
                                                            FY 2010
------------------------------------------------------------------------
Ronald H.     Oceanograph     193     216     140     111
 Brown         ic
               Research
------------------------------------------------------------------------
Okeanos       Ocean            35     127     180     143
 Explorer      Exploratio
               n
------------------------------------------------------------------------
Total DAS                   3,281   3,056   2,898   2,606
------------------------------------------------------------------------

    For FY 2012, the planned DAS are 2,675.

    Question 16. NOAA and the Coast Guard have an aging ship fleet and 
you are working to replace the oldest ships. Is your fleet 
recapitalization plan on track? Please provide an update on how the 
schedule provided in the original 2008 Fleet Recapitalization plan is 
proceeding. Are the replacements it identified on schedule?
    Answer. In accordance with the plan, in FY 2009, NOAA was able to 
support the acquisition of Fisheries Survey Vessel 6 (FSV6), to replace 
David Starr Jordan, as well as to undertake the Major Repair Period 
(MRP) for the Rainier. In FY 2010, NOAA decommissioned David Starr 
Jordan and undertook the MRP for Oregon II. Below is the status of 
additional milestones outlined in the plan:
FY 2009
  <bullet> $78 million FSV6 (ARRA funded)

  <bullet> $6.98 million Rainier MRP (PAC funded)
FY 2010
  <bullet> $4 million Oregon II MRP (ARRA funded)
NOAA Fisheries Survey Vessel 5 (FSV5) to replace Oregon II
  <bullet> NOAA requested funding for the FSV5 design in the FY 2010 
        and FY 2011 President's Budgets. Funding was not appropriated. 
        Because a key requirement for the FSV5 is that it be a shallow 
        draft vessel, NOAA cannot use the current Dyson-class design. 
        NOAA is reconsidering design and procurement options for FSV5 
        which will reduce acquisition risk and improve the quality of 
        the end product.

  <bullet> Within the Ship Recapitalization Plan, a MRP to extend the 
        service life of Miller Freeman was planned for FY 2013, however 
        in FY 2009 an assessment confirmed that the vessel was rapidly 
        deteriorating and required an accelerated MRP. An MRP to extend 
        the service life of Ka'imimoana was planned for FY2020-FY2021. 
        However, recent ship assessments have shown that vessel has 
        degraded to a point where an MRP is required earlier. $11.6 
        million is requested in the FY2012 President's Budget for 
        repairs to Miller Freeman and Ka'imimoana.

    Question 17. We're excited about the University of Alaska's new 
Arctic-capable research ship, the R/V Sikuliaq, whose keel was just 
laid. NOAA's research ships often need different capabilities than 
University ships, such as special sonar systems for making nautical 
charts, or the ability to tow large nets for fisheries research. As we 
look for NOAA to expand its capabilities to provide critical services 
like charts and fish stock assessments in the Arctic, do you have plans 
or a need for a similar Arctic-capable research ship? How will NOAA 
conduct its unique at-sea research missions in the Arctic?
    Answer. NOAA does not have a separate Arctic fleet. NOAA's 
hydrographic survey vessels Rainier and Fairweather meet the old 
American Bureau of Shipping standard for ice-strengthened hulls, as do 
the T-AGOS vessels transferred from the Navy, such as the McArthur II. 
NOAA's newer fisheries research vessels Oscar Dyson and Bell M. Shimada 
have limited ice capability. All five vessels work in and around Alaska 
and could operate north of the Bering Strait in a limited capacity 
during the summer months and in loose ice. NOAA also continues to 
investigate use of Autonomous Underwater Vehicles (UAVs) and Unmanned 
Aerial Systems (UAS) which could potentially be used at or near ice 
edge boundaries for survey operations. NOAA, however, cannot currently 
sustain long-term projects in the Arctic with its own fleet and would 
instead rely on the Coast Guard's HEALY for ice breaker capacity, with 
other alternatives for ice capability including contractors and 
University-National Oceanographic Laboratory System (UNOLS) or other 
academic infrastructure.

    Question 18. In Alaska, we have several villages which are in need 
of relocation because of the impacts of climate change (reduced sea ice 
has increased erosion). It is difficult for city planners to know 
whether it is worthwhile to invest in basic infrastructure like water 
and sewer services, because we don't know when the villages will have 
to move. As a result, many rural Alaskans don't have running water or 
indoor plumbing and are living in Third World conditions. Would the 
NOAA Climate service help rural Alaskans plan for climate change? How?
    Answer. More than anywhere in the United States, NOAA is keenly 
aware of the rapidly unfolding changes in Alaska's climate and the 
significant impacts already being experienced. NOAA's proposed 
reorganization to establish a Climate Service Line Office would 
consolidate management of the agency's existing climate science and 
service capabilities. In doing so, NOAA would be organized to more 
efficiently and effectively respond to the increasing user demands for 
climate information, including those of rural Alaskans needing to plan 
for, and respond to, the effects of their changing climate. NOAA has 
many existing capabilities and assets based in Alaska to help 
communities who are experiencing, or are at risk of experiencing, a 
changing climate. The proposed Climate Service would enable NOAA to 
better integrate these types of climate activities within the agency 
and with other partners, including Federal, state, local and tribal 
organizations, and would also provide Alaskans with easier access to 
this critical climate information.
    NOAA has significant existing climate and weather assets in Alaska 
including the Alaska Center for Climate Assessment and Policy, which is 
one of NOAA's Regional Integrated Sciences and Assessments (RISAs), the 
NOAA-funded Cooperative Institute for Alaska Research (CIFAR), a 
regional climate services director based in Anchorage, and National 
Weather Service (NWS) offices in 16 locations statewide, including the 
Alaska-Pacific River Forecast Center in Anchorage. These assets 
currently provide a wide variety of services to Alaskan communities. 
For example, NOAA's River Forecast Center is responsible for issuing 
hydrologic forecasts and warnings, including both short-term weather 
forecasts (between 1 and 5 days) and seasonal climate forecasts (e.g., 
the Spring Outlook) for river ice and floods. These hydrologic 
forecasts are issued across the state to help guide community planning 
in the areas of water resource and flood plain management.
    The proposed Climate Service would allow NOAA to more easily and 
effectively provide integration of these existing assets across 
multiple capabilities, a common problem when tackling the 
multidimensional problems associated with a changing climate. One 
example of this integration is in facilitating the development of 
regionally-scaled models to predict erosion rates for rural Alaskan 
communities by linking existing research on Alaskan permafrost melting 
and coastal storms. Additionally, the proposed Climate Service could 
efficiently link different capabilities within NOAA to realize 
operational products that predict, at long lead time, when conditions 
would be especially favorable for freezing rain. This would help 
subsistence hunters in Alaska by predicting caribou die-offs when the 
animals cannot get to their food sources under winter snow and ice. 
Advanced notice of these precipitation events could allow for changes 
in limits or quotas and avoid food shortages.
    Today, NOAA's climate science and service capabilities in Alaska 
and around the country fall under multiple line offices, each with 
separate budget execution responsibilities and leadership. The goal of 
the proposed reorganization to create a Climate Service is to bring 
many of these climate capabilities under a single Line Office 
management structure. This would allow for coordination and execution 
of these services in a more efficient manner; thus delivering much 
needed climate information to Alaskan communities more effectively.
    The proposed Climate Service line office within NOAA would create a 
structure by which local user needs for reliable and authoritative 
climate data, information and decision support services could be 
communicated up through NOAA to help inform science and service 
priorities, and in turn, feedback would be provided to users on a 
regular basis. This will help NOAA strengthen our ability to respond to 
the rapidly increasing demand for accessible and timely climate 
services--the kind of services that rural Alaskans need to plan for and 
adapt to changing climate conditions.

    Question 19. NOAA's weather radio program is a great service, but 
these days a large part of the population has smart phones and is so 
connected to information by means other than radio, like text messaging 
and twitter. How is NOAA using these new pathways to get the word out 
about tornados, flash floods and other dangerous storms?
    Answer. NOAA's National Weather Service (NWS) encourages the public 
to receive official Emergency Alert System notifications for severe 
weather warnings and alerts in multiple ways, including via NOAA 
Weather Radio (NWR) All Hazards, commercial television and radio, the 
Internet, cell phone and other wireless services, and through local 
systems like tornado sirens and reverse 911, a telephone messaging 
system that warns those at risk in a specific geographical location. 
NWS also encourages use of state and local emergency management and 
also private sector services such as AccuWeather, The Weather Channel, 
and many television stations, which provide texts or e-mails to 
individuals who opt to receive weather warning information for their 
area.
    NWS is exploring new pathways to deliver urgent information, such 
as social media. For example, NWS uses Facebook, in addition to its 
routine methods, to communicate its life-saving information. Local 
weather forecast offices in the South used social media during the 
April tornado outbreak to spread the word of these dangerous storms. 
NWS is also improving its mobile service to provide an improved 
interface and graphical features such as radar and satellite imagery.
    In addition, NWS has been using Twitter for about a year to collect 
storm reports from spotters. NWS is currently formulating a prototype 
for issuance of warnings via Twitter. Additionally, for its core 
partners such as emergency managers, community leaders, and other 
government agencies, NWS launched an experimental mobile alerting 
service, iNWS, to communicate important decision-making information.
    Another important new Federal pathway supported by NWS and FCC is 
FEMA's automated Personal Localized Alerting Network (PLAN), announced 
the week of May 9 in New York City. The service will be available 
through participating wireless carriers nationwide by April 2012. PLAN 
is a new public safety system that allows customers who own an enabled 
mobile device to receive geographically-targeted, text-like messages 
alerting them of imminent safety threats in their area, even while they 
are traveling.

    Question 20. NOAA's weather websites can be a bit tricky to use, 
and finding the right information can be a challenge. Do you all have 
any plans to overhaul your weather web interface to make it easier to 
use?
    Answer. NOAA's National Weather Service (NWS) recognizes the need 
to improve the ease of use and discovery of the suite of products, 
services and information provided to the public and our partners 
through Weather.gov. With available resources, the NWS is making 
improvements to Weather.gov's look and feel this year. Future 
improvements to the functionality, navigation and content offerings 
will be reviewed as resources are available.

    Question 21. The National Weather Service recently ran pilot 
projects to improve aviation weather and emergency response meteorology 
services. The aviation projects in Chicago, New York and Atlanta 
resulted in significant reductions of weather delays for commercial air 
traffic. Does NOAA plan on expanding on the successes of these pilot 
projects? How are those efforts going? If NOAA does plan on expanding 
these pilots, when should we expect to see the results in place?
    Answer. NOAA's National Weather Service (NWS) plans to extend the 
processes created for the pilot project known as Golden Triangle to San 
Francisco. Unlike the Golden Triangle area that encompasses Chicago, 
Atlanta, and the New York metro airports, San Francisco experiences 
delays not only due to land and sea-based fog, but also from higher 
cloud ceilings in the approach corridor that would not pose problems 
for other airports. Thus, accurate cloud and visibility forecasts are 
crucial, especially in the early morning national air traffic planning 
timeframe, for deciding when to release trans-continental and regional 
flights to ensure timely landing and avoid costly airborne holds or 
diverts to other airports. NWS is currently evaluating the service and 
resource requirements to implement improvements in San Francisco and 
expects to implement in 2012.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Dr. Jane Lubchenco
    Question 1. As you know, the first phase of the independent review 
of New England's groundfishery ``A Review of the New England Fishery 
Management Process,'' was released on April 26. One finding of the 
report states that, ``Cooperative research is seen as an effective tool 
for fostering trust between NMFS and stakeholders. Many see the value 
of cooperative research as a method for improving science and fostering 
trust between stakeholders and NMFS.'' Do you believe the report 
suggests that NOAA should reprioritize cooperative research in its 
Fiscal Year 2012 budget?
    Answer. The Federal Cooperative Research program has been operating 
in the Northeast since 1999. NOAA strongly supports cooperative 
fisheries research and included a total of $13.2 million for 
cooperative research in the President's FY 2012 budget request. In 
response to the Management Review, we are redoubling our efforts to 
plan and work together with research and academic institutions and 
fishermen to answer some of the critical questions facing New England 
fisheries. Additionally, we will conduct expedited mid-term review of 
the 2009 strategic plan for cooperative research to involve all 
regional cooperating institutions. The results will be incorporated 
into FY 2012 prioritization decisions.
    In addition to fostering trust between fishery managers and 
stakeholders, cooperative research is an important source of 
information for fishery management decisions. To improve the 
prioritization of available funds, NOAA's National Marine Fisheries 
Service (NMFS) needs to ensure that all cooperative research projects 
are meeting the priority requirements of NMFS, the Regional Fishery 
Management Councils, the Atlantic States Marine Fisheries Commission, 
and our stakeholders. NMFS also needs to ensure that the research is 
complementary and not redundant. In 2009, NMFS conducted a strategic 
review of the Northeast Cooperative Research Program and has been 
implementing the highest priority themes of that review. Since many 
things have changed in the ensuing period, NMFS will conduct another 
round of stakeholder meetings from Maine to North Carolina to ensure 
that up-to-date stakeholder priorities are considered in funding 
decisions. NMFS has formed an informal ``roundtable'' committee to 
review programs and ensure efficient use of funds and expertise in the 
region. The committee began in 2009 and includes members of the 
Northeast Cooperative Research Program, NMFS Mid-Atlantic Research Set-
Aside Program, Northeast Consortium, and Commercial Fisheries Research 
Foundation. The School for Marine Science and Technology (SMAST) and 
the Gulf of Maine Research Institute have been participating since 
February 2011. These discussions will continue and help ensure that 
redundant activities are identified and this information is used in 
making final Northeast Cooperative Research Program funding decisions.

    Question 2. Are there any other conclusions from the report that 
alter NOAA's assessment of budget priorities?
    Answer. NOAA plans to build on the current fishery management 
system and improve the overall process as a result of Phase I of the 
Management Review and we can do this within existing resources. Two 
specific issues that we will be working on within current resources are 
explained below. Some of the recommendations will require much more 
thought and analysis and the agency plans to explore that in more depth 
in Phase II of the Management Review.
Data Management--System Design
    NMFS is taking immediate specific steps to improve our data 
management systems. Over the years, data collection programs and data 
management systems have been developed in our Northeast Regional Office 
and Science Center as needed. The Management Review finds that our 
systems are not integrated, some data collections seem redundant, 
stakeholders are unsure of where to turn for data, and there are 
inefficiencies in the delivery of data and analytical products. We will 
work to address this.
    Under the current budget, NMFS plans to initiate a program to 
develop requirements for consolidation of fishery-dependent reporting/
collection systems and the underlying data management systems in the 
Northeast region.
Data Management--Electronic Vessel Trip Reports
    To improve the timeliness and accuracy of fisherman-reported data 
and simplify industry reporting requirements, our Regional Office and 
Science Center have been working with the industry to transition from 
paper to electronic logbooks.
    Federal permit holders are required to maintain and submit fishing 
logs for each fishing trip, regardless of target species--Vessel Trip 
Reports. Electronic logbooks (e-Vessel Trip Reports) will speed 
processing of data, likely reduce errors in the data and relieve the 
industry of having to obtain, carry and fill-out paper logbooks. The 
program will be available initially on a voluntary basis to vessels in 
multispecies sectors.

    Question 3. The Federal Energy Regulatory Commission has developed 
a streamlined permitting process for innovative tidal facilities that 
are under five megawatts or less. As you know there are major 
opportunities for renewable energy in our oceans, but the permitting 
process can sometimes delay innovative companies from developing the 
next generation of energy facilities. FERC's streamlined permitting 
process is for projects of five megawatts or less, that are removable 
or able to shut down on relatively short notice, located in waters that 
have no sensitive designations, and for the purpose of testing new 
hydro technologies or determining appropriate sites for ocean, wave, 
and tidal energy projects. Do you believe that NOAA could implement a 
similar permitting process, would you support developing this proposal, 
and if necessary would you support legislative changes allowing NOAA to 
streamline permits for pilot scale innovative clean-energy projects?
    Answer. NOAA is not considering implementing new or separate 
permitting/consultation processes for hydrokinetic technologies. NOAA 
is actively collaborating with industry, FERC and other agencies to 
meet permitting requirements as efficiently as possible. NOAA continues 
to encourage FERC and potential applicants to consult early with NOAA 
staff to facilitate intra-agency coordination and minimize adverse 
environmental effects as well as delays in FERC's permitting process. 
NOAA believes that the current process is sufficient and additional 
legislation is not necessary.
    Hydrokinetic energy encompasses wave, tidal, ocean current, and in-
stream riverine energy production. States and private entities looking 
to develop hydrokinetic energy are turning to coastal areas that 
overlap with NOAA's trust resources to site their projects. NOAA 
reviews these projects and endeavors to provide scientific expertise on 
trust resources, such as fisheries, marine mammals, endangered species, 
marine sanctuaries, and the coastal zone to minimize adverse 
environmental impacts from siting and operation of projects in the 
early stages of development. NOAA's review may result in the need for 
consultations or authorizations related to several important statutory 
mandates. While some of these environmental consultations or 
authorization processes allow for more expedited reviews under certain 
circumstances, the potential environmental impacts of some offshore 
energy projects may necessitate a lengthier review and assessment 
process.
    For example, NMFS is responsible for authorizing the take of 
certain marine mammals incidental to specific activities under the 
Marine Mammal Protection Act, provided certain legal requirements are 
met (16 U.S.C.  1371(a)(5)). For activities with no potential to cause 
marine mammal mortality, Congress implemented an expedited 120-day 
process for issuing 1-year Incidental Harassment Authorizations. For 
activities with a potential to cause marine mammal mortality, NMFS must 
promulgate 5-year regulations to govern the authorization of take 
incidental to those specific activities and issue Letters of 
Authorization pursuant to those regulations. Although it varies, these 
regulations typically take about 18 months to process. If an incidental 
take authorization is needed, NMFS anticipates that the expedited 
Incidental Harassment Authorization process is likely appropriate for 
the pilot activities described in the question.
    Also, Section 7(a)(2) of the Endangered Species Act (ESA) (16 
U.S.C.  1536(a)(2)) requires all Federal agencies to consult with NMFS 
when their actions ``may affect'' federally threatened or endangered 
species, or their designated critical habitat. Actions for the purpose 
of consultation are all activities or programs of any kind authorized, 
funded, or carried out, in whole or in part, by Federal agencies in the 
United States or upon the high seas, including the granting of licenses 
and permits for hydrokinetic energy. NMFS has an expedited informal 
consultation process for activities that are not likely to adversely 
affect endangered and threatened species. This process takes 
approximately 30 days. For projects that meet FERC's streamlined 
hydrokinetic pilot project permitting process requirements (five 
megawatts or less, removable or able to shut down on relatively short 
notice, located in waters with no sensitive designations), and where 
environmental baseline information is readily available, the 30-day 
process may be appropriate. For those projects that do not meet the 
requirements or are lacking baseline information, a formal ESA 
consultation would likely be necessary. This is a 135-day process that 
is completed with the issuance of a biological opinion. There have been 
at least two instances where formal ESA consultation was required for 
marine hydrokinetic projects, both of which were proposed for siting 
within, and were likely to adversely affect, sensitive areas designated 
as critical habitat for the conservation of ESA-listed Pacific salmon. 
There are a few issues that FERC could address in their guidance and 
regulations that may help to streamline the ESA consultation process 
for pilot projects:

  <bullet> defining ``sensitive designations'' for areas that will not 
        be suitable sites for pilot projects;

  <bullet> defining ``unacceptable environmental effects'' to living 
        marine resources and their habitats;

  <bullet> developing explicit steps in the pilot licensing process for 
        interested parties to submit conditions, prescriptions and 
        recommendations to avoid/minimize adverse environmental 
        effects.

    NMFS also conducts Essential Fish Habitat consultations for marine 
hydrokinetic projects under the Magnuson-Stevens Fishery Conservation 
and Management Act (Magnuson-Stevens Act). Opportunities currently 
exist under the Magnuson-Stevens Act to streamline the Essential Fish 
Habitat consultation process for Federal actions with existing 
environmental review processes, such as the Endangered Species Act and 
National Environmental Policy Act (see 50 C.F.R.  600.905-930). NMFS 
looks forward to using these streamlined procedures, as appropriate, 
with FERC.
    It should be noted that many of the environmental impacts of 
emerging renewable ocean energy technologies are unknown. Limited 
scientific information by which to assess potential environmental 
effects of marine hydrokinetic devices can challenge NOAA's ability to 
implement its mandates and authorities. NOAA recognizes the importance 
of having an environmental baseline for these projects, and is working 
to address knowledge gaps in order to ensure smoother permitting and 
licensing of renewable ocean energy projects. For example, in FY 2010, 
NOAA, along with the U.S. Department of Energy and the U.S. Department 
of the Interior's Bureau of Ocean Energy Management, Regulation and 
Enforcement, funded the following projects under the National 
Oceanographic Partnership Program:

  <bullet> Characterization and Potential Impacts of Noise Producing 
        Construction and Operation Activities on the Outer Continental 
        Shelf (Cornell University)

  <bullet> Protocols for Baseline Studies and Monitoring for Ocean 
        Renewable Energy (Pacific Energy Ventures)

  <bullet> Roadmap: Technologies for Cost Effective, Spatial Resource 
        Assessments for Offshore Renewable Energy (University of 
        Massachusetts)

  <bullet> Evaluating Acoustic Technologies to Monitor Aquatic 
        Organisms at Renewable Energy Sites (University of Washington)

  <bullet> Developing Environmental Protocols and Monitoring to Support 
        Ocean Renewable Energy and Stewardship (University of Texas)

  <bullet> Visual Impact Evaluation System for Offshore Renewable 
        Energy (University of Arkansas)

  <bullet> Bayesian Integration Marine Spatial Planning and Renewable 
        Energy Siting (Parametrix)

  <bullet> Developing Environmental Protocols and Monitoring to Support 
        Ocean Renewable Energy and Stewardship (University of Rhode 
        Island)

    NOAA looks forward to working with the Committee on this issue.

    Question 4. Could you please provide the Committee with both the 
current number of employees within the Office of National Marine 
Sanctuaries and the number employed 10 years ago?
    Answer. The table below provides an overview of the number of FTEs 
and NOAA Corps officers with the Office of National Marine Sanctuaries 
in both FY 2002 and FY 2011:

------------------------------------------------------------------------
    Year        Federal (FTEs)        NOAA Corps             Total
------------------------------------------------------------------------
2002                        116                   7                 123
------------------------------------------------------------------------
2011                        182                   8                 190
------------------------------------------------------------------------

    The reason for the staff increase is largely due to: (1) the hiring 
of additional staff at Thunder Bay National Marine Sanctuary following 
finalization of its designation in 2002 (designation was initiated in 
2000); (2) the hiring of new staff following designation of the 
Papahanaumokuakea Marine National Monument in 2007; (3) the hiring of 
staff to assist in the development and implementation of management 
plans at all 14 field sites; (4) the addition of staff to manage 
increased system-wide IT requirements; and (5) the hiring of staff to 
coordinate construction and/or renovation of 18 major facilities, 
visitor centers, and exhibits at 10 sanctuaries.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                           Dr. Jane Lubchenco
    Question 1. Dr. Lubchenco, I believe you are aware of concerns that 
were recently raised at a recent House Natural Resources Committee 
hearing, which you were present at, regarding the relicensing of the 
Catawba-Wateree Hydro Project in South Carolina. The National Marine 
Fisheries Service (NMFS), which has an advisory role in the relicensing 
of hydropower facilities, seems to be going to great lengths to delay 
this project in order to protect a fish, the shortnose sturgeon, that 
hasn't been within 70 miles of the dams in question over 100 years. In 
light of this, I have four questions for which I would like to request 
a response. If the actual Federal agency in charge of approving the 
hydropower license, FERC, believes that the Catawba-Wateree Hydro 
Project poses no adverse risk to shortnose sturgeon and the local and 
state resource agencies are in agreement, then why is the NMFS delaying 
the project and indicating that anything less than constructing fish 
passages on all the dams or removing them entirely is unacceptable?
    Answer. While FERC is the agency responsible for approving a 
license, the Federal Power Act grants NOAA's National Marine Fisheries 
Service (NMFS) authority to: (1) issue mandatory fishway prescriptions 
to ensure safe, timely, and effective upstream and downstream fish 
passage (e.g., fish ladders, juvenile bypass facilities); and (2) 
provide recommendations to protect, mitigate damages to, and enhance 
fish and habitats at FERC-licensed hydropower projects. Further, the 
Endangered Species Act requires FERC to consult with NMFS to ensure 
that proposed Federal actions are not likely to jeopardize the 
continued existence of any species listed as endangered or threatened, 
or result in the destruction or adverse modification of designated 
critical habitat for those species. NMFS believes the dams, flow rates 
and other components of the Catawba-Wateree Hydro Project are likely to 
adversely affect the endangered shortnose sturgeon by:

  <bullet> Capturing the fish;

  <bullet> Subjecting the fish to poor water quality;

  <bullet> Impeding the fish's access to suitable spawning habitat 
        upstream of the dams; and

  <bullet> Reducing suitable spawning habitat downstream of the dams.

    When NMFS determines a project is likely to adversely affect a 
threatened or endangered species, then the agency must formally 
evaluate these effects in a biological opinion pursuant to section 7 of 
the Endangered Species Act (ESA) (16 U.S.C.  1536). The agency is in 
the process of gathering the information needed to prepare this 
biological opinion and, thus, has not yet made any determinations 
regarding fish passage requirements. NMFS will continue to work 
cooperatively with Duke Energy and the Federal Energy Regulatory 
Commission (FERC) to identify the best solutions to mitigating project 
impacts to shortnose sturgeon and other listed species.
    The Catawba-Wateree branch of the Santee River Basin likely 
provided important spawning habitat for shortnose sturgeon and other 
anadromous fish before dam construction and hydropower operations 
blocked access for the fish to migrate between their spawning and 
feeding grounds. With limited research on a rare fish and the barriers 
to migration, it is not surprising that sturgeon had not been detected 
at the Wateree Dam for many years. At a May 24, 2011, meeting between 
FERC, NMFS, and Duke Energy to discuss the relicensing of the Catawba-
Wateree Project, the South Carolina Department of Natural Resources 
reported that they had tracked two spawning-condition shortnose 
sturgeon to the Wateree Dam this spring.

    Question 2. What new data is the NMFS basing its position on in 
this case?
    Answer. The Endangered Species Act requires that NMFS and all 
Federal agencies use the best available scientific and commercial 
information when making decisions regarding endangered species, 
including current information available regarding life history. NMFS 
has been working with Duke Energy and FERC to identify the best 
available information to use in this consultation, and is considering 
data and information from research projects funded by NMFS, state 
partners and others. The agency understands the need for better data on 
shortnose sturgeon in the Southeast Region and is currently supporting 
a 3-year project for that purpose at $4 million through South Carolina 
Department of Natural Resources.

    Question 3. When can we expect the NMFS to produce a BiOp for the 
relicensing of the hydro project, which FERC requested completion of 
over a year ago?
    Answer. NMFS has been working with Duke Energy and FERC for some 
time to better understand the details of this project, including how 
FERC intends to implement the Federal Threatened and Endangered Species 
Protection Plan for Shortnose Sturgeon filed with the license 
application. The agency met with Duke and FERC on May 24, 2011, to 
resolve all outstanding questions and issues so they may initiate the 
consultation process. The meeting provided for a positive exchange of 
information that will allow NMFS to initiate consultation.
    The Endangered Species Act provides NMFS up to 135 days to issue a 
biological opinion once they initiate consultation. However, the agency 
understands the relicensing of this project is of great importance to 
the regional economy and is committed to producing a biological opinion 
on the project as soon as possible once it receives the information 
needed to effectively evaluate the project.

    Question 4. When can we expect resolution on this issue?
    Answer. NMFS has worked, and will continue to work, with the 
utilities, state and Federal resource agencies, and FERC to develop 
science-based, practical fish passage prescriptions and flow 
recommendations for this project. However, FERC is the action agency 
for purposes of ESA Section 7 consultation, with the ultimate 
responsibility to determine the license conditions that will avoid 
jeopardizing listed species. NMFS will continue working with FERC and 
all parties involved in this project to ensure good communication and 
effective resolution of issues regarding project impacts to listed 
species as they complete their role in the relicensing and consultation 
process. NMFS's goal is to expeditiously meet both the business needs 
of the utilities for relicensing and the passage needs of the 
endangered shortnose sturgeon and other species adversely impacted by 
the project.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                           Dr. Jane Lubchenco
    Question 1. In the Gulf of Mexico, NOAA has relied on long-standing 
research partners, particularly within its Office of Oceanic and 
Atmospheric research, which have been leveraged for their expertise and 
capabilities to, ``more efficiently and effectively serve the Nation,'' 
according to NOAA's own FY2012 Budget Summary. Two such programs are 
the Northern Gulf Institute (NGI) and the National Institute for 
Undersea Science and Technology (NIUST). These institutions partner 
with NOAA to conduct critical research in the northern Gulf, and were 
particularly crucial to NOAA fulfilling its mission following the 
Deepwater Horizon explosion and subsequent oil spill. As long-term 
impacts on the Gulf ecosystem are studied following the oil spill, how 
will NOAA utilize the expertise and resources of NGI and NIUST?
    Answer. NGI and NIUST are both valuable partners to NOAA, providing 
research and expertise that advance NOAA's mission. Specifically, the 
Seabed Technology Research Center (STRC) within NIUST at the University 
of Mississippi is the managing partner of the Methane Hydrate Seafloor 
Observatory, which provides NOAA with methane hydrates research 
capability in the Gulf. Current STRC research activities focus on 
understanding the formation and dissociation of gas hydrates, which are 
ice-like crystalline structures that encapsulate methane gas molecules. 
This research capability and the proximity of the observatory to the 
Deepwater Horizon BP oil spill site proved critical to our 
understanding of the ultimate fate of oil from the spill, and NOAA will 
continue to utilize this expertise as a result of the long-standing 
relationship with NIUST. NOAA also utilizes NIUST's significant 
capability in biotechnology, including the development of new products 
from the sea (primarily drug discovery and agrochemicals) for 
commercial use, and an extensive marine biotechnology repository. In 
addition, new technologies have been applied to questions related to 
healthy coasts, sustainable fisheries, predicting environmental change, 
corals, reefs and marine ecosystems.
    NGI also provides considerable expertise that NOAA utilizes 
directly. As a competitively-awarded NOAA Cooperative Institute (CI), 
NGI develops, operates, and maintains an increasingly integrated 
research and transition program focused on filling priority gaps and 
reducing limitations in current Northern Gulf of Mexico awareness, 
understanding and decision support. Partnering with five academic 
institutions and NOAA, NGI is a collaboration led by Mississippi State 
University that includes the University of Southern Mississippi, 
Louisiana State University, Florida State University, and the Dauphin 
Island Sea Lab. Specifically, NGI has three areas of expertise that 
NOAA relies heavily on: social science, remote sensing, and coastal 
geomorphology. Each of these topical areas is critical to research 
investigating the long-term impacts on the Gulf ecosystem following the 
oil spill.

    Question 2. Considering NGI and NIUST's expertise in and 
contributions to ocean research in the northern Gulf of Mexico, will 
NOAA find ways to support these partnerships in FY 2012 and beyond?
    Answer. NIUST has received congressionally directed funding in FY09 
and FY10 through the NOAA Office of Oceanic and Atmospheric Research 
(OAR). NOAA did not request or receive funds for NIUST in Fiscal Year 
(FY) 2011. NOAA will continue to look for opportunities, possibly 
through competitive grants, to continue strong partnerships with 
institutions like NIUST in the future.
    With regard to NGI, NOAA is also committed to the long-term health 
of the program. NGI funding historically has been funded through a 
combination of congressionally-directed and administration-requested 
funding. NGI was established as a competitively-awarded CI in 2006. As 
part of the CI review process, NGI underwent a thorough external 
review, chaired by NOAA's Science Advisory Board, in 2010. The 
independent review team gave NGI a score of ``outstanding,'' and NOAA 
has renewed an additional 5 year extension for NGI as a result. The 
score of ``outstanding'' is only given in cases where the research 
themes of the CI are of clear scientific benefit to NOAA's mission 
goals through the partnership.

    Question 3. As we approach the 1-year anniversary of the BP oil 
spill, many questions remain regarding the fate and transport of the 
oil, the economic and environmental impacts of the spill, and how best 
to respond to future events. Academic institutions and research 
organizations in the northern Gulf are particularly well qualified to 
gather necessary information, as well as utilize existing resources to 
effectively study this unique ecosystem. Will NOAA look to local 
expertise first, with priority over experts from other regions of the 
U.S., to conduct research related to the BP spill?
    Answer. As the scientific lead for coastal and marine spills, it is 
critical that NOAA bring the best available science and tools to 
improve decision-making during responses.
    The NOAA Office of Response and Restoration (OR&R) works closely 
with academic institutions and research organizations along the Gulf 
Coast in many facets of oil spill response, assessment and restoration. 
For example, NOAA utilizes experts at the Environmental Studies 
Department of Louisiana State University (LSU) for analytical chemistry 
support for oil spills across the country. LSU provides NOAA with 
chemical hazard and risk assessment analyses to understand the behavior 
of oil and chemicals in the environment and associated risks to natural 
resources and human health. In addition, NOAA sponsored a workshop 
titled ``Coordinating Research and Development on Oil Spill Response in 
the Wake of Deepwater Horizon'' on March 22-24, 2011 in Baton Rouge, 
LA. The purpose of this meeting was to bring together experts from 
across a broad spectrum of organizations, including state agencies, 
Gulf Coast academic institutions and private research organizations, to 
address the state of future oil spill response research and best 
practices.
    The FY 2012 President's Budget request includes an increase of $2.9 
million for NOAA to develop an oil spill research and development (R&D) 
program. The funds would support external grants in an open and 
competitive process. The grants will be focused on priority oil spill 
research areas, including: oil fate and behavior effects from deepwater 
releases, response and mitigation techniques in extreme and remote 
environments (e.g., outer continental shelf or arctic regions), long-
term effects on species and habitats, tools for natural resource damage 
assessment and restoration, and human dimensions of oil spills.

    Question 4. NOAA's National Weather Service (NWS) provides critical 
services which defend our Nation against severe weather. As part of its 
mission, the NWS collaborates with other Federal agencies, the private 
sector, and academic institutions to collect weather-related data to 
accurately forecast severe weather events and issue proper warnings to 
Americans. Such severe weather includes hurricanes, which produce high 
winds and storm surges, posing a dire threat to life and property, 
particularly for our Nation's coastal residents. What existing 
capabilities do the NWS and its partners currently utilize to measure 
wind speeds and storm surges associated with storms that impact coastal 
zones of the U.S.?
    Answer. NOAA operates an array of surface and marine observing 
systems to measure winds and surges associated with coastal zone 
storms.
    NOAA's National Data Buoy Center (NDBC) maintains a network of 
buoys. The buoys provide continuous observations, including sustained 
wind speed and gusts, wind wave and swell heights.
    NOAA's National Ocean Service (NOS) maintains the National Water 
Level Observing Network (NWLON) to provide astronomical tide 
predictions. This network of water level observations, combined with 
tide predictions, is critical to NWS forecasts and warnings for the 
coastal flooding associated with major storms. In addition, 
meteorological sensors are installed on most NWLON stations and these 
data are also used by NWS forecasters. These observations are an 
important part of the historical meteorological and oceanographic 
record, archived at NOAA's National Climate Data Center.
    The NWS has Automated Surface Observing Systems throughout the 
Nation, including coastal locations, which provide continuous 
observations of wind direction, wind speeds and gusts, among other 
measurements.
    In addition, marine mesonet data (from nearshore and offshore 
observing platforms) are also provided by international partners, 
Integrated Ocean Observing System (IOOS) partners, universities, 
private companies, and local governments. These observations are shared 
among governments and private organizations. In addition, nearshore and 
offshore observing platforms are maintained by universities, private 
companies, and local governments; these observations are shared with 
governments and private organizations.

    Question 5. What other data measures do the NWS and its partners 
collect before, during, and after storms strike American coastal zones, 
and how are these data used?
    Answer. NOAA and its partners collect storm damage data, water 
level information, and storm extent and timing.
    Local NWS offices and Centers gather data through storm surveys. 
Trained employees of the NWS offices survey damage on the ground and 
sometimes through the air. These efforts provide good estimates 
including valuable information on aspects of the storm that may not 
have been measured at official observing sites. An example of a key 
measurement could be high water marks at locations along the coastline 
after a significant storm surge event. Local NWS offices also train 
severe weather spotters who also provide the office with similar 
information.
    The reporting, collection and analysis of storm surge data are 
critical for NWS forecasts and warnings during tropical and 
extratropical storm events. After these storms, the data are used for 
forecast and model verifications. Data are also used by other Federal, 
state, and local governments and the insurance industry in post-storm 
response activities and for planning purposes.
    The U.S. Geological Survey (USGS) has developed a mobile storm-
surge network to capture information on the timing, extent, and 
magnitude of storm surge. This mobile network consists of water level 
and barometric pressure monitoring devices that are deployed in the 
days and hours just prior to a hurricane landfall. This information is 
shared with NOAA's National Hurricane Center and the U.S. Army Corps of 
Engineers (USACE).

    Question 6. How are partnerships or collaborations between NOAA and 
academic institutions, private sector entities, or other organizations 
leveraged to collect weather related data in the coastal zones of the 
U.S.?
    Answer. NOAA leverages partnerships in order to fill data gaps. In 
exchange, NOAA provides value by developing data standards and quality 
control.
    The best example of organizational leveraging for collection of 
weather data in the nation's coastal zones is the Integrated Ocean 
Observing System (IOOS). IOOS is a Federal, regional, and private 
sector partnership working to enhance our ability to collect, deliver, 
and use ocean and nearshore information. IOOS draws together many 
networks of disparate Federal and non-Federal observing systems to 
produce data, information, and products at the scales needed to support 
decisionmakers.
    As another example, The United States Lifesaving Association (USLA) 
shares its data related to fatalities, injuries, and rescues associated 
with hazards in the surf zone such as rip currents, high surf and rough 
seas. In return, the NWS assists the USLA with outreach and education 
on surf zone hazards. Both agencies work together on determining the 
best methods for surf zone and beach safety awareness and education.

    Question 7. What estimated costs are saved by NOAA's partnerships 
with these institutions and entities for the collection of weather-
related data in the coastal zones of the U.S.?
    Answer. NOAA does not currently have an assessment of these cost 
savings.

    Question 8. NOAA's NWS has an official storm surge model named the 
Sea Lake and Overland Surges from Hurricane's (SLOSH) model, which the 
National Hurricane Center uses to create historic runs of winds and 
storm surges caused by a hurricane using the best available data. How 
accurate is the current SLOSH model in recreating the magnitude and 
timing of winds and storm surges associated with severe storms such as 
Hurricane Katrina?
    Answer. Several SLOSH verification studies have shown that 
forecasted storm surge magnitude is generally within <plus-minus> 20 
percent of the observed peak surge.

    Question 9. What is the scale, or precision, of the SLOSH model?
    Answer. Though the scale varies, an average precision for all SLOSH 
basins is 1.9 kilometers. Additionally, SLOSH subdivides some areas in 
order to model rivers or streams, on a scale of tens of meters.

    Question 10. What areas of the United States are covered by the 
SLOSH model?
    Answer. SLOSH has 38 tropical storm basins covering all of the East 
Coast, Gulf of Mexico, Bahamas, Puerto Rico, Virgin Islands, Hawaii and 
Guam.
    An extratropical version of SLOSH is run to predict high water 
levels from extratropical storms (e.g., winter storms such as 
Nor'easters). These 6 basins cover the East Coast, Gulf of Mexico, the 
West Coast and Alaska.

    Question 11. Currently, is there well-established infrastructure to 
support SLOSH modeling? What comprises this infrastructure?
    Answer. The infrastructure consists of the SLOSH team including 
developers and operational managers at the National Hurricane Center; 
observational data, the SLOSH modeling and visualization software, 
websites, and the NWS' central Weather and Climate Operational 
Supercomputer Systems (WCOSS).
    SLOSH is run in a forecast mode on the WCOSS for estimating the 
storm surge threat associated with hurricane evacuation plans prior to 
landfalling storms. SLOSH is also run on local work stations in real 
time at the National Hurricane Center during an active landfalling 
hurricane.

    Question 12. How does the National Data Buoy Center contribute to 
the infrastructure supporting SLOSH?
    Answer. After a storm event, wind observations from NDBC's buoys 
are part of the data used to validate and verify the hurricane wind 
fields forecast by SLOSH. Buoy wave observations are used to verify 
forecast from wave models, a critical component of storm surge.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                           Dr. Jane Lubchenco
    Question 1. If NOAA is opposed to a fish ladder, can other habitat 
be identified that can be improved or protected near the New Savannah 
Bluff Lock & Dam?
    Answer. NOAA is not opposed to a fish ladder in principle. The U.S. 
Army Corps of Engineers (the Corps) has proposed constructing fish 
passage around the New Savannah Bluff Lock and Dam as a way to restore 
access for sturgeon (and other fish) to the high quality spawning areas 
that exist upstream of the dam and mitigate for the loss of sturgeon 
foraging habitat as the result of the Savannah Harbor deepening. NOAA 
has recommended that dam removal be considered as an alternative to 
constructing fish passage, because removal is expected to provide the 
greatest benefit to species and would not require long-term monitoring 
and maintenance.
    NOAA and the Corps continue to work together to explore fish 
passage design alternatives, as well as downstream mitigation 
alternatives. The Corps, with NMFS assistance, hosted a workshop of 
technical experts on April 25-27 in Augusta, Georgia, to develop and 
evaluate more effective fish passage design structures that would 
retain the dam and to explore the possibility of improving or 
protecting other habitats as sturgeon mitigation in the Savannah River. 
NOAA would support such habitat conservation measures in addition to 
fish passage, but our primary goal is to provide sturgeon access to 
existing spawning habitat upstream of the dam.

    Question 2. The Nature Conservancy has focused their efforts on an 
area which is critical habitat to many species, including the shortnose 
sturgeon. From their website, ``The lower Savannah River, beginning 
just below the Thurmond Lake reservoir near Augusta and extending to 
the coastal estuaries, is fed by a number of tributaries, including 
Brier Creek and Stevens Creek. This portion of the river system--which 
is the focus of The Nature Conservancy's work--harbors more than 110 
species of fish including the robust redhorse and the endangered 
shortnose sturgeon.''
    Answer. The New Savannah Bluff Lock and Dam currently blocks 
sturgeon access to important parts of the Savannah River below the 
Thurmond Reservoir and Stevens Creek. This area contains large 
stretches of rocky shoal habitat that does not exist below the dam. The 
technical workgroup the Corps gathered together in Augusta, Georgia, 
last month to evaluate mitigation alternatives, concluded no spawning 
habitat improvements could be made below the dam that would adequately 
mitigate for expected project impacts to sturgeon foraging and refuge 
habitat. This group included sturgeon scientists from Georgia and South 
Carolina, among them a scientist from The Nature Conservancy.

    Question 3. In addition to the fish passage, are there some 
properties in this region that could be secured for habitat protection?
    Answer. The technical workgroup did not identify any habitats that 
could be reasonably expected to improve the spawning success of 
shortnose sturgeon, and NOAA is not aware of any potential properties. 
However, we have asked the Georgia Department of Natural Resources for 
assistance in identifying properties that could potentially serve this 
function.

    Question 4. My understanding is that while NOAA prefers that 
mitigation be accomplished within the Basin that is impacted, since the 
sturgeon are not thriving in the Savannah (monitoring has proven very 
few exist within the estuary), why not improve habitat in an area that 
has better success for the species for example in the Altamaha or the 
Ogeechee? Are there improvements to habitat in those basins that might 
be accomplished instead of or in addition to the fish passage?
    Answer. Mitigating project impacts on the Savannah River shortnose 
sturgeon population is critical. Habitat improvements to conserve the 
shortnose sturgeon populations of other rivers, such as the Altamaha or 
Ogeechee, would benefit those populations but would not be appropriate 
mitigation for this project, which impacts the Savannah River shortnose 
sturgeon population. The best available information indicates the size 
of the Savannah River shortnose sturgeon population is second only to 
that of the Altamaha River and larger than all other assessed 
populations in the Southeast. Thus, the survival of the Savannah River 
population is essential to the species' overall conservation.
                                 ______
                                 
 Prepared Statement of Lee R. Crockett, Director of Federal Fisheries 
                     Policy, Pew Environment Group
    The Pew Environment Group (PEG) appreciates the opportunity to 
provide a statement for the record on the National Oceanic and 
Atmospheric Administration (NOAA) FY 2012 budget request, particularly 
as it relates to the implementation of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA), the law that has governed 
management of America's ocean fish since signed into law on this very 
day in 1976.
    The Pew Environment Group (PEG) offers qualified support for the 
President's FY 2012 budget request of $346.3 million for data 
collection and analysis programs at the National Marine Fisheries 
Service (NMFS). We are concerned that this request does not provide the 
long-term funding needed to maintain sustainable fisheries. Therefore, 
we consider it the minimum necessary to keep our fisheries on the road 
to recovery.
    In the 35 years since the MSA was enacted on April 13, 1976, the 
law has enjoyed strong bipartisan support, including the most recent 
2006 reauthorization, which was sponsored by the late Senator Ted 
Stevens and signed into law by President George W. Bush. The MSA 
provides the tools to sustainably manage ocean fish, one of America's 
most valuable natural resources. Healthy fish populations are the 
backbone of America's commercial and recreational saltwater fishing 
industries, which according to NMFS generated $163 billion in sales 
impacts and supported nearly 1.9 million full and part-time jobs in 
2008 alone.\1\ Ocean fish conservation is good for fishermen, America's 
economy and the environment. For this reason, diverse stakeholders 
including commercial fishermen, recreational anglers and environmental 
groups are united in advocating for data collection and analysis 
appropriations.
---------------------------------------------------------------------------
    \1\ National Marine Fisheries Service (NMFS), 2010, ``Fisheries 
Economics of the United States, 2008,'' <http://www.st.nmfs.noaa.gov/
st5/publication/index.html>.
---------------------------------------------------------------------------
    Relatively modest Federal investments in fisheries data collection 
and analysis in FY 2012 will help deliver over time billions of dollars 
in economic benefits and hundreds of thousands of jobs for U.S. 
taxpayers. PEG urges you to continue the bipartisan tradition of 
support for the MSA and provide adequate resources for data collection 
and analysis for the benefit of our fishing industries and ocean fish 
populations.
The MSA--Ending Overfishing in the United States
    Fish have been a staple in our diet and an important part of our 
Nation's economic health since the time of the early settlers. George 
Washington managed a shad fishery at Mount Vernon, and Atlantic cod 
were critical to the survival and development of the early colonies. 
Unfortunately, overfishing (taking fish faster than they can reproduce) 
has diminished the economic potential of our Nation's ocean fish 
populations, particularly in recent decades. Today, nearly a quarter of 
our commercially and recreationally important ocean fish populations--
including some tuna, cod, flounder, snapper and grouper species--are 
severely depleted.\2\
---------------------------------------------------------------------------
    \2\ NMFS, ``2010 Status of U.S. Fisheries: Fourth Quarter Update,'' 
December 30, 2010. <www.nmfs.noaa.gov/sfa/statusoffisheries/
SOSmain.htm>.
---------------------------------------------------------------------------
    Congress first attempted to address this problem in 1976 when it 
passed the Fishery Conservation and Management Act, the precursor to 
the MSA, to ``Americanize'' our fisheries by eliminating foreign 
fishing off the U.S. coast and promoting the domestic fishing industry. 
However, over the course of the next two decades, policies focusing on 
expanding fishing, as well as dramatic improvements in technologies to 
locate and catch fish, resulted in overfishing becoming a national 
problem. Historic overfishing led to the collapse of many important 
fish populations around the country, most notably in New England, where 
severe declines in catch of such staples as cod wrought tremendous 
damage to fishing communities.
    A bipartisan group of lawmakers crafted the Sustainable Fisheries 
Act in 1996, which changed the focus of the MSA from promoting fishing 
to conserving fish, because they recognized the toll that overfishing 
was taking on fishermen and fishing communities across the country in 
the form of lost jobs, reduced catch and idle boats. Unfortunately, 
these changes did to not put an end to overfishing, and in 2006 
Congress overwhelmingly supported amendments to the MSA to end 
overfishing once and for all. Specifically, Congress required the 
establishment of science-based annual catch limits (ACLs) that do not 
allow overfishing and rebuild depleted fish populations and 
accountability measures to ensure success. President George W. Bush 
signed these amendments into law on January 12, 2007.
    Thanks to these bipartisan reforms, today we are witnessing 
rebounding fish populations and increased fishing opportunities for 
commercial fishermen and recreational anglers across the country. For 
example, overfishing is no longer occurring in the Mid-Atlantic region; 
and summer flounder, which supports a valuable commercial and 
recreational fishery, is nearly fully rebuilt because managers finally 
reduced fishing pressure to sustainable levels. Just over twenty years 
ago, summer flounder had declined to less than 15 percent of healthy 
levels as a result of overfishing.\3\ Now, the population has rebounded 
to 89 percent of a healthy level, enabling managers to increase the 
2011 quota by 7.35 million pounds to 29.48 million pounds, an 86.9 
percent increase in just over 3 years from a low of 15.77 million 
pounds in 2008. In 2009, we commissioned an economic study that found 
rebuilding all Mid-Atlantic fish populations to healthy levels would 
generate $570 million in annual economic benefits.\4\ Sound fisheries 
management is clearly a good economic investment.
---------------------------------------------------------------------------
    \3\ Supra note 1.
    \4\ J. M. Gates, ``Investing in Our Future: The Economic Case for 
Rebuilding Mid-Atlantic Fish Populations,'' Pew Environment Group 
(2009), <www.endoverfishing.org/resources/PEG_
rebuilding.pdf>.
---------------------------------------------------------------------------
    In the Gulf of Mexico, conservation measures put in place by 
managers to finally end decades of overfishing on Gulf red snapper have 
allowed red snapper populations to increase, enabling managers to raise 
the allowable catch by 39 percent in 2010 to 6.945 million pounds.\5\In 
10 years, the red snapper catch is expected to increase from current 
levels to more than 10 million pounds annually, providing enduring 
economic benefits for fishermen and coastal communities hit hard by 
hurricanes and the recent Deepwater Horizon oil spill.\6\
---------------------------------------------------------------------------
    \5\ National Oceanic and Atmospheric Administration (NOAA) 
Southeast Regional Office, 2010. ``Southeast Fishery Bulletin FB10-
027.'' <http://sero.nmfs.noaa.gov/bulletins/pdfs/2010/FB10-
027%20Gulf%20Red%20snapper%20FR%20Reg%20Amend.pdf>.
    \6\ Gulf of Mexico Fishery Management Council, 2007. ``Final 
Amendment 27 to the Reef Fish Fishery Management Plan and Amendment 14 
to the Shrimp Fishery Management Plan.'' <http://sero.nmfs.noaa.gov/sf/
RedSnapper/pdfs/FinalRFAmend27-ShrimpAmend14.pdf>.
---------------------------------------------------------------------------
    In Alaska's Eastern Bering Sea, Snow Crab was heavily fished 
throughout the 1980s and 1990s and was subsequently declared overfished 
in 1999. In 2000, the North Pacific Fishery Management Council 
implemented a rebuilding plan for snow crab which reduced harvest rates 
and led to a population that is now at 96 percent of healthy levels.\7\ 
Due to these management measure and increase in population size, 
fishery managers were able to increase the total allowable catch for 
the 2010 fishing season to 54.3 million pounds, a boost of 13 percent 
over the previous year.\8\
---------------------------------------------------------------------------
    \7\ North Pacific Fishery Management Council, 2010 Final Crab SAFE, 
September 20010. http://www.fakr.noaa.gov/npfmc/membership/plan_teams/
CPT/CRABSAFE2010_910.pdf.
    \8\ Alaska Department of Fish and Game, Division of Commercial 
Fisheries News Release. October 1, 2010. http://www.adfg.alaska.gov/
static/fishing/PDFs/commercial/newsreleases/shellfish/westward/
nr112010-5.pdf.
---------------------------------------------------------------------------
    In New England, the Fishery Management Council is reforming the 
important groundfish fishery by adopting for the first time science-
based annual catch limits and creating the voluntary ``sector'' 
management system that enables fishermen to form cooperatives that 
allow them greater flexibility in when they fish and control over how 
they fish. Preliminary data from NMFS show that these reforms are 
working: in the first 9 months of the fishing year, revenues were up 5 
percent over the same time period in 2009, and the number of fish 
landed was down 14 percent.\9\ When the fishing year ends in April, we 
will join Congress in carefully evaluating the economic and 
environmental performance of this new management system. However, if 
early reports are any indication, we can expect an end to overfishing, 
which in time will lead to growing fish populations, healthier ocean 
ecosystems and greater profits in New England.
---------------------------------------------------------------------------
    \9\ NOAA Northeast Regional Office, 2011. ``Sector Vessel Landings 
& Revenue, 2009 & 2010.'' <http://www.nero.noaa.gov/ro/fso/reports/
Sector_monitoring/Table_4.pdf> Accessed 3/2/2011.
---------------------------------------------------------------------------
Return on Investment
    As described above, America's investment in the MSA is providing 
tangible returns to fishermen, coastal communities and the Nation. 
America's fish are almost certain to become more valuable over time. 
While there are many factors that impact the market value of our ocean 
fish, the U.S. Department of Agriculture predicts that the price of 
fish and seafood in the U.S. is expected to increase significantly over 
time, faster than any other food through 2019.\10\ Protecting and 
expanding the U.S. wild fish supply is increasingly important because 
America has developed a seafood deficit, with over 80 percent of 
seafood consumed in the U.S. being imported in recent years.\11\ The 
relatively modest Congressional investment of $346.3 million for data 
collection and analysis programs that we recommend for FY 2012 is 
critical to begin reversing that trade deficit. NMFS estimates that 
rebuilding all of our depleted fish populations will deliver U.S. 
taxpayers an additional $31 billion in annual sales every year and 
support for 500,000 new American jobs.\12\
---------------------------------------------------------------------------
    \10\ United States Department of Agriculture (2010), ``USDA 
Agricultural Projections to 2019,'' See Table 39, page 99. <http://
www.usda.gov/oce/commodity/archive_projections/USDA
AgriculturalProjections2019.pdf>.
    \11\ NMFS, 2011, ``Fisheries Economics of the United States, 
2009'', <http://www.st.nmfs.
noaa.gov/st1/fus/fus09/index.html>.
    \12\ Testimony of Eric Schwaab on Implementation of the Magnuson-
Stevens Conservation and Management Act before the U.S. Senate 
Committee on Commerce, Science and Transportation Subcommittee on 
Oceans, Atmosphere, Fisheries and the Coast Guard, p. 3, March 8, 2011: 
<http://www.legislative.noaa.gov/112testimony.html>.
---------------------------------------------------------------------------
Supporting the Transition to Long Term Sustainability
    Though we are beginning to see early returns on our investments as 
the MSA is implemented around the country, we recognize that the 
transition to sustainability has resulted in challenges for some 
fishermen. Decades of overfishing have reduced many fish populations to 
very low levels, increasing the difficulty and cost of their recovery. 
Management measures such as significantly reducing catch in the near-
term or closing areas to fishing for a limited period of time are 
sometimes necessary to end overfishing and restore these fish 
populations.
    Unfortunately, some fishermen are calling on Congress to weaken the 
MSA's conservation requirements to address these short-term economic 
challenges. This would be a mistake, because it was the loopholes in 
the law prior to the 1996 and 2006 amendments that allowed fishery 
managers to put short-term economics ahead of long-term conservation, 
resulting in overfishing and depleted fish populations. Rather than 
repeating the failed policies of the past, Congress should look for 
ways to help fishermen transition to sustainability while allowing 
federal managers to fulfill the promise of the MSA's conservation 
provisions. For example, regional permit banks in New England are a 
possible solution for fishermen in the groundfish fishery who need a 
low cost way to obtain more quota. NMFS has already provided $6 million 
to date to help New England states establish public permit banks to 
enhance fishing opportunities for small-scale groundfish fishermen.\13\
---------------------------------------------------------------------------
    \13\ NOAA Northeast Regional Office. September 13, 2010. ``NOAA and 
Rhode Island Department of Environmental Management Announce $1 Million 
Initiative to Establish Rhode Island Groundfish Permit Bank.'' <http://
www.nero.noaa.gov/nero/hotnews/RIGroundFishpermit
bank/RIPB_PR9_13_10.htm>.
---------------------------------------------------------------------------
    Another challenge we face in the transition to sustainable 
fisheries management is setting science-based catch limits for fish 
populations that lack recent stock assessments, a situation that is 
most pressing in the South Atlantic, Gulf and Caribbean regions. Some 
assert that managers are making decisions based on inadequate science 
and advocate for weakening or eliminating the requirement to set ACLs 
for these so called ``data poor'' species. Decades of experience have 
proven that failing to establish ACLs creates demonstratively negative 
consequences for many important fisheries across the country. For 
example, managers did not set hard fishing quotas for South Atlantic 
black sea bass for over twenty years despite multiple assessments 
indicating the dire status of this fish. Now, twenty years later, 
managers must take difficult steps to restore South Atlantic black sea 
bass, including most recently closing the commercial and recreational 
season 5 months early. This example shows that eliminating the 
requirement to set ACLs for data poor species in the short-term can 
have severe long-term costs.
    It is important to note that there are no fish species managed 
under the MSA for which there are no data. Information is available on 
basic biology, life history characteristics or commercial and 
recreational catch numbers that can be used to set catch limits even 
for fish without complete assessments. For these fish populations, 
there are tools available for managers to set annual catch limits, some 
as simple as locking in current catch levels until more complete 
scientific evidence indicates that the population can support more 
fishing. These short-term measures will avoid the long-term costs 
incurred from unwittingly allowing overfishing.
FY 2012 Appropriations--Investing in Data Collection, Analysis and 
        Monitoring Programs
    Substantial progress toward ending overfishing in the storied New 
England groundfish fishery and the rebound of recreationally and 
commercially important fish populations like summer flounder in the 
Mid-Atlantic illustrate that the MSA is working. In order to build on 
this success, we must give managers the tools to fully implement the 
MSA. Data collection programs in particular are the lifeblood of good 
fisheries management, generating information that helps managers make 
informed decisions, and fishermen and other fishery-related businesses 
plan their investments and business actions. Congress should support 
these programs because they are critical for maintaining healthy fish 
populations that support stable and productive fisheries.
    As such, PEG supports the President's FY 2012 request of $346.3 
million for the following core data collection, analysis and monitoring 
programs, an increase of $1.4 million over FY 2010 enacted funding 
levels. We note that proposed reductions made by the Administration 
(described below) from FY 2010 levels will negatively impact programs 
that are important for monitoring, building bridges with fishermen and 
collecting important biological and socioeconomic data. PEG recognizes 
the difficult fiscal climate in the U.S., and we would like to follow-
up with the Committee to discuss the long-term investment levels needed 
to support productive fish populations and fisheries. With regard to FY 
2012, we support the following specific line-item requests:

  <bullet> Expand Annual Stock Assessments: $67.1 million as requested, 
        an increase of $16.2 million over the FY 2010 enacted level. 
        Fish stock assessments are critical for setting science-based 
        ACLs that prevent overfishing and maintain productive fisheries 
        over time. This funding would provide NMFS greater capability 
        to assess the 230 commercially and recreationally important 
        fish stocks managed by the Federal Government. Timely, updated 
        stock assessments reduce the scientific uncertainty associated 
        with ACL-setting and can help fishery managers to increase 
        commercial and recreational fishing opportunities while 
        minimizing the risk of overfishing. We strongly support this 
        critical increase in funding.

  <bullet> Fisheries Statistics: $24.4 million as requested, an 
        increase of $3.4 million over the FY 2010 enacted level. This 
        budget line item supports programs that provide advice, 
        coordination and guidance on matters related to the collection, 
        analysis and dissemination of statistics in both commercial and 
        recreational saltwater fisheries. The Marine Recreational 
        Information Program, created to improve the quality and 
        accuracy of recreational fishing data per the 2006 MSA 
        amendments, is funded primarily through this budget line-item. 
        Higher quality data on marine recreational fishing, which 
        contributes $59 billion in sales impacts to the U.S. economy 
        and supports 384,000 jobs, will allow scientists to better 
        estimate fishing mortality and set ACLs more accurately, thus 
        reducing the risk of overfishing.\14\ At a time when 
        recreational fishermen and scientists agree that better data 
        are critical for both restoring fish populations and increasing 
        recreational fishing opportunities, we urge Congress to support 
        this increase in funding.
---------------------------------------------------------------------------
    \14\ NMFS, 2010, ``Fisheries Economics of the United States, 
2008,'' <http://www.st.nmfs
.noaa.gov/st5/publication/fisheries_economics_2008.html>.

  <bullet> Survey and Monitoring Projects: $24.2 million as requested, 
        an increase of $.5 million over the FY 2010 enacted level. NOAA 
        has stated that ``many fisheries lack adequate and timely 
        monitoring of catch and fishing effort.'' \15\ Survey and 
        monitoring projects provide critical support for implementation 
        of the new ACL requirement. Increased funding will improve the 
        accuracy of ACLs and increase the percentage of stocks with 
        assessments\16\ Additional funding for fishery-independent 
        surveys, monitoring and research will improve estimates of 
        ecosystem change, fishing mortality and population size.
---------------------------------------------------------------------------
    \15\ NOAA, ``Budget Estimates, Fiscal Year 2009, Congressional 
Submission,'' p. 166. Available at: http://
www.corporateservices.noaa.gov/nbo/fy09_rollout_materials/
NOAA_FY09_Final
_CJ.pdf.
    \16\ NOAA, ``Technical Memorandum NMFS-F/SPO-56: Marine Fisheries 
Stock Assessment Improvement Plan: Report of the National Marine 
Fisheries Service National Task Force for Improving Fish Stock 
Assessments,'' October 2001. Available at: http://www.nmfs.noaa.gov/pr/
sars/improvement/pdfs/marine_fisheries_saip.pdf.

  <bullet> Observers/Training: $39.1 million as requested, a decrease 
        of $1.9 million from the FY 2010 enacted level. Trained 
        fisheries observers provide essential data on the amount and 
        type of fish caught by fishermen, which is used for compliance 
        monitoring and scientific stock assessments.\17\ NOAA considers 
        at-sea observers the most reliable source of information about 
        fishing catch and bycatch (i.e., incidental catch of non-target 
        ocean wildlife).\18\ We feel that this request does not reflect 
        the annual investment needed for observer programs.
---------------------------------------------------------------------------
    \17\ NOAA, ``NOAA FY 2012 President's Budget'', Chapter 2: National 
Marine Fisheries Service, p. 315-19. Available at: http://
www.corporateservices.noaa.gov/nbo/fy12_presidents_budget/
National_Marine_Fisheries_Service_FY12.pdf.
    \18\ NOAA/NMFS, Evaluating Bycatch: A National Approach to 
Standardized Bycatch Monitoring Programs, NOAA Technical Memorandum 
NMFS-F/SPO-66, October 2004. 108 p.

  <bullet> Cooperative Research: $7.2 million as requested by the 
        President, a decrease of $10.3 million from the FY 2010 enacted 
        level. Cooperative research programs pay fishermen, working 
        under the direction of Federal scientists, to collect fisheries 
        data and test new sustainable fishing gear and practices. These 
        programs provide jobs for fishermen and also enable managers to 
        tap into their on-the-water knowledge and expertise. In 2003, 
        NMFS estimated that it would need $25.5 million for cooperative 
        research by FY 2009.\19\ We are concerned about the effect of 
        the proposed reduction on fishermen and would suggest that 
        cooperative research should be funded at this level.
---------------------------------------------------------------------------
    \19\ NMFS' 2003 5 year assessment estimated the need for 
cooperative research to be $22.8 million above FY 2003 levels by FY 
2009, for a total of $25.5 million.

    In addition, the President's FY 2012 budget request transfers $6 
        million out of the cooperative research line item and into the 
        National Catch Share Program line item. We believe that any 
        increases for catch share programs should be made with new 
        money, not transferred from existing general research programs 
        that should be available for all fisheries. Although NMFS 
        asserts that the $6 million will be used for cooperative 
        research in catch share fisheries, there is no guarantee that 
        it will continue to be used for cooperative research in the 
        future. Taking funding from general cooperative research, where 
        it would be available for all fisheries, and restricting it to 
        only catch share fisheries, short changes the vast majority of 
---------------------------------------------------------------------------
        fisheries, which are not catch share fisheries.

  <bullet> Fisheries Research and Management Programs: total of $184.3 
        million as requested, a $6.5 million decrease from the FY 2010 
        enacted level. Fisheries research and management programs 
        provide accurate and timely information and analysis of the 
        biology and population status of managed fish, as well as the 
        socioeconomics of the fisheries that depend on those 
        populations. Such information is critical for the development 
        of management measures to ensure that they end overfishing, and 
        we have concerns regarding the reduction from FY 2010 levels. 
        Because of their vital role, Fisheries Research and Management 
        Programs should be funded at no less than the FY 2012 request 
        of $184.3 million. In NOAA's FY 2012 budget request, $11.4 
        million is transferred from the Fisheries Research and 
        Management Programs line item into the National Catch Share 
        Program line item. As with Cooperative Research, no funds from 
        this line item should be transferred to the National Catch 
        Share Program because those funds would become permanently 
        unavailable to support research and management of the vast 
        majority of federally managed fisheries that are not currently 
        in a catch share program, and may not be included in one in the 
        future.
Conclusion
    Good fisheries management leads to healthy fish populations, a 
stable and productive fishing industry and robust recreational 
fisheries--a win-win for conservation, anglers and marine-related 
businesses. Today, because of the MSA, fishery managers are using 
science-based catch limits that do not allow overfishing and rebuild 
depleted fish populations to healthy levels. These requirements are 
working, providing economic benefits to fishing communities and the 
Nation as a whole, and promise to provide even greater returns in the 
future. We cannot afford to leave the job of bringing all fish 
populations to healthy levels unfinished--our nation's fishermen and 
our fish resources depend on it. The relatively modest investments that 
we are requesting today will lead to tremendous yield in the future. 
According to
NMFS, rebuilding all U.S. fish populations will lead to a $31 billion 
increase in annual sales and support for half a million new U.S. 
jobs.\20\
---------------------------------------------------------------------------
    \20\ Testimony of Eric Schwaab on Implementation of the Magnuson-
Stevens Conservation and Management Act before the U.S. Senate 
Committee on Commerce, Science and Transportation Subcommittee on 
Oceans, Atmosphere, Fisheries and the Coast Guard, p. 3, March 8, 2011: 
<http://www.legislative.noaa.gov/112testimony.html>.
---------------------------------------------------------------------------
    We ask the Committee to continue its support of the MSA and invest 
at least $346.3 million in FY 2012 in one of America's most valuable 
natural resources, our ocean fish populations, so that they can 
continue to provide significant and growing benefits for U.S. taxpayers 
through fishing jobs, healthy oceans, local seafood and vibrant coastal 
communities.
                                 ______
                                 
                                                     April 12, 2011
Hon. Barbara Mikulski,
Chairwoman,
Subcommittee on Commerce, Justice, Science, and Related Agencies,
Committee on Appropriations,
U.S. Senate,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Subcommittee on Commerce, Justice, Science, and Related Agencies,
Committee on Appropriations,
U.S. Senate,
Washington, DC.

Dear Chairwoman Mikulski and Ranking Member Hutchison,

    We, the undersigned 130 organizations representing a diverse range 
of commercial and recreational fishing associations, commercial seafood 
dealers, the charter and for-hire industry, fishery dependent 
businesses and ocean conservation organizations, collectively urge the 
Subcommittee and all Members of Congress to support the President's FY 
2012 NOAA budget request of $91.5 million for the Expand Annual Stocks 
Assessments and Fisheries Statistics line-items. We request that you 
make these data collection and analysis line items a top priority in FY 
2012.
    The National Marine Fisheries Service estimates that U.S. 
commercial and saltwater recreational fishing contributes over $160 
billion to the economy annually and supports nearly 2 million jobs. 
These industries rely on healthy fish populations, which provide food 
for our tables, offer recreational opportunities for millions of 
Americans and sustain jobs and communities on every coast. Congress 
should invest in America's fish populations and fishing businesses by 
providing the funding necessary to ensure that managers use the best 
science possible to guide stewardship of our ocean fish resources.
Expand Annual Stock Assessments ($67.1 million, as requested)
    Stock assessments provide the basic information that scientists use 
to determine the health of fish populations. Assessments provide 
estimates of abundance and catch levels that a fish population can 
support. Increased funding will reduce scientific and management 
uncertainty and will allow managers to set catch levels and 
accountability measures that maximize fishing opportunities while 
rebuilding those that have been determined to be overfished and 
maintaining healthy fish populations.
Fisheries Statistics ($24.4 million, as requested)
    The 2006 amendments to the Magnuson Stevens Act required the 
Agency, within 2 years, to improve the quality and accuracy of their 
primary private angler data collection program. These amendments led to 
the establishment of the Marine Recreational Information Program which 
is funded primarily through the Fisheries Statistics budget line. 
Investment of funds for this line item will improve data on 
recreational catch levels and participation, and will help scientists 
to better estimate recreational fishing mortality and set more accurate 
catch limits. This program will also result in more timely decisions 
that both the regional fishery management councils and the fishing 
industry need to improve management and potentially lead to more 
fishing opportunities.
    Thank you for your consideration of our requests. Rarely does such 
a diverse group of U.S. stakeholders agree on fishery-related issues, 
but on the need to adequately fund fisheries data collection there is 
no disagreement. If we are going to have abundant fisheries, Congress 
must provide the resources to necessary to sustainably manage ocean 
fish by ensuring that management decisions are based on timely and 
accurate information and analysis. The health of America's ocean fish 
populations and the jobs, income, recreation, seafood and communities 
that they sustain depend on your investments in FY 2012.
            Sincerely,
National:
Jim Martin, Conservation Director, Berkley Conservation Institute, Pure 
Fishing
Aaron Adams, Ph.D., Director of Operations, Bonefish and Tarpon Trust
Norris McDonald, President, Center for Environment, Commerce & Energy, 
African American Environmentalist Association
Michael Gravitz, Oceans Advocate, Environment America
Carl Safina, President, Blue Ocean Institute
Amanda Leland, Associate Vice President, Oceans Environmental Defense 
Fund
Tobias Aguirre, Executive Director, FishWise
Phil Kline, Senior, Ocean Campaigner, Greenpeace USA
Lewis Regenstein, Interfaith Council for the Protection of Animals and 
Nature
Rob Kramer, President, International Game Fish Association
Bruce J. Stedman, Executive Director, Marine Fish Conservation Network
Sean Saville, National Field Director, National Audubon Society
Jason M. Patlis, President and CEO, National Marine Sanctuary 
Foundation
Sarah Chasis, Director, Oceans Program, Natural Resources Defense 
Council
Chris Dorsett, Director, Fish Conservation and Gulf Restoration Program 
Ocean Conservancy
Michael Stocker, Director, Ocean Conservation Research
Diane Buccheri, Publisher, OCEAN Magazine
Beth Lowell, Federal Policy Director, Oceana
Lee Crockett, Director, Federal Fisheries Reform, Pew Environment Group
Fabien Cousteau, Founder and President, Plant a Fish
Paul G. Johnson, State Programs & Policy Director, Reef Relief
David Jenkins, Vice President for Government and Political Affairs, 
Republicans for Environmental Protection
Dan Pingaro, Executive Director, Sailors for the Sea
Jamie Pollack, Co-Founder and Director, Shark Savers
Doug Olander, Editor in Chief, Sport Fishing Magazine
Marc A. Yaggi, Interim Executive Director, Waterkeeper Alliance
Randy Repass, Founder and Chairman, West Marine

Alabama:

Tracy Redding, Owner, AAA Charters, Orange Beach, AL

Alaska:

Dorothy Childers, Program Director, Alaska Marine Conservation Council, 
Anchorage, AK

California:

Cynthia D'Vincent, Director, Intersea Foundation, Carmel Valley, CA
Dr. Jan Freiwald, Director, Reef Check California, Pacific Palisades, 
CA
Will McFarland, Owner, World of Diving, Hermosa Beach, CA

Delaware:

Michael Riska, Executive Director, Delaware Nature Society, Hockessin, 
DE

Florida:

David W. Hartman, President and Dive Instructor, Fantastic Endeavors, 
Key Largo, FL
Justin Rieger, Captain, Just-in-Time Charters, Fort Pierce, FL
Terry Gibson, President, North Swell Media, Jensen Beach, FL
Ryan Floyd, Captain, Off the Bank Charters, Fort Pierce, FL

Hawaii:

Rick Gaffney, President, Hawaii Fishing & Boating Association, Kailua 
Kona, HI
Lynn Webber, Office Manager, SeaPics.com, Kailua Kona, HI

Maine:

Jennifer Litteral, Policy Director, Island Institute, Rockland, ME
Landis Hudson, Executive Director, Maine Rivers, Yarmouth, ME
Glen Libby, Chairman, Midcoast Fishermen's Association, Port Clyde, ME
Glen Libby, President, Midcoast Fishermen's Cooperative, Port Clyde, ME

Maryland:

Theaux Le Gardner, Owner, Backwater Angler, Monkton, MD
Gary G. Allen, Executive Director, Center for Chesapeake Communities, 
Annapolis, MD
Bill Goldsborough, Senior Scientist, Chesapeake Bay Foundation, 
Annapolis, MD
Brad Heavner, State Director, Environment Maryland, Baltimore, MD
Jim Chambers, Founder and Owner, Prime Seafood, Kensington, MD

Massachusetts:

Antony Cignoli, President, A L Cignoli Company, Springfield, MA
Art Benner, President, Alewives Anonymous, Rochester, MA
David Klotsbach, President, Bach Corp, Plymouth, MA
William Wynne, CEO, Byson Investments, Duxbury, MA
Robert Avilla, General Manager, Capt. John Boats, Plymouth, MA
Jason Cincotti, Principal, Cence Cincotti Strategies, Boston, MA
Peter Shelley, Senior Counsel, Conservation Law Foundation, Boston, MA
Robert Almond, COO, Full Armor, Boston, MA
Alan Costello, Owner, FV Alyson Marie, Plymouth, MA
Thomas O'Reilly, Owner, FV Karen M., Plymouth, MA
Kerry Mackin, Executive Director, Ipswich River Watershed Association, 
Ipswitch, MA
Jane Lane, Vice President, Johnston Associates, Boston, MA
Joseph DiLorenzo, Partner, MD Group, Scituate, MA
Carol Carson, President, New England Coastal Wildlife Alliance, 
Middleboro, MA
Paul O'Sullivan, President, O'Sullivan & Associates, Quincy, MA
Denis Hanks, Executive Director, Plymouth Area Chamber of Commerce, 
Plymouth, MA

New Jersey:

Doug O'Malley, Field Director, Environment New Jersey, Trenton, NJ
Fred Akers, River Administrator, Great Egg Harbor Watershed 
Association, Newtonville, NJ
Mary M. Hamilton, Executive Director, SandyHook SeaLife Foundation, 
Medford, NJ

New York:

Bernie Chowdhury, President, Alpha Dive Training, Middletown, NY
Adrienne Esposito, Executive Director, Citizens Campaign for the 
Environment, Farmingdale, NY
Ralph Towlen, Captain, Coastal Water Guides, Hampton Bays, NY
Margaret Lydecker, Founder, Green Drinks NYC, New York, NY
Jack Pollack, President, Integrated Electronic Systems, New York, NY
David Blinken, Captain and Fishing Guide, North Flats Guiding, East 
Hampton, NY
Michael Feld, Founder and President, Ocean Blue Divers, New York, NY
Phillip Musegaas, Esq., Hudson River Program Director, Riverkeeper, 
Ossining, NY
Stephen J. Scigliano, Owner, Swim and Scuba, Rockville Centre, NY
Ed Tiedemann, Owner, Tiedemann's Diving Center, Levittown, NY

North Carolina:

Will Morgan, Director of Governmental Affairs, NC Sierra Club, Raleigh, 
NC
Larry Baldwin, Lower Neuse Riverkeeper, Neuse Riverkeeper Foundation, 
New Bern, NC
Alissa Bierma, Upper Neuse Riverkeeper, Neuse Riverkeeper Foundation, 
New Bern, NC
Dan Crawford, Director of Governmental Relations, North Carolina League 
of Conservation Voters, Raleigh, NC
Kelly Jochim, Pamlico-Tar Riverkeeper, Pamlico-Tar River Foundation, 
Washington, NC
Tess Sanders, Executive Director and Riverkeeper, White Oak-New 
Riverkeeper Alliance, Jacksonville, NC

Ohio:

Cheryl Patterson, Owner, Deep Blue Adventures, Swanton, OH

Oregon:

Nina Bell, J.D., Executive Director, Northwest Environmental Advocates, 
Portland, OR

Pennsylvania:

Stan Kotala, M.D., Conservation Chair, Juniata Valley Audubon, 
Hollidaysburg, PA
Adam Garber, Field Director, PennEnvironment, Philadelphia, PA

Rhode Island:

Roland St.John, Owner, Big Blue Aquatic Gifts, Tiverton, RI
Charlie Donilon, Owner and Captain, Snapper Charters, Wakefield, RI

South Carolina:

Dana Beach, Executive Director, South Carolina Coastal Conservation 
League, Charleston, SC

Texas:

Michael Miglini, Board Member, Charter Fishermen's Association, Corpus 
Christi, TX
Scott Hickman, Owner and Operator, Circle H Outfitters, Galveston, TX
Luke Metzger, Director, Environment Texas, Austin, TX
Captain Shannon LaBauve, Owner and Operator, Geaux Fishing Charters, 
Houston, TX
Captain Darrell Hingle, Owner and Operator, Hingle's Guide Service, 
Galveston, TX
Captain Mike Segall, Owner and Operator, Reel Threel Saltwater 
Charters, Galveston, TX
Evonn Caraway, Operations Manager, Underwater Expeditions, Freeport, TX

Virginia:

Bev Sell, 5 Point Norfolk Farm Market, Norfolk, VA
Bethina Essert, Owner, Alchemy Redefined, Norfolk, VA
Jesse Scaccia, Owner, Alt Daily, Norfolk, VA
William Cox, Owner, And Design Collective, Virginia Beach, VA
Romayne Byrum, Owner, Batten Bay Farm, Virginia Beach, VA
Lyn Cherry, Owner, Beach Flavor, Virginia Beach, VA
Jessica Whitaker, Owner, Bull Dog Beads, Virginia Beach, VA
Dan Boyle, Manager, Central VA Wind Energy and Manufacturing, 
Charlottesville, VA
Michael Cherry, Owner, Cherry Brothers Railing Company, Virginia Beach, 
VA
Pat Okerland, Chair, Chesapeake for Change, Chesapeake, VA
Kara Morisette, Manager, Counseling Interventions, Virginia Beach, VA
Laura Wood-Harbor, Owner, Croc's Eco-Bistro, Richmond, VA
Frederick Perry, Owner, Dominion Fuels, Hampton, VA
Scott Barta, Owner, Echelon Pavers, Virginia Beach, VA
Christina Trapani, Owner, Eco Maniac, Norfolk, VA
Amelia Baker, Owner, Green Alternatives, Norfolk, VA
Randy Gilliland, Director, Green Jobs Alliance, Hampton, VA
Laura Wood Harbor, Restaurants and Hospitality Green Advisor, Greener 
Results Virginia, Norfolk, VA
Zac Jungers, Director, Hampton Roads Green Caffeine, Hampton, VA
Zac Jungers, Director, Hampton Roads Green Drinks and Green Caffeine, 
Hampton, VA
Tyler Joran, Owner, ModTra Corp, Virginia Beach, VA
Joe Cook, Virginia Organizer, MoveOn.Org-Hampton Roads, Norfolk, VA
Tench Phillips, Owner, Naro Expanded Cinemas, Norfolk, VA
Courtney Simmons, President, Nuckols Tree Care, Virginia Beach, VA
Jessica Riehl, Owner, Riehl Photography and Green Irene, Chesapeake, VA
Duane Thompson, Owner, Sabrosa Foods, Norfolk, VA
Jeff Kelble, Riverkeeper, Shenandoah Riverkeeper, Boyce, VA
Richard Good, Owner, Solar Services-Virginia Beach, Virginia Beach, VA
Stephen Hoots, Owner, Stephen Hoots Contracting, Virginia Beach, VA
Richard Hahn, Owner, Sunrise Solar and Wind, Norfolk, VA
Terra Pascarosa, Owner, Terra-Scapes Environmental Consulting, Virginia 
Beach, VA
Tom Robatham, Owner, Treehouse Magazine, Norfolk, VA

Washington:
Cleve Steward, Executive Director, Sustainable Fisheries Foundation, 
Snohomish, WA

cc: The Honorable Daniel K. Inouye, Chairman, U.S. Senate Committee on 
Appropriations The Honorable Thad Cochran, Vice Chairman, U.S. Senate 
Committee on Appropriations Members of the U.S. Senate Subcommittee on 
Commerce, Justice, Science and Related Agencies The Honorable John D. 
Rockefeller, IV, Chairman, U.S. Senate Committee on Commerce, Science 
and Transportation
The Honorable Mark Begich, Chairman, U.S. Senate Subcommittee on 
Oceans, Atmosphere, Fisheries and Coast Guard
The Honorable Olympia J. Snowe, Ranking Member, U.S. Senate 
Subcommittee on Oceans, Atmosphere, Fisheries and Coast Guard
The Honorable Doc Hastings, Chairman, U.S. House of Representatives 
Committee on Natural Resources
The Honorable Edward J. Markey, Ranking Member, U.S. House of 
Representatives Committee on Natural Resources
The Honorable John Fleming, Chairman, U.S. House Subcommittee on 
Fisheries, Wildlife, Oceans and Insular Affairs
The Honorable Gregorio Sablan, Ranking Member, U.S. House Subcommittee 
on Fisheries, Wildlife, Oceans and Insular Affairs

                                  <all>

</pre></body></html>
